<html>
<title> - CHESAPEAKE BAY OYSTER RESTORATION, MANAGEMENT & RESEARCH</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
        CHESAPEAKE BAY OYSTER RESTORATION, MANAGEMENT & RESEARCH
=======================================================================



                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                October 22, 2001 in Annapolis, Maryland

                               __________

                           Serial No. 107-70

                               __________

           Printed for the use of the Committee on Resources









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                   ________

                           U.S. GOVERNMENT PRINTING OFFICE
75-984                         WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 22, 2001.................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
    Underwood, Hon. Robert A., a Delegate to Congress from Guam..     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Baynard, Sherman, Past Chairman, Maryland Coastal 
      Conservation Association...................................    74
        Prepared statement of....................................    76
    Frentz, Charles S., Executive Director, Oyster Recovery 
      Partnership................................................    69
        Prepared statement of....................................    72
    Grasso, Thomas V., U.S. Director for Marine Conservation, 
      World Wildlife Fund........................................    50
        Prepared statement of....................................    52
    Gudes, Scott B., Acting Under Secretary for Oceans and 
      Atmosphere/Administrator, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     4
        Prepared statement of....................................     6
    Hansen, Colonel David, District Engineer, Norfolk District, 
      Army Corps of Engineers, U.S. Department of the Army.......    19
        Prepared statement of....................................    21
    Hirshfield, Michael F., Vice President of Resource 
      Protection, Chesapeake Bay Foundation......................    78
        Prepared statement of....................................    80
    Luckenbach, Dr. Mark W., Director, Eastern Shore Laboratory, 
      Virginia Institute of Marine Science, College of William 
      and Mary...................................................    32
        Prepared statement of....................................    35
    Oertel, Karen, Owner/Partner, W.H. Harris Seafood, Inc.......    81
        Prepared statement of....................................    86
    Roberts, Dr. Susan, Ocean Studies Board, Division on Earth 
      and Life Sciences, National Academy of Sciences............    45
        Prepared statement of....................................    46
    Schwaab, Eric C., Director, Maryland Department of Natural 
      Resources Fisheries Service................................    16
        Prepared statement of....................................    17









OVERSIGHT HEARING ON CHESAPEAKE BAY OYSTER RESTORATION, MANAGEMENT AND 
                                RESEARCH

                              ----------                              


                        Monday, October 22, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                          Annapolis, Maryland

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in 
Environmental Matters Committee Room, Lowe House Office 
Building, Annapolis, Maryland, Hon. Wayne Gilchrest [Chairman 
of the Subcommittee] presiding.
    Mr. Gilchrest. The hearing will come to order. I want to 
welcome everyone for coming this morning. We look forward to 
the witnesses and the information we will gather to make some 
continuing understanding of man's impact on a number of 
ecosystems. This morning we will deal pretty closely with the 
Chesapeake Bay and Watershed, and how we have made progress in 
recent decades to understand the nature of the ecosystem, human 
impacts on that ecosystem, positive or negative, whether we are 
restoring habitat or fragmenting habitat, whether we are 
cleaning habitat or polluting habitat, whether we are 
reinvigorating the species or overharvesting the species. These 
are all very carefully difficult and complex issues that we 
take extremely serious so that future generations will be able 
to live in a more pristine, understood, habitable ecosystem.
    These are very difficult times for all of us pending the 
difficult issues in the Middle East, our virtual war with the 
stain of madness that inflicts a tiny fraction of the human 
population, the difficulties now in the United States with 
biowarfare, but we appreciate all your steady, calm and 
deliberate efforts to be here today.
    The Congress, as Mr. Underwood will attest, is orderly, 
calm, still functioning, but as in other arenas you have a few 
people that will say otherwise, but basically this Government, 
this Administration, is functioning as well as it can be, and 
we appreciate all the efforts of all of you coming here today 
to continue life as usual. We appreciate the Administration and 
the Congress and the troops and the people of this country.
    So, today we will discuss, I think, efforts that will be 
implemented, and have been implemented, on a very timely, 
efficient, expedited scale, so that if there is any 
identifiable John Smith's relatives still living in the Mid-
Atlantic region, in the not too distant future they can take a 
canoe or a sailboat--we will stay away from the motorized craft 
because they cause turbidity on the shoreline, and we know what 
that does--sail up the Chesapeake Bay and, in a very pleasant 
way, maneuver their craft around the fully functioning oyster 
reefs.
    At this point, I would like to yield to the gentleman from 
Guam, Mr. Underwood, for a few words.

STATEMENT OF THE HON. ROBERT UNDERWOOD, A DELEGATE TO CONGRESS 
                           FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman, and I, too, echo 
your remarks and endorse your statement. I am remaining engaged 
in being normal. I daresay that we might be the only House 
subcommittee doing business today, and I guess it is testimony 
to the fact that you as a schoolteacher going directly into 
politics and me essentially following the same route, me as a 
schoolteacher going into politics--other people know better, 
but I do want to congratulate you for having this hearing and 
for continuing the work of the subcommittee. Thank you, and 
good morning to all of you. It is a pleasure to join you here 
in Annapolis today to learn more about the status of oyster 
research and restoration in the Chesapeake Bay. In fact, I hope 
that we will get a chance to taste the fruits of those efforts 
later on this afternoon.
    I applaud you for the dedicated interest that you have 
shown in scheduling field hearings to allow the members of this 
subcommittee opportunities to be exposed more directly to the 
important fish and wildlife issues that come before the 
committee. I am certain that such experiences will help make us 
more insightful legislators as we grapple with a number of 
authorization and reauthorization issues.
    I regret that my schedule prevented me from attending the 
subcommittee field hearing held earlier this year at the 
Blackwater National Wildlife Refuge near Cambridge. I 
understand that this hearing was a very informative session 
concerning the local impacts caused by the refuge system's 
operation and maintenance budget backlog. I am sorry that I 
missed that. I hope to sit down with you, Mr. Chairman, to 
discuss how we might be able to get you and other members of 
the subcommittee out to Guam and the Western Pacific, to learn 
more about the unique ocean and coastal resource issues that 
define that region. I want you to know that the staff is also 
pushing for that, on both sides of the aisle.
    [Laughter.]
    We, too, have problems with invasive species and, believe 
me, as much as you dislike your furry friend, the nutria, just 
wait until you meet a brown tree snake up close and personal.
    Let me close by saying that the efforts made since the 
early 1980's to restore the Chesapeake Bay have been guided by 
a remarkable commitment by the Federal Government and the 
affected States and communities that span across the entire 
Chesapeake Bay Watershed. And if any one factor can be used as 
a benchmark to judge the success of those efforts, oysters 
would be a good keystone species.
    In that regard, I look forward to hearing from today's 
witnesses to learn more about what is being done to restore the 
oyster population and, by association, to restore the health of 
the Chesapeake Bay. Thank you.
    [The prepared statement of Mr. Underwood follows:]

Statement of Hon. Robert A. Underwood, a Delegate to Congress from Guam

    Thank you, and good morning Mr. Chairman. It is a pleasure to be 
able to join you in Annapolis today to learn more about the status of 
oyster research and restoration in the Chesapeake Bay. In fact, I hope 
that we get a chance to taste the fruits of those efforts later this 
afternoon at lunch.
    More seriously, I applaud you for the dedicated interest you have 
shown in scheduling field hearings to allow the members of this 
subcommittee opportunities to be exposed more directly to the important 
fish and wildlife issues that come before us. I am certain that such 
experiences will help make us more insightful legislators in the 
future.
    I sincerely regret that my schedule prevented me from attending the 
subcommittee's field hearing held earlier this year at the Blackwater 
National Wildlife Refuge near Cambridge, Maryland. I understand that 
this hearing was a very informative session concerning the local 
impacts caused by the Refuge System's operations and maintenance budget 
backlog. I am sorry that I missed it.
    I hope soon to sit down with you to discuss how we might be able to 
get you and the other members of the subcommittee out to Guam and the 
Western Pacific Ocean to learn more about the unique ocean and coastal 
resource issues that define that region. We, too, have problems with 
invasive species. And believe me, as much as you dislike your furry 
friend, the Nutria, just wait until you meet a Brown Tree Snake up 
close and personal.
    Let me close by saying that efforts made since the early 1980s to 
restore the Chesapeake Bay have been guided by a remarkable commitment 
by the Federal Government and the affected States and communities that 
span across the entire Chesapeake Bay watershed. And if any one factor 
can be used as a benchmark to judge the success of those efforts, 
oysters would be a good keystone species. In that regard, I look 
forward to hearing from today's witnesses to learn more about what's 
being done to restore the oyster population, and by association, to 
restore the health of Chesapeake Bay.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Underwood. Mr. Underwood said 
that we should trade visits to each other's districts. So, Mr. 
Underwood comes to Annapolis and we will eventually get to 
Guam. That is a fairly balanced mutual beneficial relationship.
    I would like to introduce now a good friend, Mr. George 
Owings, who represents Southern Maryland extremely well. I 
first met George when I had the idea as a schoolteacher to run 
for Congress back in 1988, and at some of the interesting 
debates between our then opponent, Mr. Dyson, George would 
often give me some advice in breaks between the debate, which 
was always appreciated. Mr. Owings.
    Mr. Owings. Thank you, Mr. Chairman. Ladies and gentlemen, 
I am here today as a member of the Environmental Matters 
Committee, the group who are sitting now representing Chairman 
John Hurst and the entire committee. Congressman, I would like 
to thank you very much for the invitation. I have a special 
interest in this as Eric Schwaab, Tom Grasso, and some of you 
know, I am the Chairman of the Subcommittee on Agriculture, 
Environment and Natural Resources on this committee, and so I 
have a keen interest in that. In fact, Mr. Chairman, it was 
because of your leadership in this very room that steps were 
taken to ensure that the charge you were leading on Bay dumping 
had a satisfactory ending to it, at least to this point in 
time. And so, again, I would like to thank you on behalf of the 
Chairman and the Committee for the kind invitation to join you.
    Mr. Gilchrest. Thank you, Mr. Owings.
    Our first panel is Mr. Scott Gudes, Acting Under Secretary 
for Oceans and Atmospheric Administration for NOAA, U.S. 
Department of Commerce; Mr. Eric Schwaab, Director, Maryland 
Department of Natural Resources, Fisheries Service; and Col. 
David Hansen, District Engineer, Norfolk District, Army Corps 
of Engineers. Gentlemen, welcome this morning. Mr. Gudes, you 
may begin.

  STATEMENT OF MR. SCOTT B. GUDES, ACTING UNDER SECRETARY FOR 
  OCEANS AND ATMOSPHERE, ADMINISTRATOR, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Gudes. Thank you, Chairman Gilchrest, Congressman 
Underwood, Chairman Owings. On behalf of Secretary Don Evans 
and the 12.5 thousand men and women at your NOAA, I would like 
to thank you for this opportunity to testify today on oyster 
restoration, Marine Protected Areas and, of course, the 
Chesapeake Bay.
    As I have said to this committee before, the Chesapeake Bay 
is the nation's largest estuary. It is the backyard for NOAA 
Headquarters. It is something that is quite special to us. We 
have some 3,000 of our 12,500 employees at NOAA work in 
Maryland, and so this is something we take very seriously and 
this is actually quite an honor to be here in the State House.
    I have personally been able to be involved in restoration 
efforts around the Bay, including oyster restoration, and have 
a strong personal commitment to this issue we are talking about 
today.
    These are, of course, State-managed fisheries, and I am 
pleased to be here with Eric Schwaab and the Department of 
Natural Resources. At NOAA, we are in the mode of working with 
Maryland and Virginia and assisting the States with oyster 
restoration and disease. The fact that NOAA does not directly 
manage fisheries in the Chesapeake Bay, I think, gives our 
Chesapeake Bay office and agency a role as a nonbiased advocate 
for overall sustainability of Bay fishery resources, including 
oysters.
    We are concerned about the loss of oyster stocks in the 
Bay. In the mid-1950's, the Bay produced some 34 million pounds 
per year, and the harvest at that time actually was fairly even 
between Maryland and Virginia. Last year the harvest was only 
2.5 million pounds, with only about 6 percent in Virginia.
    The Chesapeake Bay Foundation has noted that we are at 
something like 2 percent of historical levels--and you were 
talking about John Smith before--historical levels of oysters 
overall in the Bay.
    Oysteries provide habitat and structure for other 
shellfish, for crabs, for finfish. They are a natural filtering 
machine removing plankton, sediment and improving water 
quality. In fact, a mature oyster can filter as much as 60 
gallons of water per day.
    NOAA has worked aggressively to get to the root of many of 
the factors on declining oyster levels--overfishing, alteration 
and degradation of habitat, and disease, MSX and Dermo. Let me 
speak to habitat first.
    Habitat loss or alteration continues to be a significant 
problem, and our goals are centered around, one, meeting the 
Chesapeake 2000 goal to restore oysters to 10 times their 
current biomass by 2010, and, two, furthering the science of 
restoration techniques.
    The handout I have provided and the chart up here indicates 
location where our oyster restoration activities have focused. 
This chart shows oyster reserves, oyster sanctuaries, harvest 
bars, bar cleaning and hatcheries.
    We have worked closely with the Oyster Recovery Partnership 
I know you will hear from later today, and many partners in the 
Bay to re-establish oyster beds with clean shell and spat, 
recondition oyster bars coated by sediment, and to field test 
disease-resistant strains oysters. Just last week, some people 
from my office, Dr. Becky Alley, our head of Legislative 
Affairs, Mary Beth Nethercut, and a lot of the folks who are 
here from the Chesapeake Bay office worked with you to do an 
oyster recovery project in the Chester River. A significant 
effort has gone into increasing the production of spat-on-shell 
young oysters and placing them on reconditioned bars.
    To date, through NOAA and partner-funding, more than 25 
bars, representing over 380 acres, have been reconditioned and 
seeded with 70 million oysters. We have supported research on 
the optimal design and shape of oyster beds, and NOAA has 
provided vessel support and scuba divers for restoration. Of 
course, our Community-Based Restoration Program, which 
leverages 5-to-1 in private funds, is actively involved. The 
Restoration Center in our Fishery Services provided some 
$350,000 for these efforts and, as you know, our slogan is 
``Restoration is habitat-forming''.
    As the committee knows, we are developing multiple species 
ecosystem models for the Chesapeake Bay that will provide 
insights into the interactions of fish and shellfish 
populations, habitat, and loss to disease, and we are using 
NOAA hydrographic expertise--John Rayfield, who is up there in 
front, and you and the committee and the Congressmen have shown 
so much leadership in this area--we are using that same sort of 
technology to identify bottom substrate for oyster planting and 
restoration.
    Let me talk a little about diseases. Diseases represent one 
of the threats to oyster populations in the Chesapeake Bay. The 
MSX parasite, which thrives in high salinity waters, arrived in 
the 1950's, and Dermo, which can tolerate lower salinity, 
arrived later.
    NOAA has been supporting oyster disease research since 
1989, at about $1.5 to $2 million per year, and since 1995 this 
program has been administered through the Sea Grant program at 
both VIMS and at University of Maryland. Through research and 
input from our constituents, the program has developed oyster 
strains that are more disease-resistant. Next year, the Sea 
Grant programs of those two States will be holding a Shellfish 
Summit in Washington, D.C., with resources managers and Federal 
officials and State officials and others, to discuss disease 
and restoration efforts.
    Now let me talk a little bit about Marine Protected Areas. 
One such approach that the summit will no doubt discuss are 
long-term conservation measures for habitat and protected 
areas. This could include measures similar to those used by 
State managers for oyster and crab management.
    This general issue of Marine Protected Areas, or MPAs, as 
we say, I think is not well understood. An MPA can be any 
number of protective measures that are about some level of 
protection for marine and coastal environment. For example, at 
NOAA, we maintain 13 national marine sanctuaries. In most parts 
of these sanctuaries, fishing is allowed. These are MPAs. We 
operate 25 national estuarine research reserves. The Virginia 
NERS has four sites along the York River, and in Maryland you 
have three sites around the State, including Jug Bay near 
Washington, D.C., on the Patuxent. These are also MPAs. 
Fisheries conservation measures could also be called MPAs. The 
fact is that MPAs come in all shapes and sizes.
    We are currently working with the Department of Interior to 
develop an inventory of Federal, State and local MPAs around 
the nation, and we are in the process of putting together an 
MPA Advisory Committee. And Dr. Susan Roberts, of the National 
Academy of Sciences I know will be talking about this in the 
second panel.
    In the Bay, we are working with State partners to create 
elevated 3-dimensional oyster reefs in areas set aside for non-
harvest brood stock. These oyster sanctuaries are closed, and 
oyster reserves are closed for some time for oyster harvesting.
    This is a good example, Mr. Chairman, members of the 
committee, of a win-win. These sanctuaries and reserves restore 
oysters. They are also open to commercial and recreational 
fishing. These should be excellent sites for striped bass, sea 
trout, and other finfish.
    Good management of MPAs, of course, requires science and 
management and, at the national level, we are working on that. 
Our ecosystem management approach here in the Bay, working with 
partners like the State of Maryland, DNR should look at the 
potential effectiveness of various sizes and locations for 
reserves and sanctuaries.
    In conclusion, Mr. Chairman, as often happens when I get a 
chance to talk in front of your committee, I am passionate 
about these issues and I exceed my 5 minutes. Let me just say 
that we take this issue very seriously. We strongly support the 
efforts of the two States to restore oysters in the Bay, as you 
say, for all the reasons, and while I think this is very 
affordable, I think if you take a look at the success with 
striped bass, where NOAA, the States along the Atlantic Coast 
and Maryland showed the leadership, in the mid-1980's we 
thought striped bass were gone, they have recovered. So, I 
think that is possible, that is doable, that is the goal with 
oysters as well. Thank you.
    [The prepared statement of Mr. Gudes follows:]

  Statement of Scott B. Gudes, Acting Under Secretary for Oceans and 
Atmosphere, Deputy Under Secretary for Oceans and Atmosphere, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

    Thank you, Mr. Chairman and members of the Subcommittee, for 
inviting me to today's hearing. I am Scott Gudes, Acting Administrator 
of NOAA and Deputy Under Secretary for Oceans and Atmosphere in the 
Department of Commerce. I am happy to be here today to discuss oyster 
restoration in the Chesapeake Bay, and the role of Marine Protected 
Areas in marine resource management. Both are essential elements of the 
many excellent efforts underway in the Bay to restore this valuable 
ecosystem.
    I have been asked to testify about the National Oceanic and 
Atmospheric Administration's (NOAA) involvement in oyster restoration, 
oyster disease research, and the role Marine Protected Areas (MPAs) can 
play in the ongoing oyster recovery efforts. I would like to begin by 
providing a brief history of the oyster fishery in the Chesapeake Bay. 
This background is necessary to put NOAA's contributions, and the 
efforts of the many partners who are also committed to restoring the 
Bay's oyster population, into context.
    Changes in the abundance of oysters over the last three centuries 
mirror the larger transformations that have occurred in the Chesapeake 
Bay. Since the mid-1800s, the amount of oysters harvested in the Bay 
has declined to less than two percent of prior levels, resulting in a 
significant economic impact and broad ecological consequences. Healthy 
oyster reefs are an efficient filtering systems and oyster larvae are 
an important food source for many species. Oyster reefs also serve as 
habitat for crabs, mussels, clams, finfish, and many invertebrates that 
are important food items for higher predators, including commercially 
and recreationally important species. As the NOAA Chesapeake Bay Office 
(NCBO) shifts its focus from a single or multi-species fishery 
management, to an ecosystem-based approach, the important ecosystem 
functions of oysters are being further recognized.
    Additionally, oyster population and harvest data are key elements 
in ecosystem modeling efforts for the Bay. The important ecological 
functions of oyster habitats are being described, and recommendations 
for their use and protection will be provided in the Fishery Ecosystem 
Plan (FEP) currently under development by NOAA and its partners. 
Working with other Bay partners, NOAA is helping to identify specific 
areas where certain types of activities should be controlled in order 
to protect reef structure, permit oyster reproduction and growth, and 
allow spat set.
    While estimates of the historical amount of oyster bottom range 
from 400,000 acres to less than 220,000 acres, only a relatively small 
amount of viable oyster bottom exists in the Bay today. The dramatic 
decline in the oyster population and oyster habitat has occurred in a 
number of fairly distinct phases, a result of a number of factors. 
Overfishing (including the habitat destruction associated with certain 
fishing gears and methods), disease, pollution, and siltation have 
devastated what was once the Chesapeake Bay's most lucrative fishery. 
Loss of the physical structure provided by oyster reefs, and the 
extensive biotic communities that existed within and around them, has 
had marked effects on the overall Bay health and ecology. The economic 
and social impacts on local communities and watermen dependent upon 
oysters have been no less dramatic.
    Prior to 1865, oyster harvest remained plentiful, but modest. Most 
of the harvest was conducted by hand-tonging, a relatively inefficient 
harvest method that did not significantly alter the physical structure 
of the reefs. In 1865, oyster dredges were legalized and harvest 
numbers skyrocketed. Dredges harvested more efficiently and made areas 
that had previously been difficult to harvest with hand tongs more 
accessible. After the advent of the dredge, harvests peaked at over 15 
million bushels in 1887. Scraping by these dredges resulted in the 
flattening of raised oyster reef structure and served to reduce the 
overall benefits of this structure (e.g., aggregated oyster spawning 
stock, 3-dimensional fish habitat, and elevation off the silty bottom).
    In the 1950s, hydraulic-powered hand tongs, with the ability to 
remove large clumps of oysters from reef structures, further increased 
the efficiency of the fishery. The more efficient gear kept the fishery 
viable, with harvest levels in a near steady-state of about 4-5 million 
bushels per year, but prevented the long-term sustainability of the 
fishery. Recent harvest levels represent historic lows and have 
remained fairly constant over the last three to four years, averaging 
about 300,000 bushels annually in Maryland and 22,000 bushels annually 
in Virginia.
    The effects of high levels of fishing and associated habitat 
destruction were compounded by the onset of two oyster diseases, Dermo 
and MSX. Dermo (Perkinsus marinus), a natural parasite in Atlantic 
estuaries, has been in the Bay since the late 1950s. It is most 
prevalent and infective at high salinities, killing oysters at an age 
just before they reach marketable size (age 2 to 3 years). Another 
identified oyster disease, MSX (Haplosporidium nelsoni), was introduced 
to the Bay, possibly through the importation of oysters from other 
areas. It is less understood than Dermo and kills very young oysters in 
high salinity waters.
    While a number of localized populations of Bay oysters display some 
resistance to disease onset and mortality (large, market-sized oysters 
in areas of high disease prevalence suggest some traits of disease 
resistance), we do not yet have a long-term solution or answer to how 
to combat these diseases beyond managing around them. Recent efforts to 
conduct genetic crosses to create a disease-resistant strain of oysters 
have shown some early promise. However, even if the strain is highly 
successful, it would be many years until it could make up a significant 
component of the genetic pool of the Bay-wide oyster stock. The bulk of 
oyster restoration efforts today focus on re-establishing historic 
reefs through the placement of shell and young oysters. One of the more 
promising approaches is the creation of 3-dimensional reefs that extend 
significantly off the floor of the Bay and are thought to be more 
conducive to healthy and productive oyster populations.
                             Oyster Disease
    In an effort to address the ongoing oyster disease problem, NOAA 
has supported an Oyster Disease Research Program (ODRP) since 1989. 
Between the start of the program and 1999, NOAA invested $1.5 million 
per year, and increased funding to $2 million in 2000. Administered by 
NOAA Sea Grant since 1995, this program has focused primarily on mid-
Atlantic oyster disease problems, such as the parasites Dermo and MSX, 
as well as juvenile oyster disease and summer mortality syndrome.
    The combination of these disease factors have led to the decline of 
both the mid-Atlantic and Pacific oyster industries. The ODRP has been 
guided by an Advisory Committee, as well as an ongoing process of 
constituent involvement through a series of workshops and scientific 
meetings that have resulted in recommendations for research. The 
results of the ODRP were summarized in a 1998 publication entitled, 
``Restoring Oysters to U.S. Coastal Waters,'' and on a web page 
(www.mdsg.umd.edu/oysters/disease/index). Sea Grant also has supported 
a Gulf Oyster Industry Program at $1 million per year for the past 
three years to work on restoring and improving the Gulf oyster 
industry. These programs have provided new technology, improved oyster 
stocks, and scientific information that are being used by state 
managers and the oyster industry. Several significant accomplishments 
made by the ODRP include:
    <bullet> Development of disease resistant oyster strains that are 
about 10 times more resistant than native wild stocks to both Dermo and 
MSX.
    <bullet> Development of disease models incorporating 
environmental, biological and hydrographic information to allow better 
management of the oyster industry. These models are being used by 
managers in some states to predict the annual severity of disease for 
oyster harvesters.
    <bullet> Improved understanding of the disease mechanisms and 
virulence that impact oyster survival. We have learned that there are 
several levels of virulence depending upon the species of Dermo. There 
are currently 3 species of Dermo.
    <bullet> Improved diagnostics for identification and 
quantification of oyster diseases. We now have diagnostic techniques 
that can detect a single parasite cell in 30 grams of oyster tissue. 
This level of detection improves our ability to assure disease free 
status for oysters that may be moved around the bay in commercial 
oyster operations.
    <bullet> A recent breakthrough in producing tetraploid American 
Oysters (Crassostria virginica) has been made, allowing assured 
production of triploid oysters. Triploid oysters maintain higher meat 
quality during summer months, thus extending the market season. 
Triploid oysters are also sterile, thus removing the threat of genetic 
alterations of wild stocks from oysters placed in the bay for 
aquaculture or enhancement.
    <bullet> Improved communications between scientists, managers, 
industry, and the general public on oyster issues in the United States. 
Oyster issues are being discussed in many educational contexts 
including K-12 education, as well public fora.
    ODRP managers realize that the overall goal is to restore oysters 
in coastal waters, both for industry and the important ecological roles 
that they play in water quality and ecology. In fiscal year 1901, 
researchers began to apply the technology developed for diagnostics and 
improved disease- resistant stocks to field applications. Disease-
resistant oysters created through the ODRP are being placed on 
restoration oyster reefs and compared to non-resistant stocks to 
determine if any differences exist in survivability. Disease diagnostic 
tools with greater sensitivity are also being used in at least two 
projects to study disease transmission and severity.
    Additionally, the National Sea Grant Program, through the Virginia 
and Maryland state Sea Grant Programs, is planning a major oyster 
summit meeting for Fall 2002 in Washington, D.C. Participants will 
include scientists, resource managers, NGO's and interested 
governmental officials. We will use the opportunity to discuss the 
status of both oyster disease research and ongoing restoration efforts, 
and how we can improve future coordination of these two important 
activities.
                           Oyster Restoration
    Oyster restoration seeks to reestablish or duplicate the 
functional, high-quality, hard bottom habitat that once existed 
throughout much of the Chesapeake Bay. It typically involves uncovering 
existing shell or distributing new shell in formerly productive areas, 
then seeding the bottom with spat (young oysters) or adult broodstock. 
In some areas, enough oyster larvae are produced naturally to allow 
sites to recolonize via natural spat set. In the long-term, truly 
restoring oysters and oyster reef habitat involves restoring or 
mimicking the hard substrate produced by living oysters. Through 
restoration, we are ``jumpstarting'' the natural system. The long-term 
goal is to restore a sustainable oyster population that will provide 
multiple ecological benefits, as well as support a viable commercial 
fishery.
    The 1999 Chesapeake Bay Oyster Restoration Consensus Report 
outlined a number of ideas to facilitate oyster restoration. The three 
key concepts within the document are: (1) the importance of three-
dimensional reef habitat for oysters and the resulting community of 
organisms that utilize them; (2) the necessity for reef sanctuary areas 
to preserve and protect broodstocks for replenishment of nearby 
harvestable areas nearby; and (3) the importance of changing the 
current practice of moving potentially disease-infected seed from areas 
of high infection to those areas with low or no disease presence. 
Independently, these suggestions will require significant changes in 
current management practices and resource commitments.
    Numerous Federal, state, and local government agencies, as well as 
public and private non-profit organizations are involved in oyster 
restoration efforts. NOAA's current efforts in oyster restoration are 
centered around two principal themes: progress toward the Chesapeake 
2000 goal to restore oysters to 10-times their current biomass by 2010, 
and furthering science through development of innovative restoration 
techniques and strategies. To this end, NOAA has dedicated funds to 
increase oyster substrate and rear young spat oysters for placement on 
natural or restored bottom areas. Projects range from large-scale 
production to relatively small-scale endeavors.
    Significant funding has been targeted toward increasing the 
capacity and efficiency of hatchery-based restoration efforts, where 
immense quantities of spat-on-shell (young oysters set on old oyster 
shell) are produced for placement on recreated oyster shell mounds. No 
less significant are modest amounts of funding provided through NOAA's 
Community-Based Restoration Program for ``oyster gardening'' programs 
that encourage citizen and school groups to grow young oysters for up 
to one year, before planting them on restored reefs. Oyster restoration 
is also being furthered through the funding of applied research and 
cooperative partnerships. For example, alternative substrate studies 
are underway to address the critical issues of limited availability of 
shell substrate. Additionally, older, disease-resistant oysters are 
being moved to sanctuary areas in proximity to commercial oyster beds, 
where oysters are aggregated and protected, in hopes of improving 
chances for strong natural spat sets.
    NOAA staff, through the Chesapeake Bay Office, Restoration Center, 
Coastal Zone Management Program, and other programs have been 
integrally involved in restoration planning, coordination, and 
cooperation among all the entities in each state to further NOAA goals 
to restore both the ecological function and habitat value of oyster 
reefs. Staff have provided extensive monitoring assistance to the 
states and other entities involved in oyster restoration, through 
diving services, boat support, and labor during critical phases of the 
rearing, nursery and planting stages of oyster restoration. In 
cooperative projects, NOAA divers provide monitoring and assessment 
expertise to validate project results. NOAA ship-based charting 
technology is also being utilized to locate suitable bottom substrate 
types to help identify appropriate planting areas.
Oyster Recovery Partnership
    In Maryland waters, NOAA is working closely with the Oyster 
Recovery Partnership (ORP), and has provided over $1.6 million to ORP 
for oyster recovery efforts since 1999. The ORP is the leading regional 
organization initiating, coordinating, and managing oyster restoration 
efforts in Maryland waters of the Chesapeake Bay. ORP has 
representation from many interest groups, including significant 
involvement from commercial watermen. While ORP's focus has been on 
restoring oyster habitat and oysters for harvesting, the program is 
working with NOAA to employ strategies to further the science of oyster 
restoration. This includes: the first broad-scale field testing of 
potentially disease-resistant oyster strains; leveraging ORP funds with 
those available for oyster sanctuary and reserve sites to implement co-
located reserves and sanctuaries with commercial harvest sites; and 
experimenting with methods to recondition existing non-viable oyster 
bars that had been smothered by sediment.
    While one emphasis of ORP is directed at restoring harvestable 
oyster bottom, a significant proportion of the funding from fiscal year 
1901 has been directed at increasing production capabilities of spat-
on-shell. Hatchery production of young oysters at the University of 
Maryland's Horn Point Hatchery is needed in Maryland waters where 
predictable spatfall does not occur in all areas. The hatchery product 
is often the limiting factor in restoration efforts. ORP mechanized the 
grow-out process by incorporating state-of-the-art stainless steel 
containers, boom trucks, and forklifts. This has allowing bulk handling 
of shell and spat, and has resulted in excess of 100 million spat-on-
shell being produced this year alone.
Community-Based Restoration Program
    NOAA's Community-Based Restoration Program (CRP) has provided 
funding to communities in 10 states for oyster restoration, including 
Atlantic and Pacific coast states, as well as to states bordering the 
Gulf of Mexico. To date, 26 oyster restoration projects have been 
funded with nearly $1 million in CRP funds, which are leveraged at the 
local level between one and five times. The bulk of oyster restoration 
funding has been focused in the Chesapeake Bay, where NOAA Restoration 
Center staff has provided close to $350,000 to groups in Maryland and 
Virginia, including the Chesapeake Bay Foundation, the Virginia Marine 
Resources Commission, Chesapeake Appreciation Inc., Assateague Coastal 
Trust, and others. This will translate to more than $1 million in 
oyster restoration efforts once volunteer labor and local contributions 
are included. NOAA staff work closely with communities to aid in 
project development and implementation. Projects often are monitored 
and maintained by communities, promoting stewardship and a heightened 
appreciation for a healthy environment.
Coastal Zone Management Program
    In fiscal year 1999 and fiscal year 1900, NOAA's Coastal Zone 
Management Program provided the Virginia Department of Environmental 
Quality $500,000 each year to fund comprehensive restoration planning 
for oyster sanctuary reefs on the Rappahannock River.
    The success of the oyster recovery efforts in the Chesapeake Bay 
will rely on the continued support of existing research and restoration 
efforts, as well as the careful coordination of the many partners 
participating in this effort. The progressive approaches being pursued 
in the Bay, such as the use of oyster reserves and sanctuaries in 
conjunction with commercial harvest areas, reflects the willingness of 
the Bay partners to work together to take an ecosystem approach to 
oyster recovery. This approach also provides an example of the concepts 
supported under Marine Protected Areas.
                         Marine Protected Areas
What are Marine Protected Areas?
    Before describing the role of Marine Protected Areas in the 
Chesapeake Bay, I would like to provide some background on MPAs in 
general and on NOAA's recent efforts in using them for the long-term 
conservation and management of marine resources. While the term Marine 
Protected Area has been used for over two decades, the concept of using 
MPAs for fishery management has been around for centuries. The term is 
generally used to describe marine areas given some sort of special 
protection. Today, there are many different types of Marine Protected 
Areas, or MPAs in use around the world for different purposes.
    MPAs come in different shapes, sizes, and management 
characteristics, and have been established for different purposes, with 
varying types of protection and uses. They range from areas with no 
consumptive uses, such as Edmonds Underwater Park in Washington State 
(set aside as an underwater park visited by scuba divers), to multiple-
use areas, such as those found in the Florida Keys National Marine 
Sanctuary. In the United States, MPAs may include national marine 
sanctuaries, fisheries management zones, national seashores, the marine 
areas of national parks and national monuments, critical habitats, 
national wildlife refuges, national estuarine research reserves, state 
conservation areas, state reserves, and privately owned and managed 
areas.
    There are many different types of MPAs to serve as many purposes. 
They are managed by a variety of different groups at federal, state, 
and local levels. Unfortunately, there is currently no inventory of the 
existing U.S. MPAs. NOAA and the Department of the Interior are 
presently working to develop an inventory of existing MPAs to help us 
all better understand how to best use these MPAs as marine resource 
management tools.
How are Marine Protected Areas Used?
    MPAs are an important tool for fishery management today, with 
examples including area and seasonal fishing closures for protection of 
spawning grounds, or fishing closures for restoration of essential 
habitat and depleted spawning stocks. Several regional Fisheries 
Management Councils, such as the South Atlantic, Pacific, and Western 
Pacific are currently in stages of proposal, design, or review of 
Marine Protected Areas for management of their regionally important 
commercial and recreational species.
    Other types of MPAs may also provide biodiversity protection and 
conservation of sensitive habitats and endangered species, or provide 
recreational and educational opportunities to the public. MPAs designed 
to increase and protect biodiversity and those sites designed for 
fishery enhancement purposes are not mutually exclusive. The success of 
either type of MPA is based on the enhancement and protection of a 
healthy marine ecosystem. MPAs can be unique tools in the marine 
resource management toolbox, because they shift the emphasis of marine 
resource management from the traditional focus on a single species to 
protection of a specific area or habitat that can often help meet 
multiple goals and objectives. Our science and experience indicate that 
MPAs can be useful tools to help manage, protect and sustain the 
Nation's valuable marine resources, as well as the people and economies 
that depend on them. How best to use MPAs in combination with other 
management tools to meet these goals is a major challenge for ocean 
stewardship.
    Clearly, MPAs by themselves are not a ``silver bullet'' to marine 
management. MPAs are an additional tool for marine resource management 
that place an emphasis on spatial parameters, but cannot be successful 
if used in isolation. Their use and design requires a consideration of 
such factors as oceanographic regimes, sources of pollution, or how 
fishing effort affects ecosystem processes inside and outside the 
protected area. The design, placement, and implementation of an MPA 
need to be considered within the context of a variety parameters, that 
include socio-economic considerations of the affected fishing 
community, in order to form an integrated ecosystem approach for marine 
resource management. MPAs are best used in combination with, and to 
complement, other management tools.
What is the Federal Role in MPAs?
    The federal MPA initiative is a collaborative effort between NOAA 
and the Department of the Interior that seeks to partner with other 
Federal, state and territorial agencies and other stakeholder groups to 
help provide information, tools and services to build a framework for a 
comprehensive and coordinated system of MPAs in our Nation's waters. 
The initiative grew out of Executive Order 13158 (May 2000) on Marine 
Protected Areas and received further endorsement when Secretary Evans 
announced that the Bush Administration had decided to retain the Order. 
The Order does not create any new authority to establish MPAs, rather 
it establishes a mechanism to improve their effectiveness and ``to 
harmonize commercial and recreational activity with conservation.'' The 
initiative is designed to understand the effectiveness of the 
collection of existing marine protected sites in each region; increase 
coordination and effectiveness among the assortment of existing sites 
to better meet increasing demands; and help local, state, Federal, and 
tribal entities most effectively use MPAs under existing statutory 
authority to meet their goals. To address these challenges, NOAA is 
working with government and non-government partners to:
    <bullet> build an inventory and assessment of existing sites 
within U.S. waters;
    <bullet> provide a sound scientific foundation and tools for MPA 
design, management and evaluation under existing statutory authority;
    <bullet> develop and maintain a website at http://mpa.gov to 
provide access to information on MPAs;
    <bullet> provide an open, equitable and meaningful process to 
engage user groups and the American public on MPAs through stakeholder 
workshops and an MPA Federal Advisory Committee.
    NOAAs fiscal year 1902 budget request included $3 million to help 
implement these efforts. I would like to thank Chairman Gilchrest and 
other members of the Committee for their leadership and support of 
Marine Protected Areas.
MPAs in the Chesapeake Bay
    There are many examples of MPAs in the Chesapeake Bay, including 
two National Estuarine Research Reserves in Maryland and Virginia. 
These Reserves are federal-state partnerships between NOAA and the 
Maryland Department of Natural Resources, and NOAA and Virginia 
Institute of Marine Science. The Maryland Reserve has three sites or 
components throughout the upper Bay. The Virginia Reserve protects four 
components on the York River. Both Reserves include estuarine habitats 
that function as living laboratories for research and educational 
activities. The sites are also part of a nation-wide system, helping to 
monitor water quality in estuaries around the Nation, and conduct 
educational workshops for resource managers in the area. Both reserves 
also conduct regionally specific activities that are aimed towards 
improving the management and condition of Chesapeake Bay. These and 
other sites have shown us how valuable different types of MPAs can be 
to help sustain these valuable resources.
    Various forms of MPA concepts are currently in use in the 
Chesapeake Bay, though typically known by different terms. NOAA is 
doing work in conjunction with the Bay partners to create elevated, 
three-dimensional reefs, in areas throughout the Bay that are set aside 
as non-harvest broodstock ``reserve'' or ``sanctuary'' areas. 
Historical harvest areas surrounding these restored, elevated sanctuary 
sites are also being restored to clean the existing surface shells of 
sediment and re-plant with oysters destined for future harvest. Many of 
the newly restored harvest areas will be adaptively managed to control 
the future harvest to a certain percentage of the standing stock, as 
well as to permit only certain gear types in certain areas. The long-
term goal is to restore both the harvest and non-harvest areas to allow 
the oyster populations to be self-sustaining, while maintaining a 
viable commercial fishery. Although the oyster reserves and sanctuaries 
are closed to oyster harvest, they are open and available for all other 
uses, especially for fishermen who flock to these areas because of the 
higher densities of finfish species. These multi-agency efforts provide 
an excellent example of using ecosystem-based research and management 
to design and use MPAs as a management tool.
    Similarly, the Commonwealth of Virginia has established seasonal 
closures along the deep channels of the southern Bay for blue crabs to 
provide protection during the crabs' annual summer migration. While 
both commercial and recreational crabbing are prohibited in these 
corridors during these migration periods, all other commercial and 
recreational activities remain open. The benefits provided by this deep 
water sanctuary to crabs are still under investigation; however, the 
intent behind this effort resembles the MPA concepts of identifying 
areas that are critical to health of the blue crab population and 
providing the necessary protection. Those areas identified as providing 
important benefits to multiple species should be carefully evaluated by 
the Bay partners and considered as potential sites for future MPAs as 
part of the suite of efforts being undertaken to help restore the 
Chesapeake Bay's economic productivity and ecosystem integrity.
    I want to reemphasize that MPAs have been used successfully in 
fisheries management for decades and have played an important role in 
the recovery of many important commercial and recreational species, 
such as New England groundfish and scallops. The success of MPAs relies 
upon the support of the entire community that is dependent upon the 
resources and benefits provided by the Bay. Therefore, I cannot 
emphasize enough the importance of total community involvement in any 
MPA process that may take place in the Bay.
    I would like to reiterate NOAA's commitment to oyster restoration 
in the Bay. The restoration of a healthy, sustainable oyster population 
will require continued oyster disease research, including selection and 
propagation of disease resistant oyster strains. Until such time as we 
are better able to control disease in the oyster population, we need to 
continue the innovative restoration work that allows us to mange around 
these diseases. This restoration works provides the foundation for a 
projected ten-fold increase in population that we, as part of the Bay 
community, are committed to attaining by 2010.
    Mr. Chairman, this concludes my testimony. Again, I appreciate the 
opportunity to share with you and the other members of the Committee 
NOAA's efforts in the Chesapeake Bay and am prepared to respond to 
questions.
                                 ______
                                 
    [Attachments to Mr. Gudes statement follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Gilchrest. Thank you, Mr. Gudes.
    Mr. Schwaab.

STATEMENT OF ERIC C. SCHWAAB, DIRECTOR, MARYLAND DEPARTMENT OF 
              NATURAL RESOURCES, FISHERIES SERVICE

    Mr. Schwaab. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak before you today on this important issue. 
I have provided written testimony which details at great length 
our restoration efforts. I will just try to simply hit some of 
the high points. I would like to try to leave you with three 
take-home points.
    The first is that we have decades of effort underway to 
maintain oyster stocks, and an oyster fishery, with some 
success primarily at maintaining. But it is clear that we now 
need to change the game to restore oysters to their former 
status.
    In changing that game, the second point I want to make is 
that we are now moving into a substantial new phase in our 
restoration effort, and that phase is supported by the new Bay 
Agreement goal that you heard spoken of a moment ago. It has a 
substantial focus on the creation of a network of oyster 
sanctuaries. And it is bolstered by the Governor's commitment 
of new funds to stand behind our efforts to restore this oyster 
habitat and this resource to its former glory.
    And then, finally, I would like to just emphasize that we 
need to continue to build on the substantial partnerships that 
have been created over the years to not only protect and 
enhance the Bay, but specifically to focus on oysters, and I 
will just provide to you a little bit of detail on each of 
those points.
    As I mentioned a moment ago, Maryland's DNR Oyster Program 
has a long history of oyster restoration work. It primarily has 
consisted of two main components. The first is a repletion 
program that focuses on continuing and enhancing economic 
benefits realized from a substantial oyster fishery. This has 
been underway for decades, sustaining a modest but variable 
commercial harvest despite the habitat and disease limitations 
that you have already heard about.
    But more recently we have initiated a Restoration Program 
that focused on improving the ecological benefits derived from 
a substantially increased oyster population. This seeks to 
substantially restore oyster populations to recapture those 
ecological benefits provided by new habitat that filters water, 
that provides resources for other fish, and that, again, as you 
mentioned, brings back the kind of Bay that existed when 
Captain John Smith sailed up the Bay so many hundreds of years 
ago.
    To help realize this aggressive new goal--and this goal, as 
you heard mentioned, speaks to a tenfold increase in oysters in 
the Bay by the year 2010, over a 1994 base period. To help 
demonstrate Maryland's commitment and to jump-start this 
effort, Gov. Glendenning, in 2000, announced his intention to 
commit $25 million in new oyster restoration funds over the 
next 10 years.
    Just a little bit specifically about the Oyster Sanctuary 
Program. Oyster sanctuaries are areas closed to harvest. These 
sanctuaries complement the formerly mentioned repletion program 
by permanently protecting select oyster populations and reef 
communities.
    Five years ago there were only three sanctuaries in the 
Maryland portion of the Bay. Today there are 24, with many more 
planned. Active habitat restoration is another important aspect 
of this sanctuary initiative. It is not enough to simply 
identify these areas and walk away from them. Substantial 
restoration projects have got to be completed to bring about 
the full benefits that these new sanctuaries can realize.
    A network of successful oyster sanctuaries will help 
sustain and restore oyster population and a restored oystery 
fishery. By rebuilding select oyster reefs and permanently 
protecting them, again, will serve as source areas for oyster 
larvae to increase and provide for natural reproduction 
throughout the Bay. They will restore important water quality 
benefits to the Bay, and they will provide important reef 
habitat for all aspects of the Chesapeake Bay ecosystem, 
including crabs and finfish.
    Moving on to the partnership, to help realize the 
challenging effort that has been put forth in front of us, we 
have established in the Bay region a comprehensive Oyster 
Management Plan Initiative, and we are trying in Maryland to 
build on a long-standing Oyster Roundtable Partnership 
initiative.
    The partners in the Chesapeake Bay are currently developing 
a comprehensive oyster plan to coordinate and provide guidance 
for restoring and maintaining the valuable ecological services 
provided by oyster reefs, and to develop a sustainable and 
rebuilt fishery over the long-term. The plan is scheduled for 
completion in January 2002.
    Restoration of Maryland's oyster resources for both 
ecological and economic benefits has also been guided a 
Maryland level Oyster Roundtable Action Plan which is currently 
being updated.
    With respect to these partnerships, the important thing to 
remember is that to achieve our ultimate restoration goal for 
oysters and more broadly for the Chesapeake Bay, the Maryland 
DNR must work very closely with many oyster restoration 
partners, many of whom you will hear from here today, including 
the Maryland Watermen's Association, the Chesapeake Bay 
Foundation, the Oystery Recovery Partnership, the Corps of 
Engineers, NOAA, the EPA, Maryland citizens and private 
industry. Only by aggressively working together will we 
ultimately be able to achieve these oyster restoration goals.
    I would be happy to field any questions on more specific 
aspects of our program the committee would have. Thank you.
    [The prepared statement of Mr. Schwaab follows:]

  Statement of Eric C. Schwaab, Director, Fisheries Service, Maryland 
                    Department of Natural Resources

Decline of Oysters in the Chesapeake Bay
    The demise of oyster reefs and the collapse of the oyster fishery 
in the Chesapeake Bay has been well documented. Removal of oysters and 
shell, and the failure to return this material to the Bay in the last 
decades of the 19th century led to the severe loss of oyster reef 
habitat. This loss, in combination with the burial of shell due to high 
sediment inputs from land erosion led to a rapid decline in habitat 
suitable for oyster larval settlement, exacerbating the effects of over 
harvesting of adult oysters. The introduction of Haplosporidium nelsoni 
(the causative agent of MSX disease) in the 1950s and subsequent 
epizootic events by MSX and the indigenous parasite Perkinus marinus 
(which causes Dermo disease) have further exacerbated the decline in 
oysters in Chesapeake Bay and impeded restoration efforts.
Maryland DNR's Oyster Restoration Program
    Maryland DNB's Oyster Program consist of two main components: 1) a 
restoration program focused on improving the ecological benefits 
derived from a substantially increased oyster population; and 2) a 
repletion program focused on continuing and enhancing the economic 
benefits realized from a sustainable oyster fishery. The latter effort 
has been underway for decades, sustaining a modest but variable 
commercial harvest despite the habitat and disease limitations 
previously noted. The former is a more recent initiative, seeking to 
substantially restore oyster populations so as to recapture the 
ecological benefits provided by a greatly increased oyster population. 
The new Chesapeake Bay Agreement calls for a tenfold increase in oyster 
population in the Bay by the year 2010 compared against a 1994 base 
year.
    To help realize this aggressive new goal, in 2000 Governor 
Glendening announced his intention to commit $25 million to oyster 
restoration over the next ten years. The following resources and 
management techniques are applied to both programs to achieve the 
ecological and economic objectives of the oyster restoration program.
    Shell Planting - Shell plantings consist of ``dredged shells'' from 
a large scale dredging program in the upper Chesapeake Bay, and ``fresh 
shells'' that come from shucking houses that process oysters. Dredged 
shells are placed in higher salinity areas where natural oyster 
reproduction occurs to produce new oysters for the Bay (seed oysters). 
Some of these young oysters are then transplanted for stocking in lower 
salinity zones where disease impacts are less severe. These 
transplanted oysters then grow to market size, at which point they are 
targeted for commercial harvest. By placing over 2.5 million bushels 
annually, the dredge shell program produces a yearly gain in oyster 
habitat in the Bay of over 800 acres per year. Approximately 80% of the 
current commercial harvest comes from dredge shell areas and seed 
oyster plantings.
    Fresh shells from shucking houses have three major uses. They are 
used in hatcheries as cultch for the production of hatchery raised 
oysters. Hatchery oysters are usually disease free and are planted to 
restore populations in low salinity restoration zones where concerns 
for the moving of oyster diseases prevent the use of natural oysters. 
Secondly, fresh shells are planted on harvest bars for rehabilitation 
and fishery enhancement. Lastly, a small amount of fresh shells are 
used for sanctuary projects.
    Seed Oyster Planting - Seed oysters obtained through the shell 
program are planted around the Bay. Seed oysters are targeted to areas 
with low natural spatfall and good survival. On average, about 300,000 
bushels of seed are planted annually in harvestable areas. In 1998, 
after an excellent spat set in 1997, about 1 billion seed oysters were 
planted. Seed oysters boost harvest and contribute to the Bay's 
ecology. Seed plantings sustain the fishery in areas of low 
reproduction such as the upper Bay and Chester River. Some seed oysters 
have been planted in sanctuary areas.
    The dredged shell and seed planting costs about $1.5 million each 
year and this investment sustains a harvest with an average dockside 
value of $7 million. Of that $ 1.5 million investment, approximately 
half comes from the industry via commercial license fees and a per 
bushel tax paid on harvested oysters.
    Oyster Sanctuary Program - Oyster sanctuaries are areas closed to 
harvest. These sanctuaries complement the repletion program by 
permanently protecting select oyster populations and reef communities. 
Five years ago there were only three sanctuaries in Maryland. Today 
there are 24 sanctuaries with many more planned. Active habitat 
.restoration is underway or planned for most of these sanctuaries. 
Sanctuaries protect oyster populations and the reef communities they 
support.
    A network of successful oyster sanctuaries is being developed to 
help sustain a restored Chesapeake Bay oyster population. It is 
believed that by rebuilding select oyster reefs and permanently 
protecting them, they will serve as source areas for oyster larvae to 
increase and provide for natural reproduction throughout the Day. In 
addition, oyster in sanctuaries will help filter bay water and provide 
important reef habitat for the Chesapeake Bay ecosystem.
    As a result of the Governor's new commitment of funds, the 
Department expects to spend approximately $1.5 million in the current 
fiscal year and $2 million per year for the next nine years to rebuild 
oyster habitat. Most of this work will occur in areas pennanently 
designated as sanctuaries. This work is further expected to be 
complemented by federal efforts under the auspices of the Army Corps of 
Engineers and numerous non-profit organization initiatives.
    Oyster Hatchery Production - Seed oysters are produced by DNR and 
by the University of Maryland hatchery. Larvae are set under controlled 
conditions on shell placed in tanks. Resulting seed are planted to 
support restoration projects. Shells come from DNR's fresh shell 
program. The DNR and University of Maryland hatcheries combined can 
produce approximately 80 to 100 million spat annually.
    Oyster Reef Habitat Construction - For 40 years the State of 
Maryland has used dredged oyster shell to improve oyster habitat and 
produce more oysters for their ecological and economic benefits. Clean 
oyster shell is the preferred setting substrate for oyster larvae, but 
four decades of dredging has resulted in a limited supply of available 
oyster shell. Efforts are ongoing to identify alternatives to dredged 
oyster shell to be used for oyster habitat restoration activities.
    One alternative is the cleaning of in situ shell that has been 
silted over. Increased siltation rates and low oyster productivity has 
led to many bars being silted under a layer of tine silt and mud. 
Permit applications have been submitted to research the benefits of 
excavating buried shell to the surface to once again provide suitable 
habitat for oysters.
    Another alternative to preserving the dwindling supply of dredged 
oyster shell is to use alternative substrate materials. Permit 
applications have been submitted to examine the use of alternative 
materials such as recycled concrete, stone or brick to construct 
habitat in oyster sanctuaries, either as an area to catch setting 
larvae or as the core of a reef which is then coated with a layer of 
oyster shell. Seed oysters could then be planted at these sites in low 
setting areas, while natural spat set would be expected at sites in 
high setting areas.
    The excavation of shell and use of alternative materials will not 
only benefit oysters, but also numerous fish and benthic organisms.
    Comprehensive Oyster Management Plan and Maryland Oyster Roundtable 
- As previously mentioned, the new Bay Agreement calls for a tenfold 
increase in oyster population in the Bay by the year 2010 compared 
against a 1994 base year. The partners of the Chesapeake Bay are 
currently developing a Comprehensive Oyster Plan to coordinate and 
provide guidance for restoring and maintaining the valuable ecological 
services provided by oyster reefs, and develop a sustainable oyster 
fishery. This Plan is scheduled for completion in January 2002.
    Restoration of Maryland's oyster resources for both ecological and 
economic benefits has been guided by the Maryland Oyster Roundtable 
Action Plan of 1993. The Oyster Roundtable Steering Committee is 
currently developing an Action Plan for 2002 - 2007 that will build 
upon the original Action Plan of 1993 and establish the forum and 
framework for implementing the Comprehensive Oyster Management Plan.
    To achieve our ultimate restoration goal the MD DNR works very 
closely with many oyster restoration partners, including the Maryland 
Watermen's Association, the Chesapeake Bay Foundation, the Oyster 
Recovery Partnership, the Corps of Engineers, the National Oceanic and 
Atmospheric Administration, the Environmental Protection Agency, 
Maryland citizens and private industry. Only by aggressively working 
together can we achieve our goals.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Schwaab.
    Col. Hansen, good morning, welcome.

 STATEMENT OF COLONEL DAVID HANSEN, DISTRICT ENGINEER, NORFOLK 
             DISTRICT, U.S. ARMY CORPS OF ENGINEERS

    Col. Hansen. Good morning, Mr. Chairman and members of the 
subcommittee. I am Col. David Hansen, of the United States Army 
Corps of Engineers, and I command the Norfolk Engineer 
District. Accompanying me today is Lt. Col. Scott Flanigan, 
from the Baltimore Engineer District, but most importantly, I 
have brought along our two project managers, Ms. Claire O'Neal 
from Baltimore, and Mr. Doug Martin from Norfolk.
    Sir, we are here representing the Honorable Mike Parker, 
Assistant Secretary of the Army for Civil Works, the Army and 
the Corps of Engineers on this most important collaborative 
effort.
    I appreciate the opportunity to inform you of the Corps' 
activities in support of the Chesapeake Bay oyster restoration 
efforts. I am very proud of the work that the Baltimore and 
Norfolk Districts have accomplished to date, and look forward 
to seeing more positive results from our completed projects and 
from the new projects as they come on-line.
    The Corps' involvement in oyster restoration began in 1995 
when Congress appropriated $500,000 to carry out a project to 
improve the Bay's oyster population. This project was a direct 
response to the precipitous decline of the Chesapeake oyster 
harvests which had fallen to one-eighth of the harvest from a 
decade earlier and to less than 2 percent from the late 1800's' 
harvest. Not only has this decline hurt the regional water-
based economy, but it has also depleted the Chesapeake Bay of 
natural filtering organisms and the aquatic habitat structure 
on which numerous marine animals thrive.
    The authorization for the Corps' oyster restoration program 
comes from Section 704(b) of the Water Resources Development 
Act of 1986. Originally, the authorization was limited to $5 
million and the Maryland portion of the Chesapeake Bay, but in 
subsequent WRDA, specifically 1996, the area was expanded to 
the Virginia watershed, and the Federal funding limit was 
raised to $20 million. In keeping with other Civil Works 
projects, the authority requires cost-sharing, with non-Federal 
sponsors providing 25 percent of the project costs.
    The first project in this program was developed with 
Congress' initial appropriation and then funded for 
construction through the Corps' Civil Works budget process at a 
total cost of $3.3 million, of which $2.5 million was Federal. 
The plan for this first project was the result of coordination 
among many project partners: the Maryland Department of Natural 
Resources, other Federal and State resources agencies, 
watermen, the Chesapeake Bay Foundation, the academic 
community, interested citizens, as well as many non-profit 
groups such as the Oyster Recovery Partnership.
    The plan called for the creation of new oyster bars, 
rehabilitation of non-productive bars, development of new seed 
bars, and planting of young oysters from the State hatcheries, 
as well as follow-on project monitoring. For this project, the 
Maryland DNR acted as the non-Federal sponsor, providing the 
25-percent cost share.
    This restoration project identified six tributaries in 
Maryland for oyster bar development, three on the Western Shore 
and three on the Eastern Shore. In addition, two areas of the 
Eastern Shore, Kidges Strait and Eastern Bay, were planned for 
seed bar development. Over the past 5 years, the Corps and 
Maryland DNR have placed over 700,000 bushels of shell and 
millions of seed oysters in these rivers to create new oyster 
bars.
    In conjunction with the University of Maryland, the Corps 
has documented the ecological success of the oyster bars, 
including an underwater video, which demonstrates the value of 
the oyster bar habitat for other aquatic species, such as blue 
crabs and rockfish. This monitoring has provided important 
information that is being used by the Corps, the State 
agencies, and the scientific community to design ongoing and 
future projects.
    Building on the success of this first project, the Corps 
has moved out, thanks to Congress' Fiscal Year 2001 $3-million 
appropriation, on what we call our Phase II projects for this 
program. The Phase II projects include an estimated $2.6 
million of construction in the Tangier-Pocomoke Sound region of 
Virginia which the Norfolk District is leading, with the 
Commonwealth of Virginia as its project sponsor. This 
construction of 150 acres of oyster reefs is scheduled to start 
in the Spring of 2002. similarly, the Baltimore District is 
developing a Phase II project in Maryland which will continue 
to develop on their Phase I activities beginning in the late 
Spring of 2002.
    Meanwhile, the Corps in concert with a committee of 
Federal, State, local, non-profit, and industry representatives 
is developing a long-term master plan to meet the oyster 
habitat goal of the 2000 Chesapeake Bay Agreement. This goal 
calls for a tenfold increase in oyster biomass by the year 
2010. This long-term master plan is expected to lead to the 
next wave of projects in the coming years.
    In addition to the two phases of the Section 704(b) 
project, we have used our authority under Section 510 of WRDA 
1996 to fund a $1.2 million oyster restoration project in the 
lower Rappahannock River. This project involved the creation of 
more than 170 acres of oyster reefs over the past 2 years, with 
the Commonwealth of Virginia as its non-Federal sponsor.
    Over the past 6 years, the Army Corps of Engineers has 
enjoyed working with the numerous project sponsors in the 
Chesapeake Bay oyster restoration effort. We are committed to 
continuing this partnership in the upcoming years. We also 
appreciate the tremendous support that Congress has bestowed 
upon the Corps' oyster restoration program. We thank you for 
this. We look forward to the year 2010, when the Corps and our 
project partners can celebrate meeting the tenfold goal for 
oyster restoration, and maybe then we will be able to eat a few 
on the half-shell.
    Thank you for your support, and for allowing us the 
opportunity to discuss this incredibly important restoration 
program.
    [The prepared statement of Col. Hansen follows:]

Statement of Colonel David Hansen, District Engineer, Norfolk District, 
          U.S. Army Corps of Engineers, Department of the Army

    Mr. Chairman and Members of the Subcommittee:
    I am Colonel David Hansen, District Engineer, Norfolk District. 
With me today, is Lieutenant Colonel Scott Flanigan, Deputy District 
Engineer, Baltimore District. We are here today representing the 
Honorable Mike Parker, Assistant Secretary of the Army for Civil Works. 
I am pleased to represent the Army and the Corps of Engineers on this 
important matter.
    I appreciate the opportunity to inform you of the Corps' activities 
in support of the Chesapeake Bay oyster restoration efforts. I am very 
proud of the work that the Baltimore and Norfolk Districts have 
accomplished to date in seven rivers in the Chesapeake Bay region. I am 
looking forward to seeing more positive results as our completed 
projects continue to provide their benefits, and as new projects come 
on line in support of oyster restoration.
    The Corps' involvement in oyster restoration began in 1995 when 
Congress directed us to carry out a project to improve the Bay's oyster 
population and appropriated $500,000 to initiate that project. The 
project was a response to the precipitous decline in the oyster 
harvests in the Chesapeake Bay. The harvests in the mid-1990's were 
only 1/8 of the harvest from a decade earlier and less than 2 percent 
of what it was 100 years earlier [see attached graphs]. The decline in 
the oyster fishery has been attributed to overfishing, sedimentation, 
pollution, and disease. Not only has this decline hurt the regional 
water-based economy, but it has also depleted the Chesapeake Bay of 
natural filtering organisms and the aquatic habitat structure on which 
numerous marine animals thrive. As we have learned over the past few 
years, oyster restoration is critically important to the marine 
ecosystem of the Chesapeake Bay, particularly in major tributaries such 
as the Lynnhaven, James, Rappahannock, Potomac, Patuxent, Choptank, and 
Chester Rivers.
Section 704(b), WRDA 1986 (Chesapeake Bay Oyster Restoration)
    The authorization for the Corps' oyster restoration program comes 
from section 704(b) of the Water Resources Development Act (WRDA) of 
1986. This language authorized the Corps to implement projects that 
provide alternative or beneficially modified habitats for indigenous 
fish and wildlife, including man-made reefs. Originally, the 
authorization was limited to $5 million and the Maryland portion of the 
Chesapeake Bay, but in subsequent WRDA's (section 505 of WRDA 1996 and 
section 342 of WRDA 2000), the areal extent was expanded to the 
Virginia watershed, and the Federal funding limit was raised to $20 
million. In keeping with other Civil Works projects, this authority 
requires cost sharing, with non-Federal sponsors providing 25 percent 
of the project costs.
    The first project in this program was developed with Congress' 
initial appropriation and then funded for construction through the 
Corps' Civil Works budget process in fiscal years 1996-2000, at a total 
cost of $3.3 million ($2.5 million of Federal funds). The plan for this 
first project was the result of coordination among many project 
partners; the Maryland Department of Natural Resources (DNR), other 
Federal and state resource agencies, Maryland watermen, the Chesapeake 
Bay Foundation, the academic community, interested citizens, as well as 
non-profit groups such as the Oyster Recovery Partnership. The plan 
called for creation of new oyster bars, rehabilitation of non-
productive bars, development of new seed bars, and planting of young 
oysters from the State hatcheries, as well as follow-on project 
monitoring. In turn, the State of Maryland upgraded its hatcheries to 
provide a sufficient supply of healthy seed oysters. For this project, 
the Maryland DNR acted as the non-Federal sponsor, providing the 25-
percent cost share.
    This restoration project identified six tributaries in the Maryland 
portion of the Chesapeake Bay for oyster bar development. These 
tributaries were the Severn, Magothy, and Patuxent Rivers on the 
Western Shore, and the Chester, Choptank, and Nanticoke Rivers on the 
Eastern Shore of the Chesapeake Bay. In addition, two areas of the 
Eastern Shore, Kedges Strait and Eastern Bay, were planned for seed bar 
development. Over the past five years, the Corps and Maryland DNR have 
placed over 700,000 bushels of shell and millions of seed oysters in 
these rivers to create new oyster bars.
    In conjunction with the University of Maryland, we have documented 
the ecological success of the oyster bars, including an underwater 
video, which demonstrates the value of the oyster bar habitat for other 
Chesapeake Bay aquatic species, such as blue crabs and rockfish. This 
monitoring has provided important information that is being used by the 
Corps, the state agencies, and the scientific community to design 
ongoing and future projects.
    Building on the success of this first project, the Corps has moved 
out, thanks to Congress' fiscal year 01 $3-million appropriation, on 
what we call our Phase II projects for the oyster restoration program. 
The Phase II projects include an estimated $2.55 million of 
construction in the Tangier-Pocomoke Sound region of Virginia that the 
Corps' Norfolk District is leading. In September 2001, the Assistant 
Secretary of the Army for Civil Works and the Commonwealth of Virginia 
executed a project cooperation agreement to initiate this project. 
Construction of 8 acres of 3-dimensional and 150 acres of 2-dimensional 
oyster reefs is scheduled to start in the spring of 2002. Similarly, 
the Corps' Baltimore District is developing a Phase II project in 
Maryland which will continue the previous Phase I activities in the six 
tributaries over the next two years. Phase II Maryland construction 
activities are expected to start in the late spring of 2002.
    Meanwhile, the Corps in concert with a committee of Federal, state, 
local, non-profit, and industry representatives is developing a long-
term master plan to meet the oyster habitat goal of the 2000 Chesapeake 
Bay Agreement. This goal calls for a 10-fold increase in oyster biomass 
by the year 2010. This goal emanated from the June 1999 multi-state 
scientific consensus document that is the basis for our project's 
amended authorization in WRDA 2000. This long-term master plan is 
expected to lead to the next wave of projects in future years.
Section 510, WRDA 1996 (Chesapeake Bay Environmental Restoration and 
        Protection Program)
    In addition to the two phases of the section 704(b) project, we 
have used our authority under section 510 of WRDA 1996 (the Chesapeake 
Bay Environmental Restoration and Protection Program) in Virginia to 
fund a $1.2-million oyster restoration project in the lower 
Rappahannock River. This project involved the creation of more than 170 
acres of oyster reefs over the past two years. Similar to the section 
704(b) project, the lower Rappahannock effort was cost-shared 75-25, 
with the Commonwealth of Virginia picking up the non-Federal share.
Summary
    Over the past six years, the Army Corps of Engineers has enjoyed 
working with the numerous project partners in the Chesapeake Bay oyster 
restoration effort, particularly the state agencies in Maryland and 
Virginia. We are committed to continuing this partnership in the 
upcoming years. We appreciate your support for the Corps' oyster 
restoration program. We look forward to the year 2010, when the 
coalition of local, state, Federal, academic, non-profit, and industry 
groups can celebrate meeting the 10-fold goal for oyster restoration, 
and maybe even eat a few on the half-shell.
    Thank you for your support and for allowing me the opportunity to 
discuss this incredible restoration program.
                                 ______
                                 
    [An attachment to Col. Hansen's statement follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Gilchrest. Thank you very much, Col. Hansen.
    The oyster reefs that the Corps has been developing over 
the last couple of years and with in the next couple of year 
time frame, are these oyster reefs to be sanctuaries in whole, 
or are some of them to be sanctuaries? What is the status of 
that?
    Col. Hansen. Sir, we have had a discussion of that over the 
last couple of days in response to being requested to appear 
today. We currently are not clear, and I say this because the 
WRDA authorization does not clearly specify the mix of whether 
or not we are executing our construction for the sole purpose 
of creating protected sanctuaries. And there is a myriad of 
opinions with regards to whether or not they should or should 
not be restricted in total, or whether or not there should be a 
degree of harvest capability for the watermen's concern and the 
continued economic development.
    Mr. Gilchrest. Is the Corps a part of this partnership that 
we are talking about in the restoration project of 10 percent 
by the year 2010?
    Col. Hansen. Yes, sir, we are the reef construction agency.
    Mr. Gilchrest. So, the Corps, though, as far as some of 
your restoration projects that come out of WRDA are concerned, 
whether it is the areas around Tangier Sound and Pocomoke Sound 
and some of the other places that you have mentioned, does the 
Corps need authorization from Congress to place them in a 
particular status, or does the Corps have the discretion within 
this network to make that decision?
    Col. Hansen. Sir, if Congress wished these reefs to be 
protected sanctuaries, they would have to clarify the language 
to designate each site.
    Mr. Gilchrest. So, right now the status of what the Corps 
is doing as far as this partnership in the recovery project, it 
would be necessary, or it would be better, based on your 
opinion, if Congress clarified what you were to do with these 
oyster reef projects, whether sanctuary in whole or in part?
    Col. Hansen. In my opinion, I believe Congress--it would be 
necessary for Congress to designate that requirement.
    Mr. Gilchrest. Mr. Gudes, the area that you are working in 
as far as recovery projects, I would assume there is some 
little overlap. Is there any overlap in the oyster sanctuaries 
that the Corps has specifically mentioned, and the oyster reef 
projects you are working on? Is there any overlap at all, and 
does no one need clear signals from Washington to work--I would 
assume that all of this is also working in partnership with the 
State of Maryland and Virginia, and Maryland and Virginia, 
their DNRs, would have a specific recommendation as to what 
oyster reef projects would be sanctuaries even though there are 
Federal dollars involved.
    Mr. Gudes. Yes. Well, one of the frustrating and great 
things about the Federal Government is that most agencies have 
different appropriations, different authorization acts, and 
what is guidance in what agency. I know, for example, in NOAA 
we have an awful lot of guidance, as you know, Mr. Chairman, in 
terms of appropriations.
    My understanding is, first of all, there is some overlap in 
some areas. I know the Colonel was talking about the 
Rappahannock area I didn't mention, I think, in my oral 
testimony, but through the Coastal Zone Management Program, we 
have been working with the State of Virginia and VIMS in terms 
of some oyster restoration in that area.
    It is my understanding that we really do do all aspects of 
oyster restoration and do try to pivot off of what the two 
States and the universities in the Sea Grant programs want us 
to be working on, and so I think you would find NOAA efforts in 
all those categories I talked about, Community-Based 
Restoration or Sea Grant, in all aspects of the oyster 
restoration efforts. And when I say that I mean sanctuaries, 
reserves, which are closed for some period of time, as well as 
harvest areas.
    Mr. Gilchrest. NOAA doesn't need any authorization in any 
aspect of the Resources Committee, the Commerce Committee, 
their counterparts in appropriations, to give you clear 
language to make a determination as to whether something needs 
to be protected as a sanctuary, or something needs to be fished 
shortly after it is restored.
    Mr. Gudes. I think this may go back to just the Organic 
Acts that we work on, but we have, I think, sufficient 
flexibility to really respond under the appropriations language 
or authorization language that we have. I think that is fair, 
and if the State of Maryland DNR or other partners in the case 
of the projects we do here want to create additional reserves 
or sanctuaries within the programs that we have, I think we 
have the flexibility to do that.
    Mr. Gilchrest. Thank you.
    Mr. Gudes. My staff says that is correct.
    Mr. Gilchrest. Mr. Schwaab, since you are working with 
these two Federal agencies and probably a myriad of other 
Federal, State and in the private sector, in your effort to 
restore, in this particular goal, certainly habitat and then 
the oysters themselves to a level of 10 percent of what the 
historic levels were by 2010, do you feel that the State of 
Maryland has good communication with all those in the 
partnership? Is there anything that you would recommend that we 
help clear up to make your job a little bit easier as to what 
areas you would like to see as sanctuaries and what areas you 
would like to see as part sanctuaries?
    Mr. Schwaab. Yes, sir. The discrepancy between the 
harvestable areas and the closed areas, first of all, is that 
we firmly believe that to reach that tenfold increase goal, 
which is the overarching goal, we must all together meet that 
subservient strategy of restoring 10 percent of the 
historically productive oyster grounds as essentially a 
sanctuary network throughout the Bay.
    To answer directly your question, we feel that we have made 
substantial progress--and I mentioned the Baywide Comprehensive 
Oyster Management Plan which is being developed in concert by 
all of the partners, and we feel like that is the most 
important tool to keep everybody on the same page to identify 
the appropriate areas for restoration and the appropriate areas 
that need to be set aside as sanctuaries into perpetuity, and 
as long as we remain on the course that we are on now, which 
has all the partners sitting around the table developing that 
single Comprehensive Oyster Management Plan, that we do have 
the kind of communication and the kind of cooperation that is 
going to be required to get there. As long as we remain on that 
course, we are on that course now, we expect to have a draft of 
that plan completed by soon after the first of the year, and we 
think we are on the right track in achieving what it is I think 
you are seeking.
    Mr. Gilchrest. Thank you. We just want to make sure that--
there is a fairly large effort that has been ongoing, and we 
are trying to fine-tune it so that we become one fine green 
machine here, that there is no missteps or no 
misunderstandings, that everybody feels clear about what their 
role is, and we can accomplish this ambitious task.
    Col. Hansen, I would assume that under a lot of programs 
that the Corps helps facilitate, they usually need, in some 
respect, a local sponsor. So, I would guess that--we will 
certainly check into this--that with or without clear 
definitive congressional language, that if the local sponsor 
wanted this to be a part sanctuary or a full sanctuary, that 
that would be pretty much all the Corps would be required to 
have to comply with that.
    Col. Hansen. Yes, sir, that is correct, and that was the 
gist of my answer. We have a lot of Bay partners, with a lot of 
moving in the right direction, and we are all swimming in the 
same direction. It is just some are still using the 
breaststroke, some are using the backstroke, some are using the 
crawl, and we will get synchronized very shortly. It is 
committee hearings like this that help focus our attention, so 
we understand what that stroke will be.
    Mr. Gilchrest. Thank you very much. I guess it is difficult 
to change somebody's favorite fishing stroke, or swimming 
stroke, but at least we will figure out how to point them in 
all the same direction. Thank you all very much.
    I yield now to my good friend, Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman. Thank you for your 
testimonies this morning. Mr. Gudes, you mentioned a number of 
times in your testimony about Marine Protected Areas, and the 
role that they are playing in this effort.
    Would you tell me the committee what is the status of the 
appointment process to create the Marine Protected Areas 
Advisory Council on the national level, and are we going ahead 
with that, and when do we expect the members of the new panel 
to be named?
    Mr. Gudes. The Secretary approved moving forward in his 
decision, I want to say, in the April-March time frame. We went 
back out for additional nominations. That process actually was 
extended in September because of all the events, and closed at 
least September 30th. And our goal is to have a panel appointed 
by, I believe, the first of the year.
    Mr. Underwood. Maybe, Mr. Schwaab, you could enlighten us 
as to how important is the MPA in your effort?
    Mr. Schwaab. We believe the sanctuary network--specific to 
the oyster restoration initiative, we believe this backbone of 
a sanctuary network is absolutely critical to moving to that 
next phase. Now, the oyster sanctuaries, as we described them, 
are certainly one type of Marine Protected Area. They are open 
to many other types of uses, including recreational fishing, 
but they are closed to harvest of oysters and they are closed 
to the types of damaging gear that in some cases comes along 
with the harvest of oysters that we believe partly led to the 
decline 100 years ago in the resource.
    Mr. Underwood. You mention in your testimony that Governor 
Glendenning has earmarked $25 million for the purpose of oyster 
restoration. Would you characterize whether the effort is--you 
know, this would be tough choices, but I am just trying to get 
a sense of what is the general direction of the State. Would 
you characterize it more as directed toward restoring the 
number of harvestable oysters, or would it be more toward the 
direction of the ecological benefits of having a healthy oyster 
population?
    Mr. Schwaab. The latter, sir. As I mentioned, we had 
decades of, and continue to operate what we call a Repletion 
Program, which involves shell and seed management for the 
purpose of maintaining and enhancing the fishery. While that 
has been modestly successful, it certainly has not returned 
oyster populations to the level that we need to reach to 
achieve the kind of Bay restoration goals that we want.
    So, the bulk of the new commitment from the Governor, the 
vast majority of that money will be directed specifically to 
restoration practices in these newly designated oyster 
sanctuaries, and that will involve all sorts of things, from 
restoration of existing oyster bars through simply--you know, 
we are working experimentally with some cleaning processes to 
basically large-scale construction of what you might view as a 
3-dimensional oyster reef, areas that are then seeded with 
young oysters in some cases, all of those kind of things, and 
some which are very expensive, will go into, again, the effort 
specifically to restore a self-sustaining network of oyster 
reefs that represent 10 percent of the historically productive 
oyster bottom.
    Now, we think there will be many ancillary benefits from 
that Corps network that will be of benefit to the fishery by 
providing reproductive potential that will have effect on 
surrounding areas, and we expect to continue to maintain that 
at historic levels, efforts directed at sustaining the fishery, 
but this new money will be largely for the restoration 
initiative.
    Mr. Underwood. This question would be for all three of you 
in terms of your own experience with this particular issue. 
What is the most currently significant factor limiting the 
recovery of the oyster population? I know that a number of 
items have been suggested, ranging from water quality to 
habitat degradation to disease or overharvesting.
    Mr. Gudes. I think if you take a look at what has happened 
to oyster populations in the last 40 years, disease has been 
the major change. It is the major challenge, I think, when you 
are able to--I think the Virginia numbers show that even 
greater because of higher salinities in MSX, and it is a 
challenge when you can get the oysters out there, to be able to 
bring them to maturity.
    The other side I have done, as I said, I have done some of 
these projects myself up on the Magothy River, for example, 
which is an historic area of oyster. The Bay's ecology has 
changed, and it is higher levels of fresh water to where 
oysters don't naturally occur in those areas now, and so you 
can put the oysters out there, but the chances of them spawning 
and reproducing are not as great. The flip side is they are not 
as vulnerable to MSX, for example, because of the lower 
salinity levels. But I would say that the disease is still the 
greatest problem.
    Mr. Schwaab. I would certainly concur in recent years. We 
believe, however, that poor habitat and the low status of the 
stock, the low numbers of oysters out there are certainly 
impeding their ability to naturally hopefully overcome with 
time some of those disease limitations, but clearly the 
immediate limiting factor is disease, and we need to find many 
ways to work around that or to position oysters to work around 
that.
    Col. Hansen. Sir, the Corps of Engineers is founded as a 
construction agency. We work deliberately toward supporting the 
Administration and the wills of Congress to promote 
environmentally sustainable development, and I would say that 
commitment of Federal and sponsor dollars, concerted effort and 
a mindset all channeled in the same direction for this single 
purpose would be the largest thing to overcome, and we are 
moving that way as we speak.
    Mr. Underwood. These diseases which are MSX and Dermo, are 
these diseases considered invasive species themselves, or how 
did they get into the Chesapeake Bay?
    Mr. Schwaab. Nobody knows with certainty. It is believed 
that Dermo is a long-standing and naturally-occurring disease, 
but that MSX was possibly brought here to the Bay with some 
non-native oysters decades ago.
    Mr. Underwood. Well, that expands our invasive species 
inquiry, Mr. Chairman, a little bit more.
    [Laughter.]
    Mr. Underwood. Well, that is all I have, Mr. Chairman. I am 
also more interested in how Pocohontas saw the Chesapeake Bay 
than John Smith. I thought I would just let you know for the 
record.
    [Laughter.]
    Mr. Gilchrest. I think the last panel is going to talk 
about Pocohontas. Thank you, Mr. Underwood.
    Mr. Owings.
    Mr. Owings. Mr. Chairman, I didn't have any particular 
questions, save the fact that Congressman Underwood was talking 
about invasive species, an area that will attest to the fact 
that last session we addressed that. There are some 27, I 
believe, in the back bays that we find some 27 species of crab, 
the Japanese green crab and a few other species, that have 
worked their way down here, and we are fearful that can work 
its way into the oyster population are some of the things we 
are fighting now. We have addressed that issue, at least we are 
attempting to address that issue, unless I am mistaken.
    Mr. Schwaab. There are certainly many different invasive 
species, including some of the crab species that Delegate 
Owings mentioned, particularly in the coastal bays that are of 
concern, and that continues to be a very important avenue of 
pursuit in protecting and restoring this ecosystem.
    Mr. Gilchrest. Thank you, Mr. Owings. Just a follow-up 
question, Mr. Schwaab. With your ability to communicate a whole 
range of issues with all the users of the Bay, but in 
particular with this issue of oyster restoration, oyster reefs, 
oyster sanctuaries, are the commercial watermen fully engaged 
in the discussion of these issues, as well as recreational 
fishermen, recreational boaters, and other users of the Bay, as 
we move along with developing what used to be only a few oyster 
sanctuaries, which are a growing number of oyster sanctuaries, 
which will continue to be even more sanctuaries throughout the 
Chesapeake Bay?
    Mr. Schwaab. Yes, sir. Our Roundtable Steering Committee 
here in Maryland that I mentioned, which coordinates the 
Maryland specific restoration efforts, includes representation 
from the industry, and specifically watermen.
    One of the very positive things that we have seen recently 
is strong support from the commercial fishing community for the 
establishment of this network of oyster sanctuaries. They are 
beginning, we believe, to recognize that not only would the 
establishment of a sanctuary network be important in its own 
right, but that it ultimately will lead to the kinds of 
ancillary benefits increasing reproductive potential that I 
mentioned, that will help sustain their industry for the long-
term.
    Mr. Gilchrest. Somebody told me one time--and I am not sure 
who it was, but it was either somebody in the State or perhaps 
NOAA--that if you could restore the oysters using sanctuaries 
and reefs by 2010 to about 10 percent of historic levels, then 
those sanctuaries could remain sanctuaries, but because of the 
increased spat and the increased potential for productivity and 
the increased size of the oysters on the oyster reefs, because 
they are not being harvested so they are growing out, that the 
number of oysters that could be harvested would be many more, 
maybe even double, than what it is today, without touching the 
sanctuaries, almost like a large endowment where you don't use 
the principal, but you just harvest the interest. Is that 
likely?
    Mr. Schwaab. We believe that could certainly be the case 
and, in fact, not only would we expect to not touch the 
principal, but we would expect to remove only a portion of the 
interest so that the principal would continue to grow as well 
because we believe that the 2010 tenfold increase goal may only 
put us part-way to where we ultimately need to be, and we need 
to position--we like to say we need to position the oysters to 
do the heavy lifting themselves. If we can get the kind of base 
population established that we are after by 2010, then the sky 
is the limit from there.
    Mr. Gilchrest. Just one last question. We are talking about 
sanctuaries, and in some form they are called Marine Protected 
Areas, and I know that NOAA is involved in a pilot project in 
the Chesapeake Bay dealing with an ecosystem approach to 
managing the fisheries. And I wondered how connected the oyster 
program and the oyster network is with maybe producing some 
type of pilot project or precedent for Marine Protected Areas 
that could be implemented in other areas, and the Oyster 
Roundtable Group moving toward the goal of 2010, what 
discussions they have with the other pilot project that is in 
the Bay dealing with the ecosystem approach, and if they are 
connected in an ecosystem approach, do you look at oyster 
restoration from a perspective of corridors from as far up the 
Bay as you can produce oysters or oysters will grow, down 
through to the mouth of the Bay, are these sanctuaries being 
thought of as connected?
    Mr. Schwaab. As you mentioned, in the Chesapeake Bay, we 
have probably underway the first development of a comprehensive 
fisheries ecosystem plan. That plan involves, at this point, 
sort of characterization of many aspects of the Chesapeake Bay 
ecosystem, and there are specifically habitat sections of which 
the oyster sanctuary network, and more broadly the oyster 
populations, would be an important part, to from the habitat 
section to things like removals and all of the aspects of 
management, multi-species interactions at the finfish level, 
you know, all sorts of interactions of that type.
    I think that that project is still very much in its 
formative stages. I think it is going to be a process that we 
will continue to learn, as the plan is developed, what the 
ultimate management implications are. Does it deal specifically 
with, for example, this sanctuary network? I don't think it is 
at that level yet.
    Just one comment about the whole concept of Marine 
Protected Areas. Obviously, we have spoken a lot about them in 
the context of oyster sanctuaries, and they are very important 
in this to protect habitat from gear impacts, to protect, we 
think, some base level of spawning stock. There are many other 
reasons for which you might establish a Marine Protected Area, 
ranging from again some those types of uses for protection of 
stock to research areas. We are looking very hard at 
establishing a Marine Protected Area down in the coastal bays 
primarily for the purposes of establishing baselines in an 
unfished population so that we can compare natural mortality 
with fishing-related mortality.
    So, one of the things I think we need to continue to 
grapple with as we look down the Marine Protected Area road is, 
what are we protecting? What are we establishing the MPA for? 
What is its ultimate objective? And that will help to inform 
the design of the specific area and its specific limitations.
    Mr. Gilchrest. Thank you.
    Mr. Gudes. I don't know about the corridors, Mr. Chairman. 
I do think, on the general MPA issue, this is probably a good 
example where, as I said in my statement, MPAs are all sorts of 
different protection measures. We have been talking about MPAs. 
These are all State MPAs, State of Maryland or Virginia MPAs, 
and it is probably an important point to make about the whole 
issue and process, and part of the issue of getting an 
inventory is about understanding what the various States in the 
United States are doing in terms of MPAs.
    On the issue of the ecosystem, I think that it is probably 
very difficult to look at all the dynamics of the Chesapeake 
Bay without doing that, without looking at the full context of 
runoff and all the aspects that relate to finfish and the 
environment. Oysters are a major part of that.
    I mentioned in my opening statement how much the water 
quality of the Chesapeake Bay historically relates back to 
oyster populations. I don't have the exact number, but when 
John Smith was here, I think the Bay filtered water through 
every three or 4 days largely because of the size of the oyster 
population of the Bay now. It is about once per year because of 
how few oysters there are in the Bay. So that relates back to 
the whole issue of what does the ecosystem look like, what is 
the quality of the water, and it is about habitat. That is why 
it was difficult to answer your question before, Congressman 
Underwood, when you said is it disease or is it habitat. They 
all relate. And bringing back oysters and bringing back the Bay 
to a better state require really looking at all these aspects. 
It is not just about the Chesapeake Bay. When we talk about 
stellar sea-lions in front of your committee, and North Pacific 
groundfish, the same sort of issues, increasingly it is about 
an ecosystem approach. And there are a lot of people in our 
agency and the Fishery Service, the National Ocean Service, our 
research components, who are more and more looking at that.
    Mr. Gilchrest. Thank you very much. Gentlemen, thank you 
very much for your testimony this morning. I look forward to 
continuing working with you.
    Mr. Underwood. In our field hearing in Guam.
    Mr. Gilchrest. In our field hearing in Guam, to look at 
brown tree snakes. I wonder if we can eat brown tree snakes, a 
source of protein.
    [Laughter.]
    Mr. Gilchrest. Our second panel, Dr. Mark Luckenbach, 
Virginia Institute of Marine Science, Wachapreague Lab; Dr. 
Susan Roberts, National Academy of Sciences, Ocean Studies 
Board; and Mr. Tom Grasso, Director, U.S. Marine Conservation 
Program, World Wildlife Fund. Welcome this morning.
    Dr. Luckenbach, you may begin, sir.

STATEMENT OF DR. MARK LUCKENBACH, VIRGINIA INSTITUTE OF MARINE 
                   SCIENCE, WACHAPREAGUE LAB

    Mr. Luckenbach. Thank you, Mr. Chairman, for the 
opportunity to address you today. As requested, my written and 
oral comments will address recent progress in oyster 
restoration, the role of disease research, and the potential 
value of Marine Protected Areas in this process.
    In January 1999, I had the pleasure to host a group of 
academic and Government scientists from the Chesapeake region 
as they met at the Virginia Institute of Marine Science's 
Eastern Shore Laboratory to chart a scientifically sound course 
for restoring oyster populations in Chesapeake Bay. The group's 
report, which I will refer to henceforth as the Consensus Plan, 
provides guidelines based upon the best available science at 
the time for restoring ecologically-functional native oyster 
populations to Chesapeake Bay and for establishing a 
sustainable fishery.
    The need for this scientific consensus was driven at the 
time by a perceived failure of conventional management 
approaches to stem the decline in fisheries landings and 
enhance the declining resource. The Plan emphasized two 
criteria for restoring oyster populations.
    The first was the establishment of permanent sanctuaries 
which were highlighted as essential to rebuilding self-
sustaining oyster populations. The two most critical elements 
in establishing sanctuaries were identified as the need to 
provide complex, 3-dimensional structures as the basis for 
reefs, and to restrict harvest on these reefs in perpetuity.
    Secondly, the Consensus Plan recommended strongly against 
the management practices that were going on at the time of 
moving diseased oysters around the Bay's waters. The Plan's 
strategy for supporting a sustainable fishery envisioned that 
the development of disease-tolerant oysters in reef sanctuaries 
would in time supply new recruits to surrounding harvest areas, 
and it was this Consensus Plan that first recommended an 
intermediate goal of restoring and protecting 10 percent of the 
formally productive oyster bars in the Bay as sanctuaries.
    My comments regarding implementation of this plan are going 
to really have more relevance to Virginia, since I am from 
Virginia, but many of the points I think are also relevant to 
the Maryland portion as well.
    First, the good news. In the last few years, there really 
has been a general recognition of the key elements of this Plan 
both by management agencies and by the general public, and you 
have already heard today as well how this is being incorporated 
into the recent Chesapeake Bay Agreement Plan.
    In Virginia, the Fisheries Management Agency, the MRC, has 
attempted since 1999 to follow the strategy outlined in the 
Plan. In 1999, Governor Gilmore established the Oyster Heritage 
Program that formally recognized the ecological role of oyster 
reefs, the need for large-scale efforts to reconstruct this 
reef habitat, and the need for involvement by other State 
agencies and other stakeholders, namely, that this was more 
than just a fisheries issue, and it had only been a fisheries 
issue in Virginia prior to that.
    Under the auspices of this program, there have been more 
resources within the State of Virginia devoted to establishing 
reef sanctuaries and, as well, to restoring harvest areas. At 
present, there are over 30 reef sanctuary sites that have been 
established in Virginia waters. There is a figure in my written 
testimony that indicates the locations of these. Ten more such 
sanctuaries are planned for 2002.
    Over the past few years, both the monies and the shell 
resources in Virginia have been allocated roughly equally, in 
equal proportions, for the construction of sanctuary and 
harvest areas. An attempt is being made to co-locate these 
harvest and sanctuary areas at least in close proximity to one 
another so that the spawn from the sanctuaries, as you have 
been hearing about today, can help populate the harvest areas.
    As I will discuss in a little more detail in just a moment, 
we have very little detailed information about how these 
sanctuary reefs are developing. The data that we do have for 
the lower part of the Bay indicate that oyster populations are 
slowly, but progressively becoming established, and that if we 
continue to limit harvest, at least harvest pressure on these 
reefs, viable reefs will likely develop on most, but not 
necessarily all, of these locations.
    Also, as you have heard today, the diseases Dermo and MSX 
remain widespread and they continue to cause significant 
mortalities on the sanctuaries and elsewhere.
    A real important point here, I think, is that the presence 
of these diseases is slowing the process, but it is not 
eliminating the development of oyster populations on these reef 
sanctuaries. In the absence of harvest pressure--and that is 
about all we can do much about, that and rebuild habitat, we 
can't do a whole lot in the short-term about diseases--in the 
absence of harvest pressure, viable oyster populations can, and 
do, develop on reef sanctuaries even in the presence of 
diseases.
    On the disease front, there is, however, some positive 
news. Selectively bred, highly disease-tolerant oyster seed 
stocks have been developed in recent years, in part with 
partnerships from NOAA and the States, and some of these 
oysters that have been bred have been planted onto both 
sanctuary and harvest areas in both Maryland and Virginia.
    It is really too early, I believe, to evaluate the 
effectiveness of this stocking because the intent is not to see 
how well they survive, but whether or not these oysters will 
reproduce and that their genes will become incorporated into 
the wild populations, particularly those disease-resistant 
genes.
    More good news is that within the past year, molecular 
genetics tools have been developed--again, with NOAA Oyster 
Disease Research money--that will permit us to track the 
incorporation of these disease-resistant genes from selectively 
bred oyster strains into wild populations in the field. This is 
a powerful tool, but this technique is going to need to be 
applied widely and over many years to evaluate how these 
desirable characteristics from these selectively bred stocks 
are being incorporated into wild stocks. It can't happen 
overnight, it is going to take several oyster generations.
    I would like to conclude by pointing out three areas that I 
think are important needs for the continued success of oyster 
restoration in Chesapeake Bay. The first is that oyster shells, 
which are the preferred substrate for building reef bases for 
sanctuaries are in short supply. Both Maryland and Virginia 
dredge these buried shells, and these shells are limited in 
their supply and, in some cases, dredging may have undesirable 
consequences.
    Consequently, alternative substrates for building reef 
sanctuary bases are required to reach even our currently 
defined goals. There are several alternative substrates out 
there that are suitable for oyster settlement that have been 
identified, but further research is urgently needed to optimize 
these substrates for reef construction.
    Second point, we are spending literally millions of 
dollars, and many more have been allocated for the construction 
of reef sanctuaries. A nearly inconsequential level of funding 
is being devoted to monitoring and assessing of these efforts. 
Funding, I believe, is urgently needed to monitor these 
restoration projects, track their success, and provide data to 
support adaptive management of the process. For the vast 
majority of reef sanctuaries constructed in recent years, we 
have little useful information about the detailed development 
of oyster populations in associated communities.
    Again, we are spending millions of dollars and devoting 
millions of bushels of valuable shell to undertake these 
restoration projects in an environment of pretty considerable 
scientific uncertainty, and we are devoting less than 1 percent 
of these expenditures to assess how well we are doing.
    Ecological restoration is a pretty daunting task. In this 
country, we have undertaken some big ones of those in recent 
years--the restoration of the everglades perhaps being a good 
example. We are going to need to be guided by science as we do 
this, and we are going to need to learn along the way. We don't 
know all the necessary steps.
    Finally, restoration of ecologically-functional oyster 
reefs in a sustainable fishery, oyster fishery, will require a 
long-term sustained effort. You have heard that from other 
speakers today. It took us a century to decimate this resource, 
it will likely take a few decades to restore it.
    The greatest threat, I believe, to the success of this 
restoration effort could be impatience by resource managers and 
others, if we let it happen. If we are expecting the diseases 
to go away, we will be disappointed. If we are expecting that 
oyster harvest will rise dramatically in the short-term, we 
will be disappointed. If we are expecting that the ecological 
benefits we have heard about, such as improved water quality 
and increased fish production will be evident overnight, we 
will also be disappointed.
    The risk that I see is that this disappointment could lead 
to an abandonment of the sanctuary strategy and a return to the 
strategy of ``Let us harvest them quick, before the disease 
kills them'', or, worse yet, an imprudent haste to introduce an 
exotic species.
    I suggest that the designation of Marine Protected status 
for reef sanctuaries, as has been discussed here today, 
provides a valuable management tool for State-Federal 
partnerships that could help us achieve this level of 
protection and long-term commitment. Thank you.
    [The prepared statement of Dr. Luckenbach follows:]

 Statement of Mark W. Luckenbach, Director, Eastern Shore Laboratory, 
   Virginia Institute of Marine Science, College of William and Mary

Synopsis of Scientific Workgroup on Oyster Restoration
    On January 18, 1999 a group of academic and government scientists 
from the Chesapeake Region met at the Virginia Institute of Marine 
Science's Eastern Shore Laboratory to chart a scientifically sound 
course for restoring oyster populations in Chesapeake Bay. The group's 
report<SUP>1</SUP> (henceforth referred to as the Plan) provides 
guidelines based upon the best available science for restoring 
ecologically-functional native oyster populations to Chesapeake Bay and 
establishing a sustainable oyster fishery.
---------------------------------------------------------------------------
    \1\ ``Chesapeake Bay Oyster Restoration: Consensus of a Meeting of 
Scientific Experts'' Chesapeake Research Consortium, June 1999
---------------------------------------------------------------------------
    The need for this scientific consensus was driven by the failure of 
conventional management approaches to stem the decline in fisheries 
landings and enhance the declining resource. The Plan emphasized two 
essential criteria for restoring oyster populations.
    (1) LThe establishment of permanent reef sanctuaries was 
highlighted as essential to rebuilding self-sustaining populations and 
supporting fisheries in areas outside of the sanctuaries. The Plan 
pointed out that proper site selection for these sanctuaries was a 
crucial element, noting that they needed to be located in sites that 
historically supported productive oyster populations. Further, the Plan 
identified the need to provide complex, 3-dimensional structure as a 
base for these reefs, in contrast to low-relief plantings often 
conducted in harvest areas. The rationale provided for maintaining the 
sanctuary status of these reefs included the rebuilding of viable 
oyster populations, the promotion of the evolution of disease 
resistance in oyster populations and the broader ecological role of 
reef habitats. Importantly, the sanctuary reefs were viewed as a means 
to enhance recruitment of oysters to adjacent harvest areas.
    (2) LProper disease management was considered an essential feature 
of achieving the restoration goals outlined in the Plan. The primary 
emphasis of the Plan in this regard was to recommend against the 
movement of diseased oysters within the Bay's waters.
    The strategy for supporting a sustainable fishery envisioned by the 
Plan involved the development of disease-tolerant oysters in the reef 
sanctuaries (both by natural selection and breeding programs) that 
would then supply new oyster recruits to surrounding harvest areas. 
While admitting that the required size and number of sanctuaries to 
achieve this goal was unknown at the present time, the Plan recommended 
an intermediate goal of restoring and protecting 10% of the formerly 
productive oyster bars in the Bay as sanctuaries.
Progress in Implementing the Plan
    My comments regarding implementation are most relevant to the 
Virginia portion of the Chesapeake Bay, but many of them may apply to 
the Maryland portion as well. First, there has been a general 
recognition of the key elements of the Plan by management agencies. In 
Virginia, the Virginia Marine Resources Commission (VMRC) is the lead 
agency charged with fisheries and marine resources management. While 
the VMRC had engaged in some aspects of this strategy to restore reef 
habitat beginning in 1993, since 1999 they have largely attempted to 
follow the strategy outlined in the Plan in their restoration efforts. 
In 1999, Virginia Governor Gilmore established the Oyster Heritage 
Program that formally recognized (i) the ecological role of oyster 
reefs, (ii) the need for large-scale efforts to reconstruct reef 
habitat, (iii) the need for involvement by other state agencies and 
stakeholders. Under the auspices of this program, the VMRC has had more 
resources and been more effective in establishing reef sanctuaries. At 
the present time there have been over 30 oyster reef sanctuary sites 
established in Virginia (see Figure below). The VMRC has been 
allocating available resources (both monies and shell) in roughly equal 
proportions to construct both sanctuary and harvest areas. Because of 
the greater cost of constructing the 3-dimensional bases in the 
sanctuaries this is resulting in approximately a 90:10 proportion 
(based on area) of restored harvest area to sanctuary. Further, an 
attempt is being made to locate sanctuary and harvest areas in close 
proximity to one another; however, there is a large element of 
opportunism in the site selection, with shell planting often being 
dictated by proximity to shell supplies.
    Little information is available on the development of oysters and 
associated estuarine communities on the sanctuary reefs; that which is 
available points to considerable variation between sites. Low to 
moderate levels of oyster recruitment have been observed at most sites, 
likely the result of low abundances of natural oyster brood stock 
throughout much of the Bay. Nevertheless, in most of the lower part of 
the Bay oyster populations are slowly, but progressively becoming 
established on the reefs.
    Diseases, especially Dermo (caused by the protozoan parasite 
Perkinsus marinus), remain widespread in natural oyster populations 
throughout most areas of the Bay. Both Dermo and MSX (caused by 
Haplosporidium nelsoni) result in significant mortalities of oysters on 
the sanctuaries and elsewhere. Importantly, the presence of these 
diseases is slowing, but not eliminating the development of oyster 
populations on the sanctuary reefs. In the absence of harvest pressure 
viable oyster populations can and do develop on reef sanctuaries, even 
in the presence of disease. In the upper portion of the Bay, where 
recruitment of wild oysters can be especially limiting, Maryland has 
employed hatcheries to produce large quantities of disease-free oyster 
seed that has been planted onto both sanctuary and harvest areas. The 
available data indicate that disease transmission to these stocks has 
been relatively low. This suggests that if they are protected from 
harvest they may lead to the development of viable populations.
    The Plan recognized the potential of selectively-bred oyster 
strains for stocking onto sanctuary reef as a means of increasing 
oyster resistance to endemic diseases. In the two years since the Plan 
a large number of selected stocks have been placed on sanctuary reefs. 
Selection of disease-resistant, or more appropriately disease-tolerant, 
oyster stocks has proceeded in recent years, largely with the support 
of NOAA's Oyster Disease Research Program (ODRP). Under this program 
and with additional support from cooperating universities, the 
Cooperative Regional Oyster Breeding (CROSBreed) Program has 
successfully developed selected lines of native oysters that exhibit a 
high degree of disease tolerance. In Maryland these stocks are being 
propagated in a state-run hatchery and used in their stocking program. 
Also, these stocks have been distributed to interested private 
shellfish hatcheries and are being utilized in private aquaculture. In 
addition, private citizen and NGO's are purchasing these oyster seed, 
growing them to sufficient size and planting them on the sanctuary 
reefs. Though it is too early to evaluate the effectiveness of this 
stocking, its intent is that these oysters will reproduce, and their 
disease tolerance will be incorporated into the population.
    Recently, with support from ODRP, molecular genetic tools have been 
developed that will permit us to track the incorporation of genes from 
these selectively-bred oyster strains into wild populations in the 
field. These techniques do not involve genetically modified oysters, 
rather they merely permit us to follow how resistant oyster strains are 
getting incorporated into populations in the Bay. These techniques will 
need to be employed widely and over many years to evaluate how 
desirable characters of the selectively-bred stocks are introgressing 
(becoming incorporated into) wild stock.
Further Needs
    Oyster shell, the preferred substrate for building the bases of 
sanctuary reefs and settlement material in harvest areas, is in short 
supply. Few freshly shucked shells are available and both Maryland and 
Virginia dredge buried shell to use in restoration. These buried shells 
are, however, limited in their supply and in some cases the dredging 
may have undesirable consequences--for instance, disrupting shad 
spawning grounds. Consequently, alternative substrates for building 
sanctuary reef bases will certainly be required to reach currently 
defined restoration goals. Several alternative substrates that are 
suitable for oyster settlement have been identified, but further 
research is urgently needed to optimize these substrates for reef 
construction.
    While millions of dollars have been allocated for the construction 
of reef sanctuaries in recent years, a nearly inconsequential level of 
funding is being devoted to monitoring and assessment of these efforts. 
Funding is urgently needed to monitor these restoration projects, track 
their success and provide needed data to support adaptive management. 
For the vast majority of the sanctuary reefs constructed in recent 
years, we have little useful information about the development of 
oyster populations and associated reef communities. This is not simply 
a matter of academic interests. We are spending millions of dollars and 
devoting millions of bushels of limited shell resources to undertake 
restoration in an environment of considerable uncertainty and we are 
devoting less than 1% of these expenditures to assess how we are doing 
and learn how to do it better. At best, this is a risky course; I 
rather suspect that it is foolhardy.
    Finally, restoration of ecologically-functional oyster reefs and an 
oyster population capable of supporting sustainable fisheries will 
require a long-term, sustained effort. It took us a century to decimate 
this resource; it will likely take a few decades to properly restore 
it. Along the way there is certain to be a mix of successes and 
failures with individual projects. As argued above, we need to be in a 
position to learn from these mistakes and improve our efforts as we 
proceed. The greatest threat to the success of this restoration will be 
impatience by resource managers and decision makers. If we are 
expecting the diseases to go away, we will be disappointed. If we are 
expecting that oyster harvests will rise dramatically in the short-
term, we will be disappointed. If we are expecting that ecological 
benefits, such as improved water quality and increased fish production, 
will be evident overnight, we will also be disappointed. The risk is 
that this disappointment will lead to an abandonment of the sanctuaries 
and a return to strategy of ``harvest them quick before the disease 
kills them'' or worse, an imprudent haste to introduce an exotic 
species. The designation of marine protected status for sanctuary 
oyster reefs could provide a valuable management tool to achieve the 
level of protection from harvest that will be crucial to the 
development of viable, disease-tolerant oyster populations.
    Ecological restoration is a daunting challenge, but one this nation 
has undertaken on some impressive scales in recent years. The 
Everglades and the Grand Canyon are among the most high profile 
examples, but restoration of a keystone species and a sustainable 
oyster fishery in Chesapeake Bay would rank as no less of an 
achievement. As with those and many other restoration projects, our 
success will be dependent upon ensuring that the best available science 
guides our efforts and that these efforts are sustained in the face of 
exploitation pressures. Marine protected areas could provide an avenue 
for establishing state-federal partnerships in this endeavor.
                                 ______
                                 
    [Attachments to Dr. Luckenbach's statement follow:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gilchrest. Thank you, Dr. Luckenbach.
    Dr. Roberts.

 STATEMENT OF DR. SUSAN ROBERTS, NATIONAL ACADEMY OF SCIENCES, 
                      OCEAN STUDIES BOARD

    Ms. Roberts. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you for this opportunity to speak to you 
about Marine Protected Areas. I am a Senior Program Officer at 
the Ocean Studies Board at the National Academies. I served as 
the Study Director for the Academy's Committee on the 
Evaluation, Design, and Monitoring of Marine Reserves and 
Protected Areas in the United States, and this committee issued 
a report that was published last year called Marine Protected 
Areas: Tools for Sustaining Ocean Ecosystems.
    This study evolved from a convergence of interests in the 
concept of using specially designed management for the 
conservation of living marine resources, and particularly a new 
interest in ecosystem-based management. Primary funding for the 
study was provided by NOAA's National Marine Fishery Service 
and the National Marine Sanctuary Program. Additional funding 
was provided by the Fish and Wildlife and National Park 
Services.
    We assembled a committee of 13 volunteer experts chaired by 
one of Maryland's eminent marine scientists, Ed Houde, who 
works at the University of Maryland's Solomons campus, and my 
testimony provides a very brief overview of the findings. My 
written testimony provides additional detail, and if you want 
the whole story, I recommend that you read the whole report.
    Marine protected areas are not new to resource management, 
but there has been a plethora of terms that have been used to 
describe this management approach--closed areas, reserves and 
sanctuaries, just to name a few.
    Marine protected area is used as an umbrella term to 
describe a discrete geographic area that has been designated 
for the conservation of marine and coastal resources. This 
approach recognizes the patchiness of marine habitats. The 
apparent uniformity of surface waters disguises much of the 
diversity that lies beneath. Because of this patchiness, it is 
possible, and often desirable, to tailor management to the 
specific requirements of a given site.
    The NRC Committee endorsed the use of MPAs as a valuable 
tool to complement conventional management of marine resources, 
but they recognize that MPAs are not a magic bullet. They will 
not miraculously solve all our marine management problems. They 
need to be used in concert with other forms of marine resource 
management. However, this approach is valuable for conserving 
habitat, biological communities, ecosystem services, and 
supporting commercial fisheries, particularly for relatively 
sedentary species. Some of the speakers earlier this morning 
mentioned a lot of these potential values of using Marine 
Protected Areas. But the focus of today's hearing is an example 
of the sedentary species. In fact, the oyster is about as 
sedentary as a critter can get, literally cementing itself into 
place as it grows to maturity.
    The committee's report suggested that the oyster 
sanctuaries can be expected to contribute to the resources of 
the Chesapeake Bay in at least three ways. First, the 
sanctuaries will help rebuild the oyster fishery. Sanctuaries 
allow a mature community of oysters to develop. These older, 
mature oysters are premium spawners that will help seed 
populations in surrounding areas that are open to harvest.
    Second, the reefs built by the oysters not only provide 
habitat for oysters, but also for many of the other small 
animals that live in and among the oysters. The biological 
community of the reef also provides food and shelter for many 
other fish that are popular, such as striped bass and the blue 
crab.
    Third, oysters provide what scientists call ``ecosystem 
services''. They make a major contribution to the overall 
health of the ecosystem. With the depletion of oysters from the 
Bay due to fishing, loss of habitat, and disease, and the 
phenomenal ability of oysters to filter and clarify the water, 
oysters consume microscopic, but abundant algae, and without 
the oysters, these algae sediment and deplete the bottom waters 
of the Bay of oxygen, and that has impacts on the rest of the 
fisheries. Restoring the oysters will help to restore the 
quality of the Chesapeake Bay's scenic waters.
    In summary, I want to emphasize that MPAs are envisioned to 
play a role in the ecosystem on a scale larger than their 
boundaries, and I want to mention that we don't really see MPAs 
as being parks. I don't think the analogy to a park is really 
relevant, because we see MPAs as really a resource management 
tool that will have benefits for the Bay in its entirety, so 
that people, when they want to see an oyster, are not going to 
have to go to a sanctuary to see an oyster. But it is really 
intended to help to restore the health of the waters as a 
whole.
    Thank you for inviting me to testify. I would be happy to 
answer any questions that the committee might have.
    [The prepared statement of Dr. Roberts follows:]

 Statement of Dr. Susan Roberts, Ocean Studies Board Division on Earth 
             and Life Studies, National Academy of Sciences

    Good morning Mr. Chairman and members of the Subcommittee. Thank 
you for this opportunity to speak to you about Marine Protected Areas. 
My name is Susan Roberts and I am a Senior Program Officer with the 
Ocean Studies Board at the National Academies. I served as the study 
director for the National Research Council's Committee on the 
Evaluation, Design, and Monitoring of Marine Reserves and Protected 
Areas in the United States, which was conducted under the oversight of 
the NBC's Ocean Studies Board. As you know, the National Research 
Council is the operating arm of the National Academy of Sciences, 
National Academy of Engineering, and Institute of Medicine, and was 
chartered by Congress in 1863 to advise the government on matters of 
science and technology.
    This study evolved from a confluence of interests in the timely and 
controversial topic of setting aside areas in the marine realm. for the 
conservation of living marine resources. Primary funding was supplied 
by the National Oceanic and Atmospheric Administration through the 
National Marine Fisheries Service and National Marine Sanctuaries 
Program, with additional funds from the Department of the Interior 
through the Fish and Wildlife and National Park Services. We assembled 
a committee of 13 volunteer experts who spent 2 years gathering data, 
convening 4 meetings around the country with scientists, managers, and 
stakeholders, and deliberating on the value of using Marine Protected 
Areas (MPAs) as a management tool for both sustaining marine fisheries 
and conserving marine biodiversily. The report was released, complete 
with conclusions and recommendations, in November, 2000 and published 
by the National Academy Press in May, 2001. My testimony today provides 
an overview of the findings of that study. My written testimony 
provides additional detail. Copies of the published report are 
available upon request.
                         Recognizing the Limits
    In the past, it seemed that the seas were so vast that they could 
not be harmed by human deeds and therefore needed no protection. 
However, it is now clear that coastal management and policy must 
address human impacts such as overfishing, habitat destruction, 
drainage of wetlands, and pollution that disrupt marine ecosystems and 
threaten the long-term productivity of the seas.
    Advances in oceanography have demonstrated that the sea is not a 
uniform, limitless expanse, but a patchwork of habitats and water 
masses occurring at scales that render them vulnerable to disturbance 
and depletion. The patchiness of the ocean is well known. by fishermen 
who do not cast their nets randomly but seek out areas where fish are 
abundant. Overfishing has become more of a problem as increases in 
technology and fishing capacity have placed increased pressure on our 
native fish populations. Destruction of fish habitat as the result of 
dredging, wetland drainage, pollution, and ocean mining also 
contributes to the depletion of valuable marine species. With the 
continued growth in the demand for seafood and other marine resources, 
it has become not only more difficult, but also more critical to 
achieve sustainability in the use of living marine resources. These 
concerns have stimulated interest in and debate about the value and 
utility of approaches to marine resource management that provide more 
spatially defined methods for protecting vulnerable ocean habitats and 
conserving marine species, especially marine reserves and protected 
areas. Based on evidence from existing marine area closures in both 
temperate and tropical regions, marine reserves and protected areas can 
be effective tools for addressing conservation needs as part of 
integrated coastal and marine area management.
    There have been numerous attempts to develop terms and definitions 
to encompass the array of applications of MPAs in marine conservation. 
The committee defined a simplified list of terms for the various types 
of protected areas, listed here in order of increasing level of 
protection:
    <bullet> Marine Protected Area-a discrete geographic area that has 
been designated to enhance the conservation of marine and coastal 
resources and is managed by an integrated plan that includes MPA-wide 
restrictions on some activities such as oil and gas extraction and 
higher levels of protection on delimited zones, designated as fishery 
and ecological reserves within the MPA (see below). Examples include 
the Florida Keys National Marine Sanctuary and marine areas in the 
National Park system, such as Glacier Bay.
    <bullet> Marine Reserve--a zone in which some or all of the 
biological resources are protected from removal or disturbance. This 
includes reserves established to protect threatened or endangered 
species and the more specific categories of fishery and ecological 
reserves described below.
    <bullet> Fishery Reserve-a zone that precludes fishing activity on 
some or all species to protect critical habitat, rebuild stocks (long-
term, but not necessarily permanent, closure), provide insurance 
against overfishing, or enhance fishery yield. Examples include Closed 
Areas I and II on Georges Bank, implemented to protect groundfish.
    <bullet> Ecological Reserve-a zone that protects all living marine 
resources through prohibitions on fishing and the removal or 
disturbance of any living or non-living marine resource, except as 
necessary for monitoring or research to evaluate reserve effectiveness. 
Access and recreational activities may be restricted to prevent damage 
to the resources. Other terms that have been used to describe this type 
of reserve include ``no-take'' zones and fully-protected areas. The 
Western Sambos Reserve in the Florida Keys National Marine Sanctuary 
provides an example of this type of zoning.
                       Managing Marine Resources
    Management of living marine resources presents numerous challenges. 
The conventional approach typically involves management on a species-
by-species basis with efforts focused on understanding population-level 
dynamics. For example, most fisheries target one or a few species; 
hence, managers and researchers have concentrated their efforts on 
understanding the population dynamics and effects of fishing on a 
species-by-species basis. Although this approach seems less complex, it 
does not resolve the difficulties of either managing multiple stocks or 
accurately assessing the status of marine species. This is compounded 
by the relative inaccessibility of many ocean habitats, the prohibitive 
expense of comprehensive surveys, and the complex dynamics and spatial 
heterogeneity of marine ecosystems. In addition, the species-specific 
approach may fail to address changes that affect productivity 
throughout the ecosystem. These changes may include natural 
fluctuations in ocean conditions (such as water temperature), nutrient 
over-enrichment from agricultural run-off and other types of pollution, 
habitat loss from coastal development and destructive fishing 
practices, bycatch of non-target species, and changes in the 
composition of biological communities after removal of either a 
predator or a prey species.
    In addition to challenges presented by nature, management must also 
address challenges presented by social, economic, and institutional 
structures. Regulatory agencies are charged with the difficult but 
important task of balancing the needs of current users with those of 
future users of the resource as well as the long-term interests of the 
general public. Regulatory actions intended to maintain productivity 
often affect the livelihoods of the users and the stability of coastal 
communities, generating pressure to continue unsustainable levels of 
resource use to avoid short-term economic dislocation. Finally, 
responsibility for regulating activities in marine areas, extending 
from estuarine watersheds to the deep ocean, is fragmented among a 
daunting number of local, state, federal, and international entities. 
This complexity in jurisdictional responsibility often places a major 
barrier to developing coordinated policies for managing ocean resources 
across political boundaries. Although the protected area concept, with 
its emphasis on management of spaces rather than species, is not new 
and has been used frequently on land, there has been less support and 
few interagency efforts to institute protected areas as a major marine 
management measure. Increased use of MPA-based approaches will shift 
the focus from agency-specific problem management to interagency 
cooperation and will facilitate the implementation of marine policies 
that recognize the spatial heterogeneity of marine habitats and the 
need to preserve the structure of marine ecosystems.
                    CONCLUSIONS AND RECOMMENDATIONS
                               MPA Design
    There are multiple goals for establishing MPAs, such as conserving 
biodiversity, improving fishery management, protecting ecosystem 
integrity, preserving cultural heritage, providing educational and 
recreational opportunities, and establishing sites for scientific 
research. To promote biodiversity, the siting criteria for an MPA or 
reserve may include habitat representation and heterogeneity, species 
diversity, biogeographic representation, presence of vulnerable 
habitats or threatened species, and ecosystem functioning. To improve 
fishery management, site choice may depend on the locale of stocks that 
are overfished to provide insurance against stock collapse or to 
protect spawning and nursery habitat. Alternatively, a site may be 
selected to reduce bycatch of nontarget species or juveniles of 
exploited species. Ranking and prioritizing these objectives may be 
guided by local conservation needs and/or regional goals for 
establishing a network of MPAs. Conflicting objectives may require 
negotiation, trade-offs, and consideration of social and economic 
impacts.
    Effective implementation of marine reserves and protected areas 
will depend on resolving these conflicting objectives through 
participation by the community of stakeholders in developing the 
management plan. Federal and state agencies will need to provide 
resources, expertise, and coordination to integrate individual MPAs 
into the broader framework for coastal and marine resource management. 
Additionally, the needs and concerns of affected communities must be 
evaluated and considered when choosing sites for marine reserves and 
protected areas. Stakeholders should be encouraged to participate in 
the process by employing their expertise as well as considering their 
concerns.
    The task of designing a MPA should follow four sequential steps: 
(1) evaluate conservation needs at both local and regional levels, (2) 
define the objectives and goals for establishing the MPA, (3) describe 
the key biological and oceanic features of the region, and (4) identify 
and choose one or more sites that have the highest potential for 
implementation. At the end of the process, the draft management plan 
should specify the location, size, and zoning regulations for the 
proposed MPA. Each of these parameters is described in more detail 
below.
Location
    The success of MPAs depends on the quality of management in the 
surrounding waters. Therefore, the choice of sites for MPAs should be 
integrated into an overall plan for marine area management that 
optimizes the level of protection afforded to the marine ecosystem as a 
whole. In coastal areas specifically, MPAs will be most effective if 
sites are chosen in the broader context of coastal zone management, 
with MPAs serving as critical components of an overall conservation 
strategy. Management should emphasize spatially oriented conservation 
strategies that consider the heterogeneous distribution of resources 
and habitats. Often a single MPA will be insufficient to meet the 
multiple needs of a region and it will be necessary to establish a 
network of MPAs and reserves, an array of sites chosen for their 
complementarity and ability to sustain each other. Site identification 
should attempt to maximize potential benefits, minimize socioeconomic 
conflicts, and exclude areas where pollution or commercial development 
have caused problems so severe that they would override any protective 
benefit from the reserve.
Size
    The optimal size of marine reserves and protected areas should be 
determined for each location by evaluating the conservation needs and 
goals, quality and amount of critical habitat, levels of resource use, 
efficacy of other management tools, and characteristics of the species 
or biological communities requiring protection. In many cases, specific 
attributes of the locale (saltmarsh habitat, spawning and nursery 
grounds, special features such as coral reefs, seamounts, or 
hydrothermal vents) will determine the size of an effective reserve. In 
other cases, the dispersal patterns of species targeted for protection, 
as well as the level of exploitation, should be considered in deciding 
how much area to enclose within a reserve. To achieve the marine 
management goals described above will require establishing reserves in 
a much greater fraction of U.S. territorial waters than the current 
level of less than 1%. Proposals to designate 20% of the ocean as 
marine reserves have focused debate on how much closed area will be 
needed to conserve living marine resources. For sedentary species, 
protecting 20% of the population will help conserve the stock's 
reproductive capacity and may roughly correlate with protecting 20% of 
that species' habitat in a reserve. However, the optimal amount of 
reserve area required to meet a given management goal may be higher or 
lower depending on the characteristics of the location and its resident 
species. Size optimization generally will require adjustments to the 
original management plan based on reserve performance, as determined 
through research and monitoring. Hence, the first priority for 
implementing reserve sites should be to include valuable and vulnerable 
areas rather than to achieve a percentage goal for any given region.
Zones and Networks
    Zoning should be used as a mechanism for designating sites within 
an MPA to provide the level of protection appropriate for each 
management goal. In many instances, multiple management goals will be 
included in an MPA plan and zoning can be used to accomplish some of 
these goals. These zones may include ``ecological reserves'' to protect 
biodiversity and provide undisturbed areas for research, ``fishery 
reserves'' to restore and protect fish stocks, and ``habitat 
restoration areas'' to facilitate recovery of damaged seabeds. 
Frequently, an MPA is established initially to protect a site from 
threats associated with large-scale activities such as gravel mining, 
oil drilling, and dredge spoil disposal. Under these MPA-wide 
restrictions, there is an opportunity to resolve other conflicting uses 
of marine resources through zoning of areas within the MPA. Networking 
should be considered in both zoning and siting of MPAs to ensure long-
term stability of the resident populations.
                        Monitoring and Research
    The performance of marine reserves should be evaluated through 
regular monitoring and periodic assessments to measure progress toward 
management goals and to facilitate refinements in the design and 
implementation of reserves. Marine reserves should be planned such that 
boundaries and regulations can be adapted to improve performance and 
meet changes in management goals. There are three tasks that should be 
included in a well-designed monitoring program: (1) assess management 
effectiveness; (2) measure long-term trends in ecosystem properties; 
and (3) evaluate economic impacts, community attitudes and involvement, 
and compliance.
    Research in marine reserves is required to further our 
understanding of how closed areas can be most effectively used in 
fisheries and marine resource management. Reserves present unique 
opportunities for research on the structure, functioning, and 
variability of marine ecosystems that will provide valuable information 
for improving the management of marine resources. Whenever possible, 
management actions should be planned to facilitate rigorous examination 
of the hypotheses concerning marine reserve design and implementation. 
Research in reserves could provide estimates for important parameters 
in fishery models such as natural mortality rates and dispersal 
properties of larval, juvenile, and adult fish. Other research programs 
could test marine reserve design principles such as connectivity or the 
effect of reserve size on recovery of exploited species. Modeling 
studies are needed both to generate hypotheses and to analyze outcomes 
for different reserve designs and applications.
                        Institutional Structures
    Integration of management across the array of federal and state 
agencies will be needed to develop a national system of MPAs that 
effectively and efficiently conserves marine resources and provides 
equitable representation for the diversity of groups with interests in 
the sea. The executive order issued by the White House on May 26, 2000, 
initiates this process through its directive to NOAH (Department of 
Commerce) to establish a Marine Protected Area Center in cooperation 
with the Department of the Interior. The goal of the MPA Center shall 
be ``to develop a framework for a national system of MPAs, and to 
provide Federal, State, territorial, tribal, and local governments with 
the information, technologies, and strategies to support the system.'' 
Implementation of a national system of MPAs should be used to:
    <bullet> improve regional coordination among marine management 
agencies;
    <bullet> develop an inventory of existing MPA sites; and
    <bullet> ensure adequate regulatory authority and funds for 
enforcement, research, and monitoring.
    Effective enforcement of MPAs will be necessary to obtain 
cooperation from affected user groups and to realize the potential 
economic and ecological benefits. Also, coordination among agencies 
with different jurisdictions will improve the representation of on-site 
and off-site user groups so that the general public's cultural and 
conservation values, as well as commercial and recreational activities, 
receive consideration. Under current management approaches, these 
interests are often addressed by different agencies independently of 
each other and may result in short-term policies that are inconsistent 
with the nation's long-term goals.
                               Conclusion
    What are the consequences of not developing a national system of 
marine reserves and protected areas? Are conventional management 
strategies sufficient to ensure that our descendents will enjoy the 
benefits of the diversity and abundance of ocean life? Although it may 
seem less disruptive to rely on the familiar, conventional management 
tools, there are costs associated with maintaining a status quo that 
does not meet conservation goals. Hence, our relative inexperience in 
using marine reserves to manage living resources should not serve as an 
argument against their use. Rather, it argues that implementation of 
reserves should be incremental and adaptive, through the design of 
areas that will not only conserve marine resources, but also will help 
us learn how to manage marine species more effectively. The dual 
realities that the earth's resources are limited and that demands made 
on marine resources are increasing, will require some compromise among 
users to secure greater benefits for the community as a whole. Properly 
designed and managed marine reserves and protected areas offer the 
potential for minimizing short-term sacrifice by current users of the 
sea and maximizing the long-term health and productivity of the marine 
environment.
    Thank you for inviting me to testify. I would be happy to answer 
any questions the committee might have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Roberts.
    Mr. Grasso.

  STATEMENT OF TOM GRASSO, DIRECTOR, U.S. MARINE CONSERVATION 
                  PROGRAM, WORLD WILDLIFE FUND

    Mr. Grasso. Thank you, Mr. Chairman, Representative 
Underwood and Delegate Owings. It is indeed a pleasure to be 
here today both before the subcommittee before which I have 
appeared and follow closely, as well as being in this room. It 
has been a number of years since I have been here, but this has 
certainly been the site of a number of very lively discussions 
and debates about things from oysters to chickens to industrial 
pollution. It is great to be back here. It is a bit of a deja 
vu for me, but I am glad to be here, particularly today, to 
talk about the opportunity to use Marine Protected Areas or 
marine reserves to protect and restore the oyster population of 
the Chesapeake Bay. WWF, in fact, has a very particular 
interest in this issue, and 2 years ago partnered with the 
Chesapeake Bay Foundation and the Department of Natural 
Resources to fund a research oyster reef site off Tolly Point 
at the mouth of the Severn River, and I look forward to hearing 
from my former colleagues, CBF, as to how those reef research 
projects are doing.
    In addition, we think that Marine Protected Areas provide 
opportunities beyond just oysters in the Chesapeake Bay to 
promote restoration of valuable commercial fisheries. So, what 
I would like to do today, very briefly for you, is outline a 
report and guide that we produced just over a year ago entitled 
``Fully Protected Marine Reserves: A Guide'', and what it 
essentially does is establish a working process for community-
based fisheries management, State level managers, fishers, and 
other stakeholders, to follow in developing a marine reserve, 
and then it also gives some examples from around the world of 
where marine reserves have worked.
    First, let me outline for you briefly what we see six basic 
functions of marine reserves are. And when I say marine 
reserves, today I am referring to those Marine Protected Areas 
that are considered fully protected, meaning off-limits to any 
fishing or any other extractive activities.
    1) Fully protected reserves can enhance the production of 
offspring which can restock fishing grounds.
    2) Reserves can allow spillover of adults and juveniles 
into fishing grounds.
    3) Reserves can provide a refuge for vulnerable species.
    4) Reserves can prevent habitat damage from destructive 
fishing practices such as dynamite fishing and other types of 
extractive activities.
    5) Fully protected reserves can promote development of 
natural biological communities, which are different from 
communities in fishing grounds.
    6) Fully protected reserves can facilitate recovery from 
catastrophic human and natural disturbances.
    With those basic functions outlined in our report, we then 
thought it was important to provide some examples of where we 
have seen reserves work, and why, and I am going to highlight a 
few of those for you, particularly pertaining to the 
restoration of fisheries abundance and improvements in fish 
stock capacities in marine reserves as compared to outside of 
marine reserves.
    For example--and I will start with some of the older ones--
in the Bahamas, a marine reserve that was created some 36 years 
ago, which is a tropical seagrass meadow, the average density 
of the adult queen conch in that region was 15 times higher in 
the reserve than outside the reserve.
    In a reserve in South Africa known as the De Hoop Marine 
Reserve, after only 2 years, experimental catch per effort 
increased by up to fivefold from six out of ten of the most 
commercially important species.
    In the Dutch Antilles, in the Saba Marine Park, after only 
4 years, in the no-take zone the biomass of target species was 
over twice that in the fishing grounds.
    On the West Coast of the United States, in Shady Cove, in 
the San Juan Islands in Washington State, after 7 years, 
lingcod were nearly three times more abundant in the reserve 
than outside.
    In the Edmonds Underwater Park in Washington, after 27 
years, the number of rockfish eggs and larvae originating from 
within the park is 55 times greater than outside.
    And then, lastly, in the Anacapa Island, in the Channel 
Islands of California, densities of the commercially exploited 
red sea urchin were nine times higher in the reserve than in 
nearby fished areas.
    The reason I mention these is that one of the critical 
aspects of designing, establishing and implementing the marine 
reserves are the people you have involved. As we heard from Dr. 
Roberts, it is important to have the science behind you, but we 
believe it is equally important to have the right people 
involved in designing this, and by that I mean the people who 
are using that area for fishing and other activities. In our 
experience, we found--and particularly in the dry Tortugas 
where there has just recently been established a fully 
protected marine reserve--fishermen play a very important role 
in this process. I am sorry I haven't seen Larry Simms here 
yet, but I know the expertise of fishermen in a region can be a 
very valuable asset when you are designing a marine reserve 
because the benefits can accrue to those fishermen as well as 
other stakeholders. Without them, you won't have an effective 
reserve because you won't have buy-in from those stakeholders.
    So, if I can leave the committee with one piece of advice, 
if you will, it would be to have the broadest, most involved 
process in establishing marine reserves because, in the long-
run, that is what is going to end up with the best result, and 
an implemented marine reserve that is productive for all those 
involved. Thank you.
    [The prepared statement of Mr. Grasso follows:]

 Statement of Thomas V. Grasso, U.S. Director for Marine Conservation, 
                          World Wildlife Fund

    Good morning, and thank you Mr. Chairman- My name is Thomas V. 
Grasso and I am the U.S. Director for Marine Conservation at the World 
Wildlife Fund. Established in 1961, the World Wildlife Fund, with 
offices or representatives in more than 60 countries around the world, 
seeks to meet today's complex conservation challenges by identifying 
problems, crafting solutions, and helping local communities draw up 
conservation plans which they themselves can implement to protect the 
environment for future generations. Since its founding, WWF has helped 
establish, fund or manage more than 500 parks and reserves worldwide, 
effectively safeguarding hundreds of species and millions of acres of 
wildlife habitat. In the last decade, WWF has increasingly turned its 
attention to the myriad challenges we face in protecting the biological 
diversity of the world's oceans.
    I am pleased to testify today before the Subcommittee on Oceans and 
Fisheries regarding the use of Marine Protected Areas and regions for 
the conservation and restoration of economically and ecologically 
valuable marine species. WWF is also keenly interested in today's 
discussion regarding oyster sanctuaries in the Chesapeake bay which we 
believe can contribute to the restoration of the historic economic and 
ecological value of this classic Chesapeake species. Today, my 
testimony will outline why establishing fully-protected marine reserves 
and Marine Protected Areas should be used as tools for conserving the 
world's ocean biological diversity; describe the improvements in 
fishery abundance and economic opportunities that result from the 
establishment of fully protected marine reserves; and lastly, 
articulate a process for establishing marine reserves that incorporate 
these many functions and values.
    Wildlife in the sea is diverse, exciting, good to eat and provides 
a myriad of services to humanity, many of which we can barely even 
comprehend. However, human activities now pose serious threats to the 
oceans' biodiversity and their capacity to support productive 
fisheries, recreation, water purification and other services we take 
for granted. Traditional fisheries management, alone, is not equipped 
to deal with these many challenges.
    WWF believes we need new approaches'to better manage the oceans. A 
growing number of people now believe there is a way to conserve marine 
biodiversity, restore dwindling fish stocks, promote sustainable 
tourism and safeguard ecosystem integrity. All of this can be achieved 
by instituting fully protected reserves: that is, areas completely 
closed to fishing and all other types of exploitation or harmful use. 
Such reserves would offer additional protections to those currently 
provided by most Marine Protected Areas (MPAs). At the moment MPAs 
cover less that half a percent of the world's oceans, few protect very 
much and 71 % appear to have no active management (Kellecher et al. 
1995). For example, a 1997 assessment pointed out that, of Canada's 110 
MPAs, 72 provided no protection to species or habitats (Wallace 1997)--
Another 1997 report suggests that, although California has more than 
100 MPAs, less than one fifth of one percent of their combined area is 
protected from fishing, and little of that is effectively enforced, 
(McArdle 1997).
    Marine reserves have enjoyed a great increase in attention over the 
last few years. A decade ago they sounded like a good idea, but now we 
have the research to show that they really do work--People who 
pioneered reserves, the fishers who gave up sections of their fishing 
grounds in the hope of better times ahead, are beginning to reap 
benefits from their foresight. To better understand these benefits, 
several years ago, WWF embarked on an effort to research the successes 
of marine reserves around the world. The news is very encouraging and 
I'd like to share some of these successes with you today. Marine 
reserves provide a number of important benefits or functions. According 
to WWF's recently published report, entitled ``Fully-protected marine 
reserves: a guide,'' the authors, Callum Roberts and Julie Hawkins, 
Describe the potential uses of these reserves as follows:
(1) Fully protected reserves enhance the production of offspring which 
        can restock fishing grounds
    Protecting or creating a ``reserve'' in a marine environment will 
allow many individual species in that area to live longer and grow 
larger. Bigger animals produce many times more eggs than smaller ones. 
For example one ten-kilogram red snapper (Cu ijanus campechanus) 
produces over twenty times more eggs at a single spawning than then 
one-kilogram snappers. Big fish may also spawn more frequently than 
small. On the Pacific coral reefs of Guam, half kilogram goatfish 
reproduce four to five times more often than goat fish half this size, 
and produce 100 times more eggs over a year. Therefore, a few very 
large animals are more valuable as egg producers than many smaller 
ones. In addition to increases in average body size, marine reserves 
will also result in increased egg production relative to fishing 
grounds. Some animals, especially those that are attached to the bottom 
or those having limited powers of movement (e.g. oysters, clams or 
abalones), can only reproduce successfully at high population 
densities. Fertilization rates decrease, as they get farther apart, and 
fewer offsprings are produced. By increasing population densities, 
reserves can greatly increase the number of young spawned. Many of 
these eggs and larvae produced by fish in fully-protected reserves will 
drift into fishing grounds and help restock the fishery.
(2) Fully protected reserves allow spillover of adults and juveniles 
        into fishing grounds
    As the number and biomass (body weight) of individual species 
within reserves increases, they will start to emigrate out of reserves 
and into fishing grounds. Thus, a proportion of the fish which once 
received protection in reserves do eventually become available for 
fishers to catch. This, together with their ability to provide eggs and 
larvae to fishing grounds, provides the basis for fully protected 
reserves to be economically beneficial to fishers. This, in turn, can 
help compensate for the short-term loss that fishers may experience in 
the early years after reserves are established.
(3) Fully protected reserves provide a refuge for vulnerable species
    Some species are particularly vulnerable to fishing and may be 
unable to persist even in areas where fishing pressure is quite light. 
If this is the case no-take zones offer a critical refuge. For example, 
barndoor skate (Dipturus laevis) have been driven to the edge of 
extinction by trawl fishing on continental shelves of the eastem United 
States and Canada, even though they have never been directly targeted 
by fishers (Casey & Myers 1998). Their large body size means they are 
caught as by-catch, and their low reproductive rates mean they cannot 
persist in areas that are trawled. There are similar concerns for 
several species of rockfish (Sebastes spp.) in the Pacific (Yaklavich 
1998). Since fishing gear is not selective, rare species will continue 
to be caught as long as fishing continues. Protecting vulnerable 
species is a key benefit of fully protected reserves.
(4) Fully-protected reserves prevent habitat damage
    Many forms of fishing can damage the marine environment in some way 
and impacts vary from minor and localized to large-scale and 
devastating. Just as reserves provide refuge to species from fishing, 
they also provide a respite from damage to their habitats. This respite 
will allow time for the process of recovery and will ultimately lead to 
restoration of biodiversity within the area.
(5) Fully protected reserves promote development of natural biological 
        communities, which are different from communities in fishing 
        grounds
    Fully-protected reserves have offered remarkable insights into how 
human activity has transformed marine ecosystems. For example, 
protection of rocky shores in Chile led to a change from communities 
dominated by mussels to ones dominated by barnacles. This shift was 
facilitated by the recovery of loco (Concholepas concholepas), a 
predatory snail, which had been overexploited before protection 
(Castilla & Duran 1985). Reserves create conditions that are different 
from surrounding fished areas. These healthier conditions promote 
development of different community structures, and enhance regional 
biodiversity. In other words, marine reserves facilitate increases in 
diversity at the `seascape' level.
(6) Fully-protected reserves facilitate recovery from catastrophic 
        human and natural disturbances
    There is growing evidence that human impacts and stresses undermine 
the capacity of ecosystems to recover from major disturbances. When 
intact, fully functioning ecosystems rebound more quickly from 
catastrophes like storms or oil spills, than places where animals and 
plants are affected by other stresses. For example Connell (1997) 
reviewed studies of recovery of coral reefs from major disturbances and 
found that healthy reefs are resilient and recover relatively quickly. 
However, reefs sufferings from multiple stresses showed little or no 
recovery. The reasons are simple. Healthy ecosystems tend to support 
larger populations of plants and animals that produce at higher rates. 
This means that disturbances are less likely to completely eliminate 
populations, and so recovery will be faster. Fully protected reserves 
help maintain populations at higher levels, so promoting recovery from 
disturbance. They also help reduce levels of stress from other human 
activities.
    Lastly, Mr. Chairman, WWF believes that the process through which 
marine reserves are established is as important as the science that 
goes into the map or chart that is drawn around proposed area. WWF's 
experience in the process that established the Tortugas reserve 
suggests that involving commercial and recreational fisherman as well 
as other stakeholders is critical to the long-term success of a marine 
reserve. Attached to my testimony is a copy of a chart that appears in 
the Roberts/Hawkins report outlining a series of case studies of marine 
reserves that have resulted in improved fishery abundance and the 
subsequent economic value to local commercial and recreational fishing 
and ecotourism industries. I will highlight just a few for you. These 
case studies illustrate that fishermen have a legitimate stake in the 
design, establishment and implementation of marine reserves. As the 
Committee considers marine reserves, WWF would strongly encourage the 
most inclusive process to ensure all interested stakeholders are 
considered.
    In summary, fully protected reserves can: protect exploited 
populations, enhancing production of offsprings which help restock 
fishing grounds; supplement fisheries through spillover of adults and 
juveniles into fishing grounds; provide a refuge from fishing for 
vulnerable species; prevent habitat damage and promote habitat 
recovery; maintain biodiversity by promoting development of natural 
biological communities that are different from those in fishing 
grounds; and facilitate ecosystem recovery after major human or natural 
disturbances. Indeed, a process that includes interested stakeholders 
from the outset will allow marine reserves to perform these functions 
for many years to come. Thank you Mr. Chairman.
                                 ______
                                 
    [An attachment to Mr. Grasso's statement follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Gilchrest. Thank you very much, Tom--words of wisdom 
and good advice. And your comment about Larry Simms today, I 
think, was very appropriate. He may be on the last panel.
    I would just like to say at this point, in case I forget 
when the last panel comes up here and Larry doesn't attend, 
that I have worked with Larry Simms for a long time, and he 
has, in my judgment, the right heart and the right mind for 
this issue in a very comprehensive way, and he has always acted 
with a great deal of credibility, and has been professional in 
his input as the basic leader of Maryland's watermen, has 
always been positive and crucial for these activities. I am 
happy that you mentioned him, Tom, and your advice also to 
bring in all the stakeholders is important to make this a 
successful adventure.
    I would like to make a comment, though--sort of a comment/
question. We are talking about sanctuaries, Marine Protected 
Areas. The comment part of this is that we, as people, have our 
suburbs, towns, cities. We have our areas where we live, raise 
our children, find shelter, sustenance, and so on. And it only 
seems reasonable to have those same areas set aside for 
wildlife, and we do have wildlife sanctuaries, wildlife 
refuges, national parks, and so on. But I think this is the 
time frame for renewed--and I say renewed because people have 
been discussing these issues for hundreds of years--a renewed 
effort to understand the need for whatever we want to call 
this--water refuge, Marine Protected Area, sanctuary--set aside 
for wildlife, for species. And I think we will probably go a 
long way in achieving that.
    Dr. Roberts, in your effort to understand the importance of 
Marine Protected Areas, but in this particular incident, for 
sanctuary for marine species, in particular oysters, in 
identifying those areas that would be most suitable for an 
oyster reef and an oyster sanctuary and all of the positive 
spinoffs that that would create, in your efforts, have you at 
least in part focused on the land around those tributaries for 
their positive or negative contribution to the nutrients in 
that particular tidal basin, tidal estuary? And I know, Dr. 
Luckenbach, you mentioned how difficult it is to understand, 
from a scientific perspective, and monitor all this, and we 
don't expect oysters to explode all of a sudden, the marine 
environment to all of a sudden go back near to the way it was 
500 years ago.
    I will say, though, along the Sasfras River where I live, 
if you looked at the river 20 years ago in certain areas, it 
was fairly devoid of abundant, diverse marine resources, marine 
life. But if you look at the Sasfras River today, especially if 
you went paddling today, or Wednesday, you could see six feet 
down easily, right to the bottom. A lot of grass has come back. 
Spawning of rockfish and little tidal ponds and so on. You 
wouldn't have seen that 20 years ago. But the change of the 
land use practices has fundamentally changed and restored the 
characteristic of that marine ecosystem.
    If you go through on a Sunday, though, in July, you won't 
see down six inches because of the turbidity of just large 
numbers of recreational boaters. So, just two quick comments, 
or I guess questions.
    Do you look at the land use around the tributaries where 
the oyster reefs are going to go, and how much is the oyster 
reef protected? We know we are not going to harvest those 
oysters, but have you looked at the recreational use around 
those young oyster reefs?
    Ms. Roberts. I think there are two answers to your 
question, and one is that the committee did consider that and 
recommended that at least for the initial siting of an oyster 
sanctuary, that you should consider what the environment around 
it is like, and that would certainly include the land and what 
types of influences are going to be coming into the sanctuary. 
So, you would not want to put a sanctuary in an area where you 
have some sort of upstream source of pollution or turbidity 
that you are not going to be able to solve because that would 
obviously compromise the success of that sanctuary.
    But the other side of the issue is that I think one of the 
problems that we have had in the marine environment is that we 
don't always recognize what we have. We don't always see it as 
being a piece of property that we want to protect.
    And one thing that I think can help with the establishment 
of Marine Protected Areas is that people recognize it and say, 
``This is something valuable and we want to protect it now''. 
And then there is more interest, I think, from the land-based 
side, in doing something about reducing the effects of 
pollution.
    And so I think Marine Protected Areas can give the 
community a sense of ownership over the areas in the water that 
then builds the stewardship to take care of them.
    Mr. Gilchrest. Thank you. Dr. Luckenbach.
    Mr. Luckenbach. I can speak to each of those questions, I 
think. Certainly, in Virginia, the efforts and where we place 
reefs has certainly involved looking at environmental 
characteristics. And I think one of the more interesting 
examples of that, though, that points out it is not always 
upstream or exactly in the watershed, it relates to the oyster 
reefs at the mouth of the Rappahannock River. We have been 
installing some there in the last few years, and we will be 
putting more.
    It turns out that near the mouth of the Rappahannock River, 
we expect to be able to put and sustain some oyster reefs on 
the south shore, but not the north shore, and that actually has 
nothing to do with land use immediately on the northern shore 
of the Rappahannock River near the mouth, it has got to do with 
the fact that we know from our hydrographic studies that low 
dissolved oxygen water comes in from the main stem of the Bay, 
and can slosh frequently up onto the banks of the north shore 
and will kill oysters in that area. So, although there is one 
small planting that is going on there now, our expectations are 
that that is not going to be a good location.
    As to your second question about whether or not these sites 
are being used by other individuals and recreational fishermen, 
I can say they are being used so much that even our experiments 
on the reefs sometimes are hampered by all the fishing gear 
that is tangled up in them. And most of them that I have worked 
on now for a dozen years, maybe 10 years, have all become known 
to the recreational fishermen as good fishing spots.
    Mr. Gilchrest. So, is that harmful to the development of 
the oyster reef, or is it neutral? Does it enhance it?
    Mr. Luckenbach. We don't know, on balance. I don't think at 
this point that we have enough--I wouldn't expect that they are 
moving so many fish that it is harmful in that sense, but for 
the few that run their boats aground on the reefs, I don't 
think it is harmful. I think most of it is probably positive in 
the sense of bringing public support to the idea.
    Mr. Gilchrest. That is good. Is there any indication right 
now, Dr. Luckenbach, or anybody, I suppose, that if you are 
going to restore the oysters to the Chesapeake Bay, you have a 
10 percent goal of historic proportions, what will 10 percent 
do for the Bay? And I am not sure, is it 10 percent of what was 
there 300 years ago, 50 years ago? What does the 10 percent 
actually mean? And what does that 10 percent mean as far as the 
actual restoration of the oysters as a mechanism that purified 
water?
    Mr. Luckenbach. Very good question, and the answer is that 
in details we don't know the answer to that. Certainly, the 10 
percent that came out of our scientific consensus meeting was--
we recognized that that was an intermediate goal.
    At the time, there was one study that we were referring 
to--it was a modeling study--that indicated that if we had just 
a 10 percent, at that point, I believe, reduction in harvest of 
oysters in the Bay, that we would see differences in the 
system--increased light penetration, increased growth of 
submerged aquatic vegetation.
    In trying to assess where this might be successful and, as 
you say, where we might see water quality improvements, it is 
really important to realize that this is going to happen a 
piece at a time, and it is not going to be Baywide, for 
example, that we see these examples, but on tributary-by-
tributary basis. And one of the things that I think is going to 
be exceedingly important along the way is that we--we all have 
this big, grand metric out there, ``What can I do for the whole 
Bay''--we need to develop some success criteria for individual 
projects. How much does this particular reef need to get us in 
order to be successful? We don't have that yet.
    Mr. Gilchrest. Thank you. Dr. Roberts? Now, you don't have 
to answer, if you don't want to.
    Ms. Roberts. It would be a tough one for me to answer 
because we didn't specifically look at the oysters in 
Chesapeake Bay but, in general, I guess I would like to 
reiterate what I said at the end of my testimony, the long-term 
goal--and I would like to back what Dr. Luckenbach said, this 
is a long-term goal, this isn't something we are going to see 
in the short-term.
    It is not just to have restoration--if you have restoration 
of 10 percent in the actual sanctuaries, that that is going to 
contribute to the rest of the Bay as well. You are going to see 
recovery of the oyster beds in other areas, so that the actual 
improvements are going to be seen beyond just areas in the 
sanctuary. So, I think that is the long-term goal.
    Mr. Gilchrest. Thank you. Tom?
    Mr. Grasso. I was just going to say, Mr. Chairman, your 
question is an important one, you have to know what the 
baseline is so you understand what you are measuring. And I am 
sure our colleagues from the Chesapeake Bay Foundation can give 
a specific answer as to 10 percent of what, but at this point 
just the state of the oyster population, 10 percent of anything 
would be better than nothing.
    Mr. Gilchrest. Thank you. Mr. Underwood.
    Mr. Underwood. Thank you very much, Mr. Chairman, and thank 
you for your testimony this morning, and thank you for your 
remarks, Mr. Grasso, on keeping stakeholders in line. We 
recently had a problem with PCBs in the waters in an area of a 
military dump site in Guam. And one of the things that I think 
was overlooked was actually consulting the fishermen. Sometimes 
when we get fishermen involved in it, sometimes we think they 
are contributing to the depletion of resources rather than 
active participants in the maintenance of resources. And I 
think, given large levels of cooperation, we can see that come 
to pass.
    I am interested, Dr. Luckenbach, in your comment about 
evaluation, and in there you mentioned--I think you used a 
figure that we are spending less than 1 percent on evaluating 
the nature of the projects that we are engaged in. It also 
brings to mind the comment by the Chairman about 10 percent, 
and trying to figure out exactly what is the benchmark where we 
are going. Then you mention in your own testimony about a kind 
of scientific--well, see, now, I don't know whether this is a 
scientific consensus or a consensus by scientists, and that is 
really a neat distinction, I think, to make. So, the question 
is, is that 10 percent just a consensus goal that was arrived 
at because we sat around and we anticipated that this perhaps 
is achievable, perhaps it is better than nothing, or was it 
based on anything that would approach something that is peer-
driven research?
    Mr. Luckenbach. I think a combination of each of those. 
Certainly, we discussed higher levels, and we realized 
realistically they weren't achievable. It didn't make a lot of 
sense to set goals that weren't achievable. We had some limited 
evidence, not from the entire Bay, but from the individual 
tributaries, that small, but concentrated sanctuaries, with 
high densities of food stock oysters on them made noticeable 
differences in the surrounding areas, particularly the Great 
Wicomoco River in Virginia had been a small experiment in that, 
as it were, that did lend a little bit of reality to our 
estimate of 10 percent, but very much I think it was, as you 
said, a belief that that was an achievable goal. Anything 
larger, as Mr. Schwaab said in the first panel, it is beyond 
our doing anyway. The oysters are going to have to do the 
heavy-lifting on this.
    Mr. Underwood. And what about the--what is the source of 
the fact that we are not putting as much resources into 
evaluating our efforts, can any of you speak to that? Maybe it 
is more appropriate for you, Dr. Roberts.
    Ms. Roberts. I would second that. The committee felt it was 
very important to have ongoing monitoring and research, and 
there are several reasons for that. One is that to get 
continuing support for the implementation of the sanctuaries, 
it is very important to see how they are functioning. Are you 
making progress towards your goals? You can't do that without 
having ongoing monitoring.
    And the second is that I think the sanctuaries themselves 
provide a very valuable tool for research. We need to 
understand more about how the oyster reefs work, and also how 
the whole concept of having a marine reserve or marine 
sanctuary is going to function. Did we put them in the right 
place? Did we make them the right size? How many of them do we 
need? This all going to take further research. So, I think that 
it is extremely important to have continuing monitoring and 
research.
    Mr. Grasso. I would agree with that. It is very important 
to have scientific research continue once the marine reserves 
are established. And I also think, again, it provides a role 
for the fishermen in the area as well. They are the ones that 
are out there on a daily basis working for a living, and they 
can oftentimes provide very useful information to the 
scientists and researchers, what they are seeing out there as 
well, and are sometimes some of the first people who see 
problems that may be emerging and can come up with suggested 
ways of dealing with them. So, again, going back to the 
stakeholder process, it is something that continues even after 
the marine reserve has been established.
    Mr. Underwood. Thank you. Dr. Luckenbach, you mentioned in 
your testimony about alternative materials, substrate 
materials, to rebuild oyster reefs, since we don't have a lot 
of oyster shells. What environmental factors are considered in 
that process, and what kind of alternative materials should we 
be looking at?
    Mr. Luckenbach. Well, we are, in fact, both looking at and 
using a range of other materials, including ground concrete, 
mined limestone morel, and we have done experimentation with 
stabilized coal combustion byproducts, basically, coal ash or 
the cinders that would be in cinderblocks. Certainly, for any 
new or exotic material like the coal ash, it is important 
initially to do all of the proper environmental chemistry to 
ensure that we are not putting something in the waters that 
would be harmful. I think we have managed to get over most of 
those hurdles and, in fact, we know that we have a number of 
materials, and the most obvious one is there is a lot of 
concrete out there that is available, and some of it is being 
used as reef bases. What we have also learned in recent years 
is when you put material out on the bottom of the Bay, the 
difference between getting a living, functioning oyster reef 
there or not getting one at all may be due to very subtle 
differences in the size and the shape of the materials that you 
put out. Oysters will settle all over everything. We have all 
found a beer bottle or something in the Bay with oysters 
settled on it, but they surprisingly don't survive very well if 
they don't have exactly the right type of refuge from 
predation, the right type of elevation, the right type of 
environment in the face of low-dissolved oxygen. And we have 
seen just extremely striking differences.
    What we need to do now is focus in literally on the real 
engineering thing, exactly how big do we have to break that 
concrete up, and exactly what sizes. We are narrowing in on it, 
but we have got a ways to go.
    Mr. Underwood. I am very heartened by that because I don't 
want people to think that they are contributing to oyster beds 
by throwing beer bottles into the water, or dumping cars into 
the water, or any of these other things which sometimes I 
fear--you know, sometimes we will hear various businesses say 
that they are going to contribute with these artificial reefs.
    In your statement, also, you mentioned that viable oyster 
populations have been re-established even in the presence of 
Dermo and MSX. Why is this? Are these populations genetically 
different, or is an increased survival rate attributed to 
environmental factors in those areas that you are studying?
    Mr. Luckenbach. Very good question. The most striking case 
of this is our series of experimental reefs that we placed 
right at the mouth of Chesapeake Bay, in Fisherman's Island 
National Wildlife Refuge. That is an area that has the highest 
incidence of disease that I can find anywhere in the Chesapeake 
Bay. One hundred percent of the oysters that have been through 
a summer are infected with Dermo, and MSX every few years comes 
in and kills quite a few of them.
    The why it is is that, for one, Dermo has actually always 
been with us, and we can't do a lot about it. We can't slowly 
and progressively build some disease-resistant animals. What we 
did and the why it is is we provided a reasonable substrate in 
the right configuration, some good protection from predation, 
and we did the only other thing you can do. There has been zero 
harvesting on those reefs. And many, many oysters have died 
from disease. And I don't want to minimize the importance of 
disease. When these diseases come in and hit an oyster bed or 
oyster reef, they kill enough of them that there is clearly no 
longer in many cases commercially viable quantities of oysters 
on those reefs, but there are always oysters left. It never 
kills 100 percent of them. And it is those ones that it didn't 
kill that are so important because they are the ones that spawn 
the next year. So, the ones in particular that I was talking 
about are reefs that have been out there for six and 7 years 
now, and they have six- and 7-year-old oysters on them, and 
every year some oysters have died from disease. But it is so 
critical to leave the ones there that are disease-tolerant--not 
completely disease-resistant, but they are disease-tolerant--
and the population is gradually becoming more disease-
resistant, but that is what I attribute it to. In the end, all 
we can do in the short-term, is put out materials and manage 
the harvest.
    Mr. Underwood. In your estimation, are we spending enough 
resources on trying to deal with the diseases themselves as 
opposed to the whole issue of finding an appropriate habitat?
    Mr. Luckenbach. No one has had for some time now the Oyster 
Disease Research Program, and I think they have made some very 
good advances. And there is not one of my colleagues that would 
tell you they couldn't make more if they had more money. You 
know, at some point, there is a limit to that.
    I do believe that we have--as well, we have spent some 
money of State, Federal and private, on evaluating new 
materials for habitat. I think we need to do more in the 
latter, more importantly there, because that is something we 
can do. Diseases we can do a little bit, but they are out there 
and it is part of the environment.
    We can improve the habitat that we put out and, very 
importantly, we need, as we have said earlier, we need to 
improve the monitoring that we are doing, not just come back a 
year later and say are there oysters on there or not. We need 
to be able to look closely so we can do adaptive management, 
and we can add a little more substrate, and we need to add 
oysters in a place that we haven't, brood stocks where we 
haven't added them. We need to understand the circulation 
patterns so we know why larvae aren't coming back to that reef. 
It is that type of follow up on the actual sanctuaries that I 
believe is grossly underfunded right now.
    Mr. Underwood. Dr. Roberts, on the MPAs, when you were 
evaluating the MPAs, did you also evaluate the institutional 
and the administrative framework of forming these MPAs as 
opposed to just the scientific evaluation, and if you made any 
kind of evaluation about them, could you share some of your 
findings?
    Ms. Roberts. We talked about it quite a lot, as I think 
people recognize that it is not just the science that is 
important for establishing an MPA, you have to have the 
framework to put it together. And I think that the lesson we 
learned, when we went to the Florida Keys to hold one meeting, 
and I believe there was something like 20 different agencies 
involved in establishing just that one National Marine 
Sanctuary, and that is kind of a lesson learned in that this is 
not a simple task to bring all these agencies together.
    To put a positive spin on that, though, I think it is a 
very good thing that in looking at an MPA where you are talking 
about local waters, State waters, and Federal waters, is that 
you do bring all of those groups together to talk about the 
implementation of the area. You know you cannot manage it 
without having all the players at the table. That includes all 
the agencies involved. It includes all the stakeholders. We 
know that you can't leave any stakeholders out because they are 
going to be very unhappy and cause trouble later down the road. 
Also, we know that if you bring the stakeholders in, they can 
help you. I think that was clear in what happened at the 
Tortugas. They brought people in who understood the fisheries 
in that area, what sites really needed to be protected, what 
areas may be more resilient and could withstand some fishing 
pressure.
    So, the committee recommended that when you decide that you 
need a Marine Protected Area to meet your marine conservation 
goals, that the first step is to make sure you bring all of the 
relevant players to the table, and that is going to include all 
of the agencies involved.
    Mr. Underwood. I think those insights are very critical 
because sometimes the tendency is in the fact of having to 
involve 20 agencies or 20 groups, the tendency would be, well, 
let us streamline it and give authority to one agency, and that 
necessarily won't yield the most desirable result and probably 
get a lot of resentment.
    Just a last question to Mr. Grasso. I know that you 
mentioned a number of MPAs around the world, and one of the 
issues that I am very much interested in is coral reef 
restoration, and I know there are a number of areas in the 
world are having extreme difficulty with that. So, would it be 
your recommendation that there be greater use of MPAs in areas 
that are recognized as kind of biological hotspots, as in the 
Philippines and Indonesia?
    Mr. Grasso. Absolutely. We think that particularly given 
the number of threats facing coral reefs around the world, that 
marine reserves or Marine Protected Areas can play a vital 
role, in particular places where we are beginning to look at 
perhaps those reefs that are not being affected by climate 
change, but may provide the type of biological diversity 
functions and benefits that would otherwise be decimated by 
other threats, we think a focused effort with these marine 
reserves and MPAs in those areas that are perhaps immune to 
climate change might in the long-run promote biological 
diversity that we may otherwise lose. So, there are a number of 
strategic approaches to dealing with threats to coral reefs and 
marine reserves can plan a very important role in that.
    Mr. Underwood. Thank you, and sorry to bring up coral 
reefs, but maybe with enough climate change we will be talking 
about coral reefs in the Chesapeake.
    [Laughter.]
    Mr. Gilchrest. We will take coral reefs there. We have our 
own coral reefs in the oyster reefs. Thank you, Mr. Underwood. 
Mr. Owings.
    Mr. Owings. Thank you, Mr. Chairman. Very quickly, Dr. 
Luckenbach, I was surprised that you mentioned oyster shell 
itself as a primary, very successful place to spat when we 
recreate these beds. That is not the question. And Congressman 
Underwood made a very good point. With 20 agencies involved--
and this is the question--which we couldn't expect there to be 
one focal point for informational purposes.
    I guess my question is this. The Bay has been fouled by 
man. It is man's responsibility to now clean, whether it is 
runoff, accidental spills such as happened, as we all know, up 
at Chalk Point, the daily dumping of boats discharging into the 
water and what have you.
    I guess what I am trying to find out is if there is one 
place where we could go where the scientific information would 
correspond. We are well aware of the work done specifically 
with oysters down at CBL, Chesapeake Biological Lab, is 
historic, and it is ongoing as we speak, through all the 
individual capacities where research is done, gains that we 
have made in the Oyster Recovery Program at the State level, 
all of the agreements that we have had down through time, 
Maryland, our sister State and D.C., seems to me that we are 
losing ground. Tom, you won't agree with this, I know, but it 
seems to me that we are losing ground instead of gaining 
ground, and that is a sad commentary for all of our efforts. We 
are still dealing with migratory birds, so it is a whole host 
of natural resources that we try to deal with. I wish you could 
convince me that we are not losing ground, that in fact we are 
gaining ground.
    Mr. Luckenbach. Well, the NGOs, including the Bay Program, 
have probably expressed similar opinion in recent years, that 
we are gaining ground in some areas and losing in others, and 
certainly Congressman Gilchrest gave examples of one near his 
home where there have been some clear improvements.
    You did ask at the beginning of one place to go for 
information or where almost, I took it to be, is there a 
clearinghouse for the scientific information. Indeed, it is not 
all there, but I would suggest that the Chesapeake Bay Programs 
Office is, in fact, a good place for that. The Chesapeake Bay 
Program is a Federal-State partnership, and does maintain 
databases. Some of them get up there really on real-time, and a 
lot of effort particularly has been made in recent years to 
make the very informative Websites and real-time data available 
on there. And so I think that is an example of something in 
terms of sharing information that is working extremely well.
    Mr. Owings. Thank you, Mr. Chairman. Mr. Chairman, I want 
to beg your leave. I have got a briefing at the nuclear power 
plant for security purposes at Calvert, so I would like to 
thank you very much for your kind hospitality today. I will 
certainly be reporting to the Chairman of the Committee.
    Mr. Gilchrest. Thank you, Mr. Owings. And that is an 
excellent question. Very often information like the environment 
is fragmented, and we will work with you and the Chairman of 
the Committee and the Committee, certainly, to, as we move 
through this enormous undertaking but important endeavor, we 
will make sure that that flow of information is efficient and 
timely. Thank you, Mr. Owings.
    Mr. Owings. Thank you again, sir.
    Mr. Gilchrest. I just had one sort of follow-up question 
dealing with what Mr. Underwood raised as far as MSX and Dermo 
and can you develop a disease-resistant oyster, and also a 
follow-up question to that is, I understand, that Virginia is 
or has introduced an experimental Japanese oyster. What is the 
status of that project? Maryland, I think, has yet approved of 
that, and I know that the introduction of the Japanese oysters 
are sterile. Can we count on the fact that there won't be any 
reversal of that while they are in the water--and that is a 
loaded question--but as far as the disease-resistant oysters, 
is there any sense that--and we know that one or both of these 
diseases have been in the Bay for a long time or, if not, since 
the beginning of time, and there wasn't any evidence of its 
difficulty with oyster reproduction and oyster health until 
maybe 60, 70 years ago, or at least until this--I was going to 
say this century--the previous century, the 20th Century. Is 
there any inkling of understanding whether or not the disease-
resistant oyster is disease-resistant because of its size, its 
age, or its volume, where it might be located?
    Mr. Luckenbach. I will certainly tackle the first part of 
that, the native oyster disease, first. Absolutely, we can 
breed highly disease-tolerant oysters. In fact, going back 
quite a few years before I was even in the field, an MSX-
resistant oyster was bred actually in Delaware Bay. It turned 
out that it was highly susceptible to Dermo and it grew very 
slowly. Primarily with funding from NOAA for about 12 years 
now, we at the Virginia Institute of Marine Science and 
University of Maryland, in partnership with the University of 
Delaware and Rutgers University have been involved in a 
selective breeding program that has resulted in an oyster, at 
least one and probably two strains of oysters, that is highly 
resistant to MSX. It is quite resistant to Dermo. Dermo is a 
slow, sort of infectious disease, and eventually they can get 
Dermo. And it is rapid-growing. We developed that oyster with 
aqua-culture in mind. In order to sustain it, you have to keep 
breeding it in a hatchery.
    The notion of being able to use that in restoration is 
somewhat of a newer one. As low as oyster stocks are in the 
Bay, if we took and threw these few of them out that we have, 
of course, they would just get overwhelmed by the wild stocks. 
That is why we have been ramping-up production of these 
disease-tolerant animals, and we have developed, as I mentioned 
in my testimony, a genetic tool that will let us try to track 
over several oyster generations whether or not the genes from 
these oysters get incorporated into the wider broad population. 
A part of that, is part of your question, is oysters that are 
resistant to diseases, particular diseases, seem to be so for 
the same reason that some humans might be to a particular 
disease--that is, their immune system is just able to fight it 
off. They have to have a good immune system and they have to be 
healthy. So, some of the increased impact of Dermo is probably 
due to unhealthy oyster populations and unhealthy individuals.
    The other question that you asked, which I am sure the day 
will come when the subcommittee will probably hold hearings on 
exotic oyster species, I would assume, related to the work in 
Virginia with a non-native oyster. In fact, the Virginia 
Institute of Marine Science has been doing experimental work 
with two different exotic oyster species, one often called the 
``Japanese'' or ``Pacific'' oyster species, which we found, 
frankly, not to grow very well in the Bay, and then over the 
last three or 4 years, 5 years perhaps, with the Southern Asian 
oyster that, working in short-term experiments with sterile 
individuals, we found actually performed and grew very well in 
the Chesapeake Bay.
    Over the past 2 years, the Virginia Marine Resources 
Commission, the Fisheries Management Agency, has permitted 
limited small trials with sterile triploid animals by our 
industry. It is unclear at this time whether or not they would 
be willing to permit the large use of sterile triploids. It is 
the general feeling, I believe, of the Virginia Institute of 
Marine Science and the scientific community, that a large-scale 
introduction or use of sterile triploid animals in aquaculture 
right now would entail significant risk of an unintended 
introduction of reproductively capable animals, either by the 
reversion that you spoke of or by mistakes that occur in a 
hatchery. And at this time, there certainly aren't any plans by 
the Virginia Institute of Marine Science--which would not be 
the organization that would actually introduce them--to either 
do such an introduction or to support a large-scale 
introduction of either reproductively capable animals or of 
sterile ones without an extremely high bar on biosecurity set 
to ensure that there would be no accidental release.
    Mr. Gilchrest. Is there a difference in the spat from an 
oyster--how long do oysters live if you didn't harvest them?
    Mr. Luckenbach. Some can certainly live as long as 50 
years.
    Mr. Gilchrest. Is there a difference between oyster spat 
from an oyster that is 30 years old and an oyster that is 3 
years old, as far as its ability to reproduce, its ability to 
be resistant to disease, those kinds of things?
    Mr. Luckenbach. A very good question. An oyster that maybe 
not just because it is 30 years old, but if it is 30 years old 
and it has lived those 30 years in an area of the Bay that has 
MSX and Dermo, then that means that adult was resistant to MSX 
and Dermo. What we find is that if the parents were resistant 
to MSX, the offspring are very resistant. If the parents were 
resistant to Dermo, the offspring are more resistant than 
average, but not necessarily completely.
    Mr. Gilchrest. So then a volume such as a large oyster reef 
with old or aging or much older--certainly older than three or 
4 years--oysters would have a pretty pronounced effect on those 
oysters to begin to show great resistance to both diseases, and 
is there any correlation to that and the way that the oyster 
reefs and the reproduction levels used to be 100 or 150 years 
ago?
    Mr. Luckenbach. Absolutely, yes. I think you just hit it on 
the head right there.
    Mr. Gilchrest. So there is some need for, then, sufficient 
areas to be put in sanctuaries so this type of disease-
resistant oyster can happen after we sort of kick-start it, 
over a period of time.
    Just a quick question about Japanese oysters. Is the 
experiment with Japanese oysters for the purpose of providing a 
harvestable oyster for commercial activity, or for its 
introduction to the benefit to the marine ecosystem and water 
quality, or both?
    Mr. Luckenbach. Well, first of all, just for clarification, 
we actually are no longer experimenting with what is commonly 
called the Japanese oyster. We are working with the Southern 
Asian oyster.
    Mr. Gilchrest. Southern Asian oyster.
    Mr. Luckenbach. The press, I think, has called it the Asian 
oyster. Our experiments, I think, are fairly--are just to gain 
the knowledge. There are those that have suggested that its 
application could be in either one of those lines that you 
propose. I think the scientific consensus would be that the 
most prudent use, if any, would be in a very controlled 
aquaculture setting that would increase harvest, and not that 
we yet know enough to think that we could dump another oyster 
in and try to restore what we used to have.
    Mr. Gilchrest. Thank you, Dr. Luckenbach. Any other 
comment, Dr. Roberts, Mr. Grasso?
    Mr. Grasso. I would just add, Mr. Chairman, that our 
experiences with non-native species and their interaction with 
native marine species is one that suggests that we have to be 
very careful in proceeding down the road, of using non-native 
species of oysters in the Bay, and the tale of North Atlantic 
salmon and the impact of farmed Atlantic salmon on the wild 
stocks of North Atlantic salmon should be a cautionary tale for 
those of us on the Chesapeake Bay, when it comes to oysters and 
trying to breed disease-resistant oysters.
    Mr. Gilchrest. Thank you. Mr. Underwood?
    Mr. Underwood. No questions.
    Mr. Gilchrest. Dr. Luckenbach, Dr. Roberts, Mr. Grasso, 
thank you very much for your testimony. It has been very 
helpful here this morning, and we hope to continue to carry on 
our dialogue with all three of you. Thank you very much.
    Mr. Gilchrest. Our third panel this morning is Mr. Charles 
Frentz, Oyster Recovery Project; Mr. Sherman Baynard, Past 
Chairman, Maryland Coastal Conservation Association; Mr. Mike 
Hirshfield, Vice President of Resource Protection, Chesapeake 
Bay Foundation; Ms. Karen Oertel, President, Harris Crab House, 
and Mr. Larry Simms, or perhaps a representative of Mr. Larry 
Simms, or perhaps not.
    Welcome, ladies and gentlemen, to the hearing this 
afternoon. We look forward to your testimony and your input on 
how we can proceed in this most important endeavor with this 
project.
    Mr. Frentz, you may begin, sir.

    STATEMENT OF MR. CHARLES FRENTZ, OYSTER RECOVERY PROJECT

    Mr. Frentz. Thank you, Mr. Chairman. I am Charlie Frentz, 
the Executive Director of the Oyster Recovery Partnership. We 
are the nonprofit organization you keep hearing about today. We 
are basically the organization where ``the rubber meets the 
road''. We are the ones that implement a lot of these 
scientific and environmental programs you have been hearing 
about this morning.
    There are a lot of questions that I would like to answer 
for the panel, so instead of having prepared remarks, I think I 
would like to try to embellish some of the comments of some of 
the other panelists for you, and clarify some of the issues 
involved with what is actually happening out in the Maryland 
waters of the Chesapeake Bay.
    Mr. Gilchrest. That would be wonderful, Mr. Frentz. We will 
make sure that your testimony is included in the record.
    Mr. Frentz. The Partnership works with everybody involved 
in the process, from the Federal agencies to the local 
agencies, State agencies. We also work closely with a lot of 
the foundations and the public at-large.
    A lot of the projects that we do are very large in scope. 
The philosophy of the Oyster Recovery Partnership is to take 
these oyster resources to a different level as far as 
restoration is concerned. We wear two hats, one is an 
environmental hat and one is certainly to bring back the 
oysters for the watermen in the area. And if I don't get in too 
much trouble, I will even try to speak on behalf of Larry Simms 
and the watermen. There are no watermen representative here, 
but Larry is one of our board members, and I am intimate with 
his philosophies and statements as to the watermen's concerns 
and issues with oysters. I know that is going to get me in a 
lot of trouble, but I will try to, anyway.
    We have got two hats. One of them is certainly for the 
sanctuaries which could be considered an MPA, and we are not 
just haphazardly picking these sites anymore. On Monday, Mr. 
Chairman, you saw a little bit of the Partnership's work over 
on Kent Narrows, and before we did that planting on Monday, we 
actually put out about half-a-million oysters onto a sanctuary 
that we produced last year from the Chesapeake Bay Trust.
    This took us about a year to put this sanctuary in place. 
We had public hearings. We talked to all the watermen involved. 
We talked to the scientific community and got their technical 
advice. We worked closely with Maryland's Department of Natural 
Resources, from the permit process, using their experience as 
to where other sanctuaries had gone. We picked the site 
selection through some of the new technologies being brought to 
bear by NOAA and the Oxford Lab under Maryland's Department of 
Natural Resources, with side scan sonar and bathymetry. So, we 
don't haphazardly go out and pick any of these sites anymore, 
we actually go in and take a side scan sonar of historic areas, 
use the experience of the watermen as to where these sites, 
using their experience--
    Mr. Gilchrest. Where is that site that you just--
    Mr. Frentz. This site is in Eastern Bay that we put in last 
year. So, with all of this technology to bear, the experience 
of the watermen and folks from the Department of Natural 
Resources, we identified areas that would have the best chance 
of survival around all these disease pressures and the 
ecological pressures throughout in the Chesapeake Bay.
    Last year, the Partnership had a record 38 million disease-
free oysters that we put out into five areas. As part of that 
process and the grants that we had with NOAA, we actually had 
some scientific experiments wrapped around our actual 
implementation of these oysters. We took four strains, two 
local strains, one called ``crossbreed'' which Mark talked 
about before that is being developed by VIMS, University of 
Maryland and Rutgers, and the strain from the Gulf waters 
called ``France''. We took these four strains and placed them 
in two different areas in the Chesapeake Bay, in the high 
salinity areas in Tangier Sound, and in the lower salinities in 
the Choptank River, and we put them side-to-side at 1 million 
oysters per acre density. We did a 5-acre site in Tangier Sound 
and about a 20-acre site in the Choptank. So, this organization 
implements all of the aspects, all the expertise, all the 
experience that can come to bear, and is actually putting these 
things out in the water.
    This year, we put 55 million disease-free oysters at 16 
sites, ten were sanctuaries and 6 of them were these managed 
reserves that I would like to get into a little bit later. 
These oyster sanctuaries, again, we picked the site selections, 
but we don't haphazardly just put the oysters in the water 
either.
    With the advice and counsel of everyone, we go out and, in 
some instances, actually bar clean these sites where we will 
try to get the oyster shells that are under the sediment up out 
of the water column. We will then go in and spend a lot of 
money, sometimes leverage money from the Army Corps, sometimes 
Foundation money, sometimes NOAA money, to make a 3- to 6-inch 
shell base above that reclaimed oyster shell. And we do all of 
that before we put on a layer of these disease-free oysters 
that are baby oysters set on spat-on-shell. Most of this work 
is done in the hatchery by the University of Maryland at their 
Center for Environmental Science near Cambridge.
    All of this work is done--the sites themselves are picked 
around disease pressures, but in the case of sanctuaries we 
know the diseases are going to impact them, so the monitoring 
money that you were hearing about, all of the programs we have 
now, does institute some of these monitoring monies. We will 
not put anything out in the water that we are not going to 
monitor in the future. It does us no good to just haphazardly 
throw something out in the Chesapeake Bay and hope that 
something good is going to come out of it.
    In fact, Dr. Ken Painter is in the audience here. He is 
taking the lead for guidelines for monitoring and guidelines 
for what success actually means on sanctuaries, and these 
reserves that I would like to talk about now.
    The Partnership put about--
    Mr. Gilchrest. Reserves and sanctuaries are the same thing.
    Mr. Frentz. They are not. However, if I could get into the 
watermen's viewpoint on some of these issues, the watermen have 
taken a 180-degree turnaround about what their opinion is on 
sanctuaries. They do see them as a benefit to their harvestable 
areas. And the monies that the Oyster Recovery Partnership is 
spending on what is called a ``managed reserve'' has also taken 
a major change.
    We go in and pick these sites with the experienced watermen 
and the Department. We go in and pick areas where there 
historic areas where they had a proliferation of oysters. We 
will go in and bar clean them. We may put a base of 3 inches of 
additional oyster shell on top of that, and then put the spat-
on-shell on top of that area, the same type of thing that we 
are doing with the sanctuaries.
    The sanctuaries will have a density of about 2 million 
oysters per acre. The sanctuaries will have a much larger base 
to start with, to try to create a reef structure. The object of 
the managed harvestable reserves is such that we know they are 
eventually going to come in and take these animals--catch these 
animals for harvest. So, we don't spend as much money on the 
base of an operation in a managed reserve. However, the 
watermen have done something that is very, very unusual.
    In the last year, through Larry Simms' help and the 
Maryland Watermen's Association, they have agreed to close 
these areas for three to 5 years. They will be monitored for 
disease pressure and grow-out. They have also agreed not to 
take anything but a 4-inch or larger oyster off of these 
managed reserves. And this is a very important point to make. 
They are actually contributing largely to this tenfold increase 
we have all been talking about. These managed reserve areas 
will be the size of 5-to-100 acres, where sanctuaries, we are 
trying to create sanctuaries of a minimum of 1 acre to 5 acres. 
So, the managed reserves are actually a mini-closed sanctuary 
for a while.
    They have also agreed not to take all of the oysters off of 
these managed reserves, they are only going to take a 
percentage, in agreement with Maryland's Department of Natural 
Resources and the Partnership. So, these will be self-
sustaining harvestable areas--in essence, many reserves--also 
helping to propagate additional oysters in the water as a 
sanctuary does.
    This is a major change in philosophy for the watermen in 
the Maryland waters of the Chesapeake Bay. So, this oyster that 
Mark was talking about is an animal that we looked at and have 
been discussing for a couple of years. The Partnership would 
like to make it very clear we have not given up on our local 
oyster. We think that we can work around these disease 
pressures. We do believe that we can manage the harvest with 
the watermen. We do believe that we can site-select sanctuaries 
in areas where they will grow and create these reef structures 
that we need.
    The Partnership does something else. There are a lot of 
questions about is the public involved. Last year, we had over 
12,000 volunteer hours involved with our process, helping us. 
We work with all of the Foundations, like the Chesapeake Bay 
Foundation. I see my yellow light.
    One thing I would like you to know that we do do, we have 
logistically upgraded our entire program. We now have stainless 
steel containers, Mr. Chairman, I think you saw on Monday. We 
are able to put tens of millions of oysters into proper areas 
in the Chesapeake Bay to try to make a real difference out 
there. I will end my comments at that point. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Frentz follows:]

    Statement of Charles S. Frentz, Executive Director, Chesapeake 
    Appreciation, Inc. doing business as Oyster Recovery Partnership

Introduction
    Thank you, Mr. Chairman, and members of the Subcommittee for 
allowing me to present testimony at today's hearing. I am Charlie 
Frentz, Executive Director of the Oyster Recovery Partnership (the 
Partnership). It is my pleasure to be here today to discuss the work of 
the Partnership in restoring viable oyster populations to the 
Chesapeake Bay. I am aware of the testimony of several other presenters 
this morning, so to ensure brevity and a minimum of redundancy 
regarding the historical and scientific factors related to current 
oyster resources, I will direct my remarks specifically to the current 
impact of our efforts and the future goals of the organization.
The Oyster Recovery Partnership and its Mission
    The Partnership is a 501(c)(3) nonprofit organization formed in 
1994 by the Oyster Roundtable to oversee and manage oyster restoration 
projects in the Maryland waters of the Chesapeake Bay. The Oyster 
Roundtable represents a consensus of scientists, environmentalists, 
watermen, private industry, local and state government and the public. 
These prominent industry representatives identified the critical need 
to restore sustainable oyster populations in the Chesapeake Bay and 
mandated the Partnership to develop and implement restoration 
strategies.
The Partnership's Game Plan
    Over the last year, we have matured into an extremely professional 
organization with a no nonsense business approach to restoration. Last 
year, the Partnership planted a record 38 million disease free spat on 
shell (baby oysters averaging the size of a thumbnail) at four major 
sites in the Choptank River, Eastern Bay and Tangier Sound. Our 2000 
program exceeded the organization's previous six years of effort.
    This year, the Partnership planted over 55 million disease free 
oysters at sixteen major managed reserve and sanctuary sites throughout 
the Bay (see addendum). We also helped our partners move or plant an 
additional seven million oysters.
    Our game plan is simple, although the challenge is enormous. Create 
large, self sustaining sanctuaries and managed harvest areas on 
historic oyster producing sites that have the best chance to survive 
and propagate despite the extensive disease, harvest, environmental and 
demographic pressures affecting the ecology of the Bay.
Our Partners
    Our strength and success is derived from the tremendous expertise 
and support we garner from our many partners. The University of 
Maryland's Center for Environmental Science (CES) produces the millions 
of disease free oysters for our projects. Maryland's Department of 
Natural Resources has partnered with us on several plantings and 
provides public hearing, permitting and technical support at all 
levels. Watermen and industry business render field and logistical 
expertise. The environmental community, local associations and several 
scientific advisory committees provide technical support. Community 
associations are actively involved in our plantings and hundreds of 
volunteers work with our staff.
    The Partnership now has financial and management support from a 
wide range of interest groups spearheaded by dedicated Congressional 
funding managed by NOAA. Congressional funding and NOAA expertise has 
exponentially increased the Partnership's ability to upgrade spat on 
shell production in association with Maryland's CES. This high level of 
support has substantially upgraded the organization's ability to 
logistically handle multiple major planting operations. We can't 
emphasize enough the tremendous assets NOAA brings to oyster 
restoration through professional management and hands on field 
expertise.
    We also have direct funding and leveraged support from a wide range 
of supporters such as the Chesapeake Bay Trust, the National Fish and 
Wildlife Foundation, the Army Corps of Engineers, the Campbell 
Foundation for the Environment, the Chesapeake Bay Foundation, the 
Environmental Protection Agency, and over a dozen regional 
associations, commissions, community groups and corporations.
MPA's, Sanctuaries and Managed Harvest Reserves
    Our bottom line job is to develop, implement and manage oyster 
restoration projects that have the best chance of making a discernable 
impact on the Chesapeake Bay. The Partnership's program involves two 
distinct oyster restoration processes that address the ecological, 
economical and political interests of all our partners. These 
restoration projects have many similarities to the Marine Protected 
Areas being addressed at this hearing.
    Sanctuaries: The Partnership has targeted the development of oyster 
sanctuaries ranging in size from one acre to five acres to create an 
area able to provide self sustaining reef structures. These sites are 
chosen through a detailed process of public and private meetings 
identifying the best available sites. Criteria for site selection 
address a variety of factors including probability of creating a viable 
living reef structure, disease pressures, natural recruitment 
potential, sites in proximity to commercial and leased bars but 
buffered from harvest areas, and areas in closed parts of the Bay 
seeking oyster communities for their filter feeding and water clarity 
advantages.
    Tremendous effort is placed on areas with solid substrate. These 
areas are usually embellished with a three to six inch plus layer of 
cultch before planting disease free oysters at a density of 2 million 
oysters per acre. This level of effort has proven to be necessary for 
the development of a viable reef structure creating a diverse benthic 
community.
    Well-developed structures of this size in protected and buffered 
areas will have a much better chance of withstanding the impact of 
storms, environmental stresses and inadvertent harvest.
    Managed Harvest Reserves: The Partnership's mission to help bring 
back the health of the Chesapeake Bay also includes efforts to revive 
the commercial harvest of watermen that is so important to the economy, 
culture and history of Maryland.
    Restoration design for commercial harvest areas have evolved as 
temporary closed reserves for a period of three to five years, with 
subsequent closures required after partial harvest of the restored bar. 
Multiple managed areas are being developed with a minimum five to one 
hundred acres on historic oyster bars that have the best chance of 
withstanding current disease pressures. These areas also have the 
potential for natural recruitment.
    The watermen's experience and consent is a strong component of site 
selection, together with public hearings, Maryland DNR oversight and 
scientific and technical advise. Managed harvest bars are prepared 
through a combination of bar cleaning to recoup and place existing 
shell, barging in and laying additional shell bases of three inches for 
sites needing added bottom preparation and spat on shell plantings at 
densities of one million per acre.
    These bars will be monitored during closure periods for disease 
pressures and grow out. Commercial watermen have agreed to allow these 
animals to reach four inches before harvest. A predetermined percentage 
of harvested oysters will be allowed before each site is again closed.
    This technique has several distinct benefits in comparison to the 
current put and take commercial harvest practices in the Bay. Taking 
only four-inch oysters turns these structures into long-term self-
sustaining oyster bars performing the additional function as natural 
recruitment areas. Watermen also recognize the substantial increased 
market value of a four inch oyster compared to the legal industry 
standard three inch catch.
Bar Cleaning, Seed Bars and Alternative Core Materials
    To maximize the regions ability to recoup finite supplies of mined 
oyster shell, the Partnership has worked with NOAA to institute bar 
cleaning projects. This program involves the identification of 
outstanding areas for restoration that have large deposits of shell 
under layers of sentiment.
    These sites have been identified through a combination of new side 
scan sonar and bathymetry technologies developed and in use by NOAA 
with the support of Maryland's DNR at the Sarbanes Laboratory in 
Oxford, Maryland.
    Bar Cleaning: This Partnership initiative, supported by NOAA 
funding, is a cost effective management tool to prepare the widest 
range of viable historically productive oyster bars. This technique was 
used very successfully in year 2001 for managed harvest areas, 
potential seed bars and several sanctuaries.
    Regional watermen and their vessels have been subcontracted through 
management oversight by the Maryland Waterman's Association to use a 
variety of techniques and gear types to properly retrieve and place 
sediment covered shell. An added bonus of this program has been the 
retrieval of scattered mature oyster brood stock usually deeply 
imbedded in heavy sediment. These animals are then returned to their 
resident bar in densities the scientific community deems could have 
tremendous natural recruitment for the area.
    In addition, some of the mature oysters, between four and twelve 
inches, have been transferred to the CES hatchery as brood stock. Spat 
on shell from these animals will be placed back on their specific bar 
in hopes the progeny produced will be more tolerant to the local 
disease pressures.
    Seed Bars: NOAA support of the Partnership's seed bar restoration 
program has worked with watermen to identify and restore large 
potential bars for the natural recruitment and transfer of oyster seed 
at targeted areas of the Bay. Management around disease pressures and 
the new bar cleaning techniques are vital factors in determining the 
best possible sites.
    Alternative Core Materials: Concentrated efforts by the 
Partnership, Maryland's Department of Natural Resources and the 
Chesapeake Bay Foundation are currently experimenting and acquiring 
alternative core materials to complement our restorations programs to 
offset questionable future supplies of cultch needed to build up 
natural oyster bars and sanctuaries.
Conclusions and the Future
    The coordinated efforts by our many partners is beginning to the 
show promise of making a discernable difference in helping to bring 
back the health of the Chesapeake Bay through oyster restoration. Our 
new site identification, planting and bar cleaning techniques, 
acquisition and use of new technologies and the logistical upgrading of 
the Partnership's field operations are on the right track. The 
Partnership can make exponential increases in our program if we:
    <bullet> Continue to use the experience and counsel of our many 
partners and leverage their support of our efforts.
    <bullet> Continue to upgrade the logistical ability of the 
Partnership to produce and plant substantial increases in disease free 
spat on shell at viable restoration sites.
    <bullet> Acquire and use state-of-the-art scientific equipment and 
experienced techniques to promote cost effective program management.
    <bullet> Continuously promote improvement and alternative choices 
in acknowledgement of the evolving dynamics of the ecology of the Bay.
    Thank you, Mr. Chairman, for this opportunity to give an overview 
of the work and progress of the Oyster Recovery Partnership. I would be 
pleased to answer any questions from you or your subcommittee.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Frentz.
    Mr. Baynard.

 STATEMENT OF SHERMAN BAYNARD, PAST CHAIRMAN, MARYLAND COASTAL 
                    CONSERVATION ASSOCIATION

    Mr. Baynard. Good morning, Chairman Gilchrest and 
Congressman Underwood. My name is Sherman Baynard, and I am 
here today on behalf of the Coastal Conservation Association. 
Mr. Chairman, I would like to insert my full statement for the 
record, and make a couple of comments.
    CCA is a national organization with some 80,000 members on 
the Atlantic and Gulf Coasts who are concerned about the 
conservation of marine resources. Today I would like to address 
the costs and benefits of using Marine Protected Areas to help 
recover oysters in the Chesapeake Bay.
    Although fishermen have long supported use of time and area 
closures to protect fish spawning aggregations or juvenile fish 
populations, CCA's membership and most of the recreational 
sector are deeply troubled by the rhetoric being used by some 
organizations to promote Marine Protected Areas.
    The recreational fishing experience depends on two 
essential ingredients, access to places to fish and 
availability of fish at those places. For a number of years, 
the recreational sector has invested heavily in both 
ingredients. Recreational fishing taxes have contributed 
millions of dollars through the Wallop-Breaux program and much 
of this has been spent to improve angler access to places to 
fish.
    Additionally, recreational fishermen have led the fight to 
conserve America's marine fisheries. Striped bass, weakfish, 
redfish, and Atlantic shad are all recovering as a result of 
the efforts of recreational fishermen.
    We have worked alongside, and inside, the existing State 
and Federal fishery management systems using all of the 
traditional fishery management tools--size limits, creel 
limits, quotas, seasons and, where appropriate, area closures--
to recover our fishery resources from past periods of 
overexploitation.
    Before I get to the use of MPAs in the oyster program, let 
me provide you with some suggestions about how to establish 
some parameters for the use of MPAs.
    First and foremost, Congress needs to define the term. 
Everybody today has a different definition of an MPA. After we 
define the types of MPAs, we need to develop a specific process 
that must be used before one can be put into place in any 
marine environment.
    Let me suggest some parameters that ought to be discussed 
in defining the various types of MPAs. Terminology shouldn't be 
vague. Terms like ``marine parks'', ``marine sanctuaries'', or 
``marine reserves'' convey widely different messages to 
different audiences.
    Any MPA should specify up front the activities that will be 
allowed and those that will not. For our purposes, it should 
explain exactly what forms of fishing will be allowed and what 
forms will be prohibited.
    Any MPA should specify a purpose that can be supported 
scientifically. While closed areas may produce more fish at a 
given location, they may not allow more fish to be harvested 
from the same ecosystem.
    Any MPA should specify its duration--is a closed area to be 
temporary or permanent.
    The process ought to include scientifically valid 
biological objectives to be achieved through the use of MPA. A 
finding should be required that less draconian measures will 
not achieve the biological objectives. Lastly, there should be 
a Sunset provision to remove the restrictions when the 
biological objectives have been met.
    Now let me address the issue of MPAs in oyster restoration 
and management. Millions of dollars have been spent to restore 
oyster populations in the Chesapeake Bay without significant 
success. Much of the money has come from Federal and State 
taxpayers who support these programs for three reasons--oyster 
restoration provides for economic development of the industry, 
improved water quality in the Bay, and the natural inclination 
to return the Bay to its full abundance. We support all of 
these reasons for oyster restoration.
    The present problems with oysters in the Chesapeake Bay 
result from disease, water quality and over-harvesting. The 
most effective immediate action we could take to improve water 
quality would be to reduce the removal of menhaden within the 
Chesapeake Bay.
    Finally, the possibility of establishing closed areas to 
rebuild oyster populations should be examined. Temporary MPAs 
have proven successful in rebuilding scallop populations in New 
England, but those areas were closed only to bottom-trawling 
and dredging, while all other forms of fishing were allowed to 
continue.
    From what we have heard, however, the MPAs being discussed 
for the Chesapeake Bay do not follow the New England model. We 
are opposed to the use of MPAs to restore oysters if they would 
prohibit fishing that has no impact on the recovery of the 
oysters or the water quality of the Chesapeake Bay. We see no 
benefit to a marine wilderness in the Chesapeake Bay. Thank you 
for the opportunity to testify, and I will be happy to answer 
questions.
    [The prepared statement of Mr. Baynard follows:]

     Statement of Sherman Baynard, Coastal Conservation Association

    Good Morning, Chairman Gilchrest and members of the Subcommittee. 
My name is Sherman Baynard and I am here today on behalf of the Coastal 
Conservation Association (``CCA''). CCA is a national organization with 
some 80,000 members on the Atlantic and Gulf coasts who are concerned 
about the conservation of marine resources. Today I'd like to address 
the costs and benefits of using Marine Protected Areas (MPAs) to help 
recover oysters in the Chesapeake Bay. Frankly, we believe that many of 
the potential benefits of MPAs have been overblown and many of the 
negative consequences have been overlooked.
    Although fishermen have long supported use of time and area 
closures to protect fish spawning aggregations or juvenile fish 
populations, CCA's membership and most of the recreational sector are 
deeply troubled by the rhetoric being used by some organizations to 
promote Marine Protected Areas. Statements like 25% of the mid-Atlantic 
ought to be declared off-limits to fishing and 5% of the marine coastal 
waters ought to be set aside as ocean wilderness areas have rung the 
alarm bell in the recreational sector.
    The recreational fishing experience depends on two essential 
ingredients--access to places to fish and availability of fish at those 
places. For a number of years the recreational sector has invested 
heavily in both ingredients. Recreational fishing taxes have 
contributed millions of dollars through the Wallop-Breaux program and 
much of this has been spent to improve angler access to places to fish. 
Additionally, recreational fishermen have led the fight to conserve 
America's marine fisheries--striped bass, weakfish, redfish, and 
Atlantic shad are all recovering as a result of the efforts of 
recreational fishermen. We have worked alongside, and inside, the 
existing State and Federal fishery management systems using all of the 
traditional fishery management tools - size limits, creel limits, 
quotas, seasons, and, where appropriate, area closures--to recover our 
fishery resources from past periods of overexploitation.
    The explosion in recreational fishing for these species has more 
than proved the point that sound conservation coupled with improved 
opportunities to fish will benefit our coastal economy. To cite just 
one example, today there is more economic contribution to the Maryland 
economy from fishing for striped bass than ever before. Expanding 
angler access is something the recreational sector, local, state and 
federal officials have been trying to encourage for twenty years. MPAs 
are unpopular because anglers believe they will be used to restrict 
their access to the fishery resources and thus deny them the benefit of 
their Wallop-Breaux taxes and their conservation efforts. Before 1 get 
to the use of MPAs in the oyster program let me provide you with some 
suggestions about how to establish some parameters for the use of MPAs.
    First and foremost Congress needs to define the term. An MPA is 
defined in Executive Order 13158 to be ``any area of the marine 
environment that has been reserved by Federal, State, territorial, 
tribal, or local laws or regulations to provide lasting protection for 
part or all of the natural and cultural resources therein.'' Under this 
definition, MPAs will include areas where oil drilling is prohibited, 
areas where sewage outfalls are prohibited, areas where some fishing is 
prohibited, areas where all fishing is prohibited, and areas where skin 
diving is prohibited. In practice, however, it seems that the current 
effort to establish
    MPAs is focussed almost exclusively on fishing. Some groups have 
claimed that 20% of the fishable area in the US ought to be designated 
as a Marine Protected Area while others now argue for a 5% designation 
as ocean wildernesses.
    Let me suggest some parameters that ought to be discussed in 
defining the various types of MPAs
    1. LTerminology shouldn't be vague - terms like marine parks, 
marine sanctuaries, or marine reserves convey. widely different 
messages to different audiences.
    2. LAny MPA should specify up front the activities that will be 
allowed and those that will not - for our purposes, it should explain 
exactly what forms of fishing will be allowed and what forms will be 
prohibited.
    3. LAny MPA should specify a purpose that can be supported 
scientifically - while closed areas may produce more fish at a given 
location, they may not allow more fish to be harvested from the same 
ecosytem.
    4. LAny MPA should specify its duration - is a closed area to be 
temporary or permanent.
    If we. intend MPAs to be permanent wilderness areas, where no 
activity other than research can take place, then let's say so. If we 
intend MPAs to be nothing more than traditional time and area fishery 
closures, then let's say so. But, let's not continue to have this open 
ended discussion about something we have failed to define.
    After we define the types of MPAs, let's develop a specific process 
that must be used before one can be put into place in any marine 
environment. The process ought to include scientifically valid 
biological objectives to be achieved through the use of the MPA. A 
finding should be required that less draconian measures will not 
achieve the biological objectives. Lastly, there should be a sunset 
provision to remove the restrictions when the biological objectives 
have been met.
    Now let me address the issue of MPAs in oyster restoration and 
management.
    Millions of dollars has been spent to restore oyster populations in 
Chesapeake Bay without significant success. Much of the money has come 
from federal and state taxpayers who support these programs for three 
reasons. Oyster restoration provides for economic development of the 
industry, improved water quality in the Bay and the natural inclination 
to return the Bay to its full abundance. We support all of these 
reasons for oyster restoration.
    The present problems with oysters in Chesapeake Bay result from 
disease, poor water quality and over harvesting. There are a number of 
studies being done by the States of Maryland and Virginia on the 
disease issue. Work at VIMS developing new strains of disease resistant 
oysters looks promising but so much work in this area over the years 
has looked promising without producing any results that it is difficult 
to be optimistic.
    The issue of water quality is on the minds of anyone who lives in 
the Chesapeake Bay watershed. The pollutant inputs from urban areas and 
agriculture have been well documented, but much less is known of how 
the Bay responds to increased pollutant loads. There is no doubt that 
restoring oyster populations would help restore the Bay's water 
quality, but an even faster way to improve water quality would be to 
stop harvesting menhaden on an industrial scale. A five-year moratorium 
on the harvest of menhaden for fish meal and oil would have an 
immediate and quantifiable impact on water quality.
    There is also the issue of over-harvesting. The States of Maryland 
and Virginia could easily limit the harvest of oysters and Congress 
could provide relief funds to the industry to sustain them while the 
oysters recovered. The key is funding assistance to the industry while 
the stocks are allowed to recover.
    Finally, the possibility of establishing closed areas to rebuild 
oyster populations should be examined. Temporary MPAs have proven 
successful in rebuilding scallop populations in New England, but those 
areas were closed only to bottom trawling and dredging, while all other 
forms of fishing were allowed to continue.
    From what we have heard, however, the MPAs being discussed for 
Chesapeake Bay do not follow the New England model. We are opposed to 
the use of MPAs to restore oysters if they would prohibit fishing that 
has no impact on the recovery of the oysters or the water quality of 
the Chesapeake Bay.
    Recreational fishermen are ready to conserve and are doing so 
everyday. This is a community that supports size limits and seasons to 
protect spawning fish; bag limits to reduce over-harvest and even 
limited closed areas when fishing effort needs to be reduced. We have 
endorsed measures like barbless hooks and complete catch-and-release 
when they are necessary to rebuild a stock. But, it is simply 
unacceptable to exclude recreational fishermen from an area without 
demonstration that recreational activity is having a negative effect on 
the resource.
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Baynard.
    Mr. Hirshfield.

   STATEMENT OF DR. MICHAEL F. HIRSHFIELD, VICE PRESIDENT OF 
         RESOURCE PROTECTION, CHESAPEAKE BAY FOUNDATION

    Mr. Hirshfield. Thank you, Mr. Chairman and Congressman 
Underwood. Again, as someone coming late in the panel, I think 
I will depart not just from my written remarks, but also from 
my written prepared oral remarks, and just comment on a few of 
the things that I have heard today, and the very few things 
that haven't already been said.
    I am Mike Hirshfield. I am Vice President for Resource 
Protection at the Chesapeake Bay Foundation. We are a region-
wide, non-profit environmental education and advocacy 
organization, partnering with just about everybody that has 
already been up here, and those that are here now, in restoring 
the Chesapeake and restoring oysters to the Chesapeake.
    I was struck by Congressman Underwood's comments about 
Pocohontas. We have a tendency to date the understanding of the 
Chesapeake Bay with the arrival of Captain John Smith and the 
European colonists. In fact, what we know is that the Native 
Americans who lived here at that time were living off the 
interest of that endowment of the American oysters. They were 
living quite well. If you go to any of the oyster shells, you 
can see the size of the oysters that were consumed at an 
average Indian village, and they are quite large. They would 
definitely be two- or three-bite oysters.
    It was the arrival of the European settlers that, in fact, 
started the consumption of that endowment, eating into the 
principal and, in fact, it could be argued that the first real 
invasive species that hit the Chesapeake Bay was the arrival of 
the New England fishing fleet that had pretty much wiped out 
their oyster beds and proceeded to show up in the Chesapeake 
Bay in the latter part of the 19th Century. That is what began 
the whole-scale mining of the Chesapeake Bay oyster reefs, and 
it really is a mining analogy that you have to think of when 
you think of what happened to the oyster reefs of the 
Chesapeake in the 19th Century. We removed all of that shell, 
all of that habitat, and we are suffering the lack of it even 
today.
    It is also important to take a little bit of time for 
perspective on oyster restoration. I, like many of my 
colleagues here in the room, have been engaged in Chesapeake 
Bay restoration activities for quite some time, and I can tell 
you that only 10 years ago there were very serious 
conversations all around the region about the concept of a 
restored Chesapeake Bay without oysters. Could we have, could 
we talk about, could we talk about a saved Bay without oysters, 
because the future was seen to be that bleak.
    I am just delighted that the experiments of the 1990's that 
started looking at rebuilding oyster reefs, setting aside 
sanctuaries, got us out of what had been a fairly sterile 
series of debates about what to do about the oysters. The 
management tools that people were talking about were the 
traditional ones. Think about everything you can do to restrict 
effort and, when all else fails, goes to a moratorium.
    When the community realized that that would not work and 
started playing around with actually rebuilding reefs, that was 
the breakthrough. And Dr. Luckenbach did not take very much 
personal credit for his effort, and Ken Painter and Rich 
Tachas, who are also here, were part of that group of ten 
scientists who--it was a consensus of scientists, but if you 
have ever seen ten scientists in a room, getting that is a 
pretty amazing thing. This document that they produced in 1999 
did aim not just the scientific community, but the management 
community all in the same direction for restoring oysters to 
the Chesapeake. It is at the core of the WRDA--it is at the 
core of the Corps' authorization. It is referenced in the WRDA 
authorization. This is the blueprint that Chesapeake Bay oyster 
restoration is following.
    I also put out--I am not going to go into our picture of 
what it is going to take, but I put out a bunch of these 
``Restoring Chesapeake Gold'' brochures that we put together on 
behalf of the community. I hope a few of them made it up to you 
guys.
    A couple of other things. The public is really enthusiastic 
about oyster restoration. A couple of examples. The Hampton 
Roads Rotary Club folks have raised over $100,000 of private 
money to put toward oyster restoration in the Hampton Roads 
area and, as a result of that, four new sanctuary reefs have 
been established.
    Similarly, there are hundreds of families and thousands of 
school children all over the Chesapeake Bay, who are growing 
oysters off of their docks, not eating them--which is pretty 
remarkable--and taking them out and putting them out onto those 
sanctuary reefs to help jump-start the reproduction that we are 
looking for. This is a way that people on the land are 
connecting themselves to the water, and we are seeing a lot of 
additional enthusiasm about what is it going to take to keep 
that water quality healthy, a question you were asking earlier.
    I really would like to thank this committee for holding 
this hearing. In my mind, Marine Protected Areas with careful 
definition, careful thought about their goals that they are 
being established for are an extremely valuable tool. I haven't 
actually heard about proposals to close Chesapeake Bay area 
oyster reefs to fishing, although I have to say I identify a 
little bit with a couple of the scientists who said maybe one 
that was set aside so that we could see what a truly intact, 
pristine system would look like might be worth talking about.
    It is an experiment. It is a great experiment that we are 
heading for, with a lot of enthusiasm, a lot of scientific 
backing, but if we knew all the answers it wouldn't be an 
experiment, and the challenge that we have got--imagine if 
those coral reefs that we are so proud of in the South Pacific 
had all been knocked down 100 years ago before there really was 
a mature science of oceanography, what we would be trying to 
guess we would do to put them back together to restore them. I 
am very, very confident that when we are successful in 
restoring oysters to the Chesapeake through this nicely, 
brilliantly simple scheme of small area for sanctuaries, large 
area for managed harvest reserves around them, that we are 
going to see good things happen to the Bay that we haven't even 
guessed yet. Thank you very much.
    [The prepared statement of Mr. Hirshfield follows:]

 Statement of Michael F. Hirshfield, Ph.D., Vice President of Resource 
                 Protection, Chesapeake Bay Foundation

    Good morning. On behalf of the Chesapeake Bay Foundation (CBF), I 
would like to thank Subcommittee Chairman Wayne T. Gilchrest and the 
other members of the Subcommittee for this opportunity to present 
testimony on the use of Marine Protected Areas as a management tool in 
oyster restoration.
    Before I speak about this important subject, let me introduce 
myself. My name is Michael Hirshfield. I am the Vice President of 
Resource Protection at CBF, which has its headquarters here in 
Annapolis, Maryland and offices in Virginia and Pennsylvania. CBF is a 
member-supported, non-profit environmental education and advocacy 
organization with over 90,000 members throughout the Bay watershed and 
nationwide. Our mission is to Save the Bay-to restore and protect the 
Chesapeake Bay and its watershed.
    Marine protected areas have emerged as powerful tools for fisheries 
managers to restore not only the health of our natural resources but 
also the strength of the fishing industry.
    On the Chesapeake Bay, Marine Protected Areas are essential tools 
in our effort to restore a keystone species and what was once our most 
valuable commercial fishery: oysters.
    In the 17th Century, when Europeans first entered the tidewaters of 
what would become Virginia, they found a Bay teaming with so many 
oysters that the Native Americans had named it ``Tschiswapeki'' meaning 
Great Shellfish Bay. By the 19th Century, oysters were such a valuable 
fishery that watermen dubbed them ``Chesapeake Gold.'' At the end of 
the 20th Century, overharvesting, disease and pollution had nearly 
eradicated the oyster, reducing their population by more than 99 
percent.
    The loss of oysters has hurt both the ecology and economy of the 
Bay. Oysters are essential to the bay as water filters, and were once 
capable of straining tremendous quantities of algae and sediment from 
the water every day. Their reefs once served as habitat for multitudes 
of other organisms, from shrimp and crabs to striped bass and other 
commercially and recreationally important species of fish. Watermen 
lost their most valuable fishery and have been forced to shift their 
fishing effort to blue crabs, jeopardizing the Bay's other top fishery 
in the process.
    The Chesapeake Bay Foundation, the largest non-profit conservation 
organization dedicated to Saving the Bay, has set a goal of increasing 
the Bay's oyster population tenfold. Achieving that goal by 2010 is now 
the Baywide standard, agreed to by the governors of Virginia, Maryland, 
and Pennsylvania and the mayor of Washington D.C.
    In 1999, the Bay's scientific community reached consensus on the 
best way to achieve that goal, drafting a strategy to jump-start the 
natural machinery that sustained the Bay's oysters for thousands of 
years. Their strategy was brilliant in its simplicity: Rebuild oyster 
reefs, stock the reefs with healthy oysters, and set aside the restored 
reefs and small portions of adjacent oyster grounds as protected areas. 
These areas then provide a continuous, long-term supply of healthy 
oysters to other oyster grounds managed for the benefit of the fishing 
industry throughout the Bay. Additionally, this jump-starting of 
oysters will allow the Bay's other natural components, such as 
underwater grasses that depend on clearer water for their survival, to 
take over and sustain themselves.
    These oyster sanctuaries accomplish four key tasks:
    First, they create an enduring source of young, genetically strong 
oysters for years to come. When first spawned, juvenile oysters are 
free-swimming and can be carried from their home reefs by tides and 
currents to nearby reefs where they settle and grow. Hence, 
strategically locating sanctuaries in areas surrounded by harvest areas 
creates a net increase in the number of oysters available for harvest. 
The strategy calls for setting approximately 10 percent of the Bay's 
traditional oyster grounds as sanctuaries.
    Second, sanctuaries allow oysters to grow large and old enough to 
maximize their reproductive capacity. In oyster reproduction, size 
matters. Large oysters produce exponentially more eggs than small 
oysters. Thus, even small areas with large mature oysters can produce a 
sufficient supply of offspring to supply a large area used by the 
fishing industry.
    Third, sanctuaries are essential to the battle against disease. 
Large oysters in disease-endemic areas have a demonstrated ability to 
survive diseases, a characteristic that may be inherited by offspring. 
We currently remove too many large, potentially disease-resistant 
oysters from the population, and lose some of the oysters' natural 
resistance to diseases in the process. Programs to collect large 
oysters and concentrate them on high=quality habitat in sanctuaries are 
an important part of the restoration strategy.
    Fourth, sanctuaries create habitat for a wide range of organisms 
including the Bay's most commercially and recreationally valuable fish. 
In 1998, more than 60 percent of the Bay's commercial catch was in 
species that rely, at least in part, on oyster reefs for habitat. That 
translated to $37 million worth of total dockside value in Maryland and 
$20 million in Virginia. Oyster bars are great fishing spots and a key 
target for the nearly 5 million recreational fishing trips on the 
Chesapeake Bay each year.
    This sanctuary approach is already showing success on the 
Chesapeake Bay. On the oyster grounds of Virginia's Great Wicomico 
River, for example, oyster restoration pioneer Dr. James Wesson of the 
Virginia Marine Resources Comm ission (VMRC) built a three-dimensional 
sanctuary reef in 1996.
    Before building the reef, spat settlement (the number of juvenile 
oysters that settle on a square meter of each oyster reef) on nearby 
natural oyster grounds was well below 200 juveniles per square meter, 
indicating little likelihood that oyster populations would rebound 
naturally.
    Working with the Chesapeake Bay Foundation and others, Dr. Wesson 
stocked the reef with hearty oysters bought from watermen. One year 
later spat settlement leapt to nearly 1,200 spat per square meter-a 
600-percent increase. More importantly, spat sets on all nearby bars 
(up to 6 miles away) increased by as much as 400 percent - many of 
these areas were used as ``seed beds'' by the oyster industry that 
following year.
    Another example, and one that demonstrates the public's support for 
Marine Protected Areas, is found in the heart of Hampton Roads Harbor, 
in Virginia. Since 1998, the Rotary Clubs of Norfolk and Portsmouth, VA 
have sponsored an annual fundraiser to raise money for oyster sanctuary 
reefs in the Elizabeth River. In the past four years, the Rotarians 
have helped to raise more than $100,000 in private matching funds used, 
resulting in the construction of four new sanctuary reefs in the 
Elizabeth and Lafayette Rivers. The reefs are now being restored by 
students and volunteers and managed by the VMRC. The reefs have 
dramatically increased the number of oysters in these two urban rivers 
and are becoming popular fishing places for the ' recreational anglers 
and commercial crabbers.
    While we can't expect success rates like this all the time in all 
parts of the Bay, we can expect that sanctuaries will ultimately 
benefit not only the Chesapeake's ecology, but also the economy for 
those who depend on a restored oyster population.
    Thank you again for this opportunity to showcase oyster sanctuary 
reefs as an example of Marine Protected Areas in the Chesapeake Bay.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Hirshfield.
    Ms. Oertel.

    STATEMENT OF KAREN OERTEL, PRESIDENT, HARRIS CRAB HOUSE

    Ms. Oertel. Thank you, Mr. Chairman, for asking me. I do 
want to say that Congressman Gilchrest had asked if I would 
address the Oyster Recovery Partnership, and I had asked you to 
allow Charlie to do it because he is the most knowledgeable. We 
hired Charlie about 2 years ago as the Director, and he has 
made a phenomenal difference with what we have been doing, very 
knowledgeable about what we have been doing and have 
coordinated a lot of efforts. So, thank you for allowing him to 
do that.
    I asked you to allow me to address the processing industry 
side, which is what I am part of. So, as it has Harris Crab 
House here, it probably should say W.H. Harris Seafood. Harris 
Crab House is my other business that we started in an effort 20 
years ago to stabilize our situation.
    I am a member of the processing industry and, with that, we 
process oysters. We buy directly from the watermen and are 
connected with them. We have been in the industry since 1947, 
which means in December we will be entering our 55th year in 
this industry. We are a family-owned industry. We process the 
oysters, we handle crabs. We buy directly from the local 
watermen, and I am going to put a whole new twist on what you 
have just heard. I think you are going to hear some things that 
you have not heard today, although I certainly agree with a 
lot, and almost entirely with what you have heard today.
    We not only buy oyster product from people within--our 
oystermen within our own States, but we buy from ten additional 
States in an effort to supply the products that are used by our 
customer base that we have that is on a national level.
    Yes, we are earning a living, but while we are doing that 
we are providing approximately 60 jobs within our plant, and we 
are also purchasing from watermen that affects about 300 
watermen in the Chesapeake Bay region.
    W.H. Harris Seafood has played an important role, an 
intricate part in stabilizing this industry in Maryland and its 
economy. We have always worked within the State in its quest to 
understand the problems of this industry, and have tried to 
help solve them.
    We are one of the few that actually still are involved in a 
private oyster agricultural project in the Chesapeake Bay. 
Currently, I serve on the Oyster Roundtable, and I am serving 
on the Steering Committee of this group which guides some of 
the things that we are doing there, and I also serve with the 
Oyster Recovery Partnership and I am on the Executive Board of 
that, guiding the directions of many of the things that we do 
there.
    Other owners of this firm serve on crab committees. We 
serve on the SAB committees. We are out in the State in every 
direction that we can with our concerns over the environmental 
issues and the economic issues of the oyster industry in the 
Bay.
    We fully understand that each group that is testifying here 
today has important issues, and I am just going to make an 
attempt to give you a few from the processing industry.
    Disease is one of the most important issues that we deal 
with. MSX and Dermo have succeeded in devastating most of the 
native oysters in the Chesapeake Bay. Oysters are living only 
in the upper part of the Bay regions in numbers. This is where 
we see most of the oystermen actually harvesting over the last 
few years.
    Areas where watermen are currently able to work and find 
live product are primarily above the Chesapeake Bay on the 
northern side, in waters of lower salinity. Seed grounds are 
primarily found in the lower part of the Bay, south of the Bay, 
although some are found north of the Bay, very small areas 
around Parsons Island and a couple of others.
    Of these areas, the Eastern Bay is widely affected by 
disease and has oysters that are stressed for the most part. If 
shucked for market, the yield per pint has been averaging only 
about 4 pints a bushel, which means that we can't make a profit 
on that oyster, we actually lose.
    The Chesapeake River oyster which is currently being 
harvested by watermen, that is in the northern part, is 
producing a little better than 5 pints per bushel, allowing for 
a margin of profit in the marketplace. This is important for 
you to know as it sets the stage for our industry and its 
ability for the processors to make a profit and remain in this 
industry.
    We use oysters from other States which we process that 
allows for a better yield per bushel, as much as 6 pints, 
allowing for a better profit. The Chesapeake Bay oyster that is 
purchased from local watermen is used primarily for rawbar 
shell oysters which allows us to have a market for the local 
watermen product and a reasonable profit.
    What this means is that the watermen must sell us an oyster 
that is for rawbar market. It has to have a nice cup shell, it 
has to be clean of muscles, and there has to be a full measure 
in the container at our dock.
    The problems that we see in the Chesapeake Bay that affect 
this industry, we must find a way to control and manage 
disease, that has been said. We must look at and explore new 
innovative ways to reach our goals in the Chesapeake Bay. 
Maryland laws and regulations do not allow for Maryland to be 
competitive in the market because we are not allowed to have 
private aquaculture, which adds additional stress to the 
processors in Maryland. We have only a 6-month industry in 
Maryland, while other States are able to meet the market 
demands year-round because of the private industry that they 
encourage.
    The old wive's tale of eating an oyster in months of R, 
that are in the months with an R in it, has long since gone. 
Refrigeration put an R in every month, and allowing oysters to 
be consumed year round, and the public demands this of us.
    Public versus private aquaculture of oysters--because 
Maryland does not encourage private aquaculture, it puts 
Maryland at a disadvantage to compete and to hold a place in 
the market. This does not allow for Maryland to meet U.S. 
demands for product in the worldwide market which we don't even 
address.
    One hundred fifty years of regulations and laws that does 
not encourage an active private aquaculture of oysters in the 
Bay in the Maryland waters has failed to provide both 
economically and environmentally for the future of the Bay.
    Issues that we have is lack of lease grounds. Good quality 
lease grounds. Larry Simms and I are currently working, 
talking, discussing a project that could allow watermen to be 
involved in this, creating a situation where we could have a 
co-op, allow for oysters to be taken off some private grounds, 
watermen growing it. That has not worked out yet, but we are 
starting to work on those ideas.
    Lack of good seed to the private oyster grower. We can 
receive naturally-grown seed only after the public industry has 
obtained all that they need. Regulations set the bar too high 
to allow a good count of seed to be purchased by the private 
oyster industry.
    Lack of hatchery seed that is produced. These are not 
available, period, to the private industry. Even if some of the 
seed was made available for private bottom or water column 
aquaculture, it will be difficult to encourage anyone to be 
brave enough to invest the capital with the threat of the 
diseases and its devastating effects on our oyster. We do grow 
oysters in the Magothy on private lease grounds, but they are 
in the best of what is available on hard grounds, and they 
allow for a reasonable survival rate. We put as much as $50,000 
at times on those grounds.
    Regulations. Can I have another few moments, there are a 
couple of things you have got to hear.
    Mr. Gilchrest. Okay.
    Ms. Oertel. Thank you. Regulations on a national level from 
FDA that will require additional investment in the processing 
industry to meet their demands for a better, safer product for 
the consumer are at our doorstep.
    I have an insert that will be in my packet that you will be 
picking up that is listed No. 1, and it will prove what is 
getting ready to happen to us.
    How does this affect the Maryland processor? We currently 
depend on oysters from other States to survive and stay in 
business. Even if Maryland is not under that 60 percent goal 
that FDA is going to be looking at, guys, we purchase oysters 
from other States and actually process them.
    Let me tell you what is going to--we will not be making--we 
are looking at about a $3 million investment in our industry in 
order to put the machinery in that will process the oyster 
under FDA regulations, that will allow us to compete in this 
country. We are not going to be making that investment because 
we have to depend on other States, we can't depend on Maryland.
    We need to depend on Maryland to encourage this investment. 
We see oyster leases--and there is a fact sheet that you are 
going to have that will give you some facts that have come from 
the fisheries with DNR, on harvesting that has been going on 
since about 1975 to date, so you can see some numbers there. I 
would ask you to look at those.
    There are restraints that we need. These are restraints 
that--well, I have lost my thought there. But, anyhow, the 
bottom line in this is that it is too much money for us to look 
at putting into an industry that has severe problems here in 
Maryland.
    Facts about processors remain in Maryland. Information from 
interstate shellfish certified shippers lists. There are only 
about 30 of us currently listed as SP, shellfish processors, 
that are in Maryland. You could be a major processor with a 
building, a corporation like I have, or you can have a little 
truck that is on the road and be shucking them somewhere. We 
are one of the large processors. There are currently about 
seven of our size that are left in the State of Maryland. One 
of them is owned by a lady that is 80 years old, or more. There 
is no one in her family involved in that business. And when she 
becomes unable to run that business, it will cease to exist. 
Queen Anne County is already looking at purchasing that 
property as a museum for the water industry.
    We also have another processor that will be going out of 
business December 31, 2001, unless something happens that 
miraculously will change his situation. Actually, I put $50,000 
in his business last year to operate for the 2000-2001 season, 
or he wouldn't have opened his doors. He had exhausted all of 
his financial possibilities to even stay in business, and he is 
currently looking at what he will be doing January 1st, other 
than the seafood processing industry.
    There is another one that we have been dealing with since 
my father's time. This is a family industry. We have been in it 
a long time. He is in such a financial crisis that he will be 
short-lived in this industry unless something turns around for 
him.
    My receivables run in the neighborhood of $800,000. I have 
got news for you. They have eaten my oyster. I have nothing to 
get back. I could have one individual that would go up on our 
industry and not pay me, and I have worked an entire year or 
have created a situation that seriously jeopardizes my 
industry.
    We are stressed to our limits right now. The effect on the 
watermen, the jobs and the economy that is produced by this 
industry is in serious trouble, but why do we stay? We care. We 
have a commitment to the watermen, to this industry, to the 
economy, and to the environment, but we are good business 
people and make no mistakes about this, we will not remain if 
we cannot continue a reasonable profit.
    This is the first time I have ever made this statement 
publicly about my industry. We will not see our business forced 
into bankruptcy. We will be reorganizing into a more viable 
business, or sell the waterfront property that we currently 
own. These options would be of serious consequence to the 
watermen depending on a processor in our area. Selling it as a 
processing business with the problems we face doesn't seem to 
be an option. Who would want to buy it? Who would really want 
to take on the problems that we are currently dealing with 
here?
    Losing the processing industry in Maryland has other 
consequences. The loss of the shell that is used in the 
processing industry for growing both seed and establishing 
these habitat areas and these sanctuaries that you are talking 
about is imperative to this industry, and that shell comes from 
the processing industry.
    We just returned from Ireland, and one of the things that I 
brought back from the oyster industry--that is what we did. One 
of the things that I brought back from there was their lack of 
conch, their lack of oystershell. They have to use substrate of 
all different kinds. They use muscles. That is what they are 
growing their oyster with. It is known that an oyster is one of 
the best things--shell is one of the best things we can put in 
there.
    A conclusion? It is with great regret that someday this 
family will be forced to leave this industry, but if we do not 
aggressively consider change in how we think and act in this 
industry, we will see our future--this will be what happens in 
our future. Things that we can do. All groups continue to work 
together, and we are doing that to provide for the 
opportunities that remain economically sound in this industry, 
while providing for the environment.
    Address the change in the regulations and policies that 
limit our ability to compete nationwide in this industry. And 
there is Attachment 3 that you are going to see, look at it. 
These are issues presented by the DNR in conversations with 
legislators and industry. We have actually tried to come up 
with a couple of regulations last year, regulation changes that 
would allow for seed product to go out to agriculturists, 
private aquaculture. We were unsuccessful entirely on one. It 
was pulled out of committee. It would have been the best. But 
the second part of it was that we did get one bill through to 
grow some seed in some containers for private aquaculture use, 
if you wanted to grow it but, unfortunately, they set us off of 
the areas where seed actually grows. So, there is concern if 
you went to put a container in to try to grow seed oysters, you 
are not in the best areas to do it, and certainly would not 
have a good return on your time.
    You need to provide and encourage oyster aquaculture and 
farming in the Bay, both on a private and a public level. 
Increase your hatcheries' ability to provide seed oysters in a 
farming pursuit. Horn Point, increase production. Piney Point, 
upgrade the facility allowing for higher production, and 
private hatcheries, encourage them in the State and in 
Virginia. Use and increase the sanctuary and the recovery area 
plantings of oysters in the Bay currently being organized by 
the Oyster Recovery Partnership. Embrace the importance of the 
shell conch that is used in production of oysters, and enhance 
the ability to be able to supply the shell for this purpose.
    Maintain and improve the fossil shell operation, its 
dredging operation. It is very important to what we are doing 
in Virginia and Maryland. Use an alternative substrate, and 
wouldn't it have been interesting, out of something so horrible 
which happened at the Pentagon, that that substrate could be 
used for something so good in the Chesapeake Bay.
    Continue to use scientists to find an oyster that will have 
disease resistance in a natural product, and use all methods 
available to put it in the water. Consider the approach of VIMS 
with the non-native oyster that we are currently studying. 
Encourage Maryland to do some of the studies under the VIMS 
regulations that are currently there. Maryland is not doing it. 
Maryland needs to be actively involved in this.
    Provide funding to recreate habitat areas and oyster reefs, 
and put grasses back in the Bay and protect these. Know the 
history of this Bay. There is a good book to read. It was put 
out by John Brooks. It is called The Oyster. You want to know 
what happened. Read it. The writing was on the wall in the late 
1800's. The prediction was made what was going to happen to the 
Chesapeake Bay. It is there.
    Those knowledgeable of the situation in the Bay both 
environmentally and economically acknowledge that the oyster 
restoration must be undertaken on a large scale if we are to 
expect to restore the habitat areas, improve the quality of 
waters in the Bay, and provide for the economics which are so 
important to this region.
    We have already succeeded in producing results in these 
efforts, but we must undertake this on a larger scale. I thank 
you for your time, and I am sorry I went over.
    [The prepared statement of Ms. Oertel follows:]

  Statement of Karen Oertel, Owner/Partner, W. H. Harris Seafood Inc.

    Our family has owned and operated W. H. Harris Seafood Inc. for 54 
years. We process Oysters, handle Crabs, buying from local watermen and 
purchasing product both oysters and crabs from 10 other states in the 
effort to supply these products to our customer base. Yes earning a 
living while providing 60 jobs yearly within the plant, while 
purchasing waterman's product which can affect as many 300 watermen in 
the Chesapeake Bay region. W. H. Harris Seafood has played an important 
role, an intricate part in stabilizing this industry in Maryland and 
it's economy.
    We have always worked within this state in it's quest to understand 
the problems of this industry and have tried to help solve them. We are 
one of a few that actually is still involved in private oyster 
aquaculture in the Chesapeake Bay. Currently I serve on the Oyster 
Round Table, serving on the Steering Committee of this group. You 
should here from someone today, which explains what we do. I also serve 
on the Oyster Recovery Partnership Board and I am on the Executive 
Committee of this group. Again you should hear testimony from someone 
here today. Other, owners of our firm serve on various other committees 
within the state to assist in solving the issues of this industry in 
the Chesapeake Bay. Crab Committees SAV (grasses), etc. We work with 
groups nationally that are involved with other issues that affect this 
industry on a national level as well.
    We fully understand that each group that is testifying here today 
has important issues. I will make an attempt in the time allowed to 
present the issues of the processing industry. Past, Present and it's 
Future as we see it.
    Disease is the most serious issue, MXS and Dermo have succeeded in 
devastating most of the native oysters in the Chesapeake Bay. Oysters 
are living only in the upper bay regions. Areas where waterman are 
currently able to work and find live product are north of the 
Chesapeake Bay Bridge in waters of lower salinity. Seed--grounds. are 
primarily found in the lower Bay south of the bridge although some are 
found north of bridge also. Of these areas Eastern Bay is widely 
affected by disease and has a oyster that is stressed for most part. If 
shucked for market the yield per pint has been averaging only 4 pints 
per bushel which means in the market place we can not make a profit on 
this oyster. The Chester River oysters and other bar at this northern 
level are producing a little better that 5 pints per bushel. Allowing 
for a marginal profit in the market place. This is important for you to 
know, as it sets the stage for our industry and it's ability for 
processors to make a profit and remain in this industry. We use oysters 
from other states which we process that allows for a better yield per 
bushel, as must as 6 pints per bushel, allowing for a better profit. 
The Chesapeake Bay oyster that we purchase from local watermen are used 
primarily for Raw Bar Shell Oysters which allows us to have a market 
for the local watermen product and a reasonable profit. What this means 
to the waterman is that this shell product must be an oyster that is 
acceptable for the Raw Bar market. The product must be a cup shell, 
clean of mussels and a full measure must be presented at the dock when 
we are buying from them.
PROBLEMS WE SEE IN THE CHESAPEAKE BAY THAT AFFECT THIS INDUSTRY
    1. LWe must find a way to control or manage disease in the 
Chesapeake Bay if we want to retain the economics of this industry. All 
of this is while establishing habitat areas that provide for the Bay 
environmentally.
    2. LWe must look at and explore new innovative ways to reach our 
goals in the Chesapeake Bay.
    3. LMaryland Laws and Regulations do not allow for Maryland to be 
competitive in the market place. This adds additional stress on the 
processors in Maryland.
    a. LWe have only a 6 month industry in Maryland while other states 
are able to meet market demands year round. They encourage a private 
growing industry which allows for a year round supply. The old wives 
tail of eating an oyster in months with an R is it is long since gone. 
Refrigeration put an R in every month allowing oysters to be consumed 
year round.
    b. LPublic vs Private Aquaculture of oysters. Because Maryland does 
not encourage the private aquaculture it puts Maryland at a 
disadvantage to compete and hold a place in the market. This allowing 
for Maryland to meet US demands for the product and to market into the 
world wide market which we do not do now. 150 years of regulations and 
laws that does not encourage an active private aquaculture of oysters 
in the Bay has failed to provide both economically and environmentally 
for the future of the bay.

Issues:

    1. LLack of leased grounds.
    2. LGood quality leased grounds
    3. LLack of good seed to the private oyster grower. We can receive 
naturally grow seed only after the public industry has obtained all 
they need. Regulations set the bar to high to allow a good count of 
seed to be purchased by the private industry.
    4. LLack of hatchery produced seed. These are not available to the 
private industry. Even if some of this seed was made available today 
for private bottom or water column aquaculture it will be difficult to 
encourage anyone to be brave enough to invest capital in it with the 
threat of disease and it's devastating affects on the oyster. We do 
grow oysters in the Magothy on private leased grounds but they are in 
the best water available on some hard bottom grounds where the oysters 
has a reasonable survival rate. We have seen them grow to harvest able 
size and harvested in the out of season times to meet market demands. 
We have also lost product from industrial spills, disease and poaching. 
Currently we have approximately a fifty thousand dollar investment on 
these grounds. They can be alive and thriving this week and gone the 
next.
    5. LRegulations on a national level form FDA that will require 
additional investment in the
    processing industry to meet their demands for a better safer 
product for the consumer. See 1 attached insert. How does this affect 
Maryland Processors? We currently depend on oysters from other states 
in order to survive and stay in business. Even if Maryland is not under 
the 60% goal of FDA we shuck other states oysters and will be required 
to make approximately a three million dollar investment for machinery 
to do the post harvest treatment. We will not be making this investment 
depending on other states. We need to depend on Maryland to encourage 
this investment. See oyster lease facts 2. These are our restraints 
that need to be recognized. This list was developed by the Department 
of Natural Resources.
FACTS ABOUT PROCESSORS REMAINING IN MARYLAND
Information from Interstate Certified Shellfish Shippers List October 
1, 2001
    There are currently 30 licenses in Maryland that allow for 
shellfish processing in Maryland. This can be a major processor like us 
a person or firm that has a truck and processes on a minimal or 
extremely limited bases. Of the 30 current license holders there are 
only 7 large processors. We are one of them. Of the 7 remaining 1 is 
owned by an individual that is well in her 80's. No other family member 
is involved. When she becomes physically unable to continue to operate 
this business will cease to operate. Queen Annes County is already 
considering buying this operation for a museum.. Another processor that 
is located on the lower western shore has had financial difficulties 
for several years and will be remaining in the processing industry only 
thru Dec. 31, 2001. He remained in operation in the 2001 season because 
we loaned him $50,000 to open the 2000-2001 season. This because we 
recognize the importance to the waterman in that area and he had 
exhausted all other financial alternatives. The third processor located 
on the lower eastern shore has serious financial difficulties and is 
also in serious trouble. This leaves 4 processors remaining. This 
industry is stressed to it's limits. The affect on the waterman, jobs 
and the economy that is produced by this industry is in serious 
trouble. Why do we stay? Caring, comment to something we believe in the 
economy and the environment But we are good business people and make no 
mistake, we will not remain if we cannot continue to maintain a 
reasonable profit. We will not see our business forced into bankruptcy. 
We will reorganize into a more viable business or sell the waterfront 
property we currently own. These options would be of serious 
consequences to the watermen depending on a processor in this area. 
Selling it as a processing business with the problems we face is not an 
option. Who would want to take on the problems we currently face.
    Losing the processing industry in Maryland has other consequences. 
The loss of the shell that is used in the process of growing seed both 
on the bottom and in the in our hatcheries will have grave results in 
our ability to produce a seed oyster. The shell is a intricate part of 
revitalizing the bay's oyster.
CONCLUSION
    It is with great regret that someday this family will be forced to 
leave this industry. But if we do not aggressively consider change in 
how we think and act in this industry we see this in our future.
THINGS WE CAN DO;
    1. All groups continue to work together to provide for the 
opportunities to remain economically sound in this industry while 
providing for the environment.
    2. Address and change regulations and policy which limit our 
ability to compete nationwide in this industry. See attachment 3. These 
are issues presented by the DNR in conversations with legislators and 
industry.
    3. Provide and encourage farming (aquaculture) in the bay both on a 
public and private level.
    4. Increase hatcheries ability to provide seed oysters in our 
farming pursuit.
    a. Horn Point - increase production
    b. Piney Point- upgrade facility allowing for higher production
    c. Private hatcheries. Encourage this but this will occur only when 
aquaculture is encourage on both a public and private level. On public 
and private leased grounds.
    5. Use and increase the sanctuary and recovery area plantings of 
oysters in the bay currently being organized by the Oyster Recovery 
Partnership.
    6. Embrace the importance of the shell culte product in the 
reproduction of seed oysters. Enhance our ability of being able to 
supply the shell for this purpose.
    7. Maintain and improve Langenfelders fossil shell operation to 
produce shell used in the effort to grow oysters in the bay.
    8. Continue to use scientist to find a oyster that will have 
disease resistance in our natural product and use all methods available 
to put it in the bay. Open experimental trials of the non native oyster 
the Areakanas in Maryland waters. Use the VIMS approach for control to 
assure the safest trial possible is used.
    This allows Maryland to have invaluable information both on the 
oysters it's prospects and its problems that it could produce. Consider 
putting it in the bay if test prove to have a positive affect.
    9. Provide funding to recreate habit areas produced by oyster reefs 
and put grassed in the bay. Protect these. These two things will 
substain the very life of the bay providing sanctuary, the food chain 
for all species.
    10. Know our History. Read the oyster by John Brooks about the Bay 
and use it to determine our future.
    Those knowledgeable of this situation in the bay both 
environmentally and economically acknowledge that the oyster 
restoration must be undertaken on a large scale if we expect to restore 
habitat areas, improve the quality of the waters in the bay land 
provide for the economics which are so important to this region. We 
have already succeeded in producing results in our efforts but this 
must be undertaken on a even larger scale.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Ms. Oertel, and your testimony 
has been very compelling. I would guess that probably more than 
half the people in this room have read the book that you 
describe, by that early scientist over 100 years ago, who 
predicted what we are now trying to deal with. When you read 
that book, it seems like somebody from Johns Hopkins wrote it 
about a month ago.
    Ms. Oertel. I agree with you.
    Mr. Gilchrest. It was very timely. And you bring up some 
compelling perspectives on oyster recovery in the Bay, and I 
would like to ask Mr. Frentz, I know you didn't come to testify 
today about aquaculture, or private oyster harvesting, or those 
kinds of programs. But if we are looking at the overall 
recovery effort of the Chesapeake Bay, would you say, or have 
you discussed, or do you care to discuss the issue of 
privatizing or making a co-op with oyster recovery? Is that a 
piece of it, a part of it?
    Mr. Frentz. It is certainly a process we have looked at, 
and forgive the passion of Karen, we have a hard time keeping 
her down to 5 minutes at our board meetings, too. But she is 
correct. There are a lot of things that we need to look at, and 
aquaculture is one of them. There are an awful lot of 
leaseholders in the State of Maryland, especially in the area 
in the Nanocoke River. These folks basically have no access to 
any oyster spat. The Partnership planted 55 million oysters 
this year, but it is really a drop in the bucket. It is still 
something we are trying to give Mother Nature a jump-start on.
    These folks would like to have access to oyster spat to put 
on the grounds that they are working, and I would like to see 
co-ops occur.
    Mr. Gilchrest. What has to change in order for them to have 
access to oyster spat?
    Mr. Frentz. Well, logistically, the Partnership, especially 
with some grants from NOAA, has basically quadrupled what the 
University was able to do, but it is not enough. We probably 
need to look at private enterprise, a public-private 
partnership. If there could be some funding with that, another 
hatchery would not be out of the scheme of things. There are a 
number of private people I have talked to that may want to take 
that on.
    Karen was also right to tell you that the disease pressures 
are such that it is a tough thing for you to decide to get into 
the business if your oysters are not going to live. So, we have 
turned a corner, Mr. Chairman. We have got a long way to go. 
Certainly, the Oyster Recovery Partnership has gotten everybody 
out of their comfortable box. We are doing things a lot 
differently than we have in the past.
    Mr. Gilchrest. Would you say, Mr. Frentz, that there is a 
consensus about aquaculture, or is it still a pretty vitriolic 
difference of opinion, whether it is the commercial watermen, 
the State management regime, the private sector, the public 
sector, is there the beginnings of a consensus for some 
leaseholding to occur?
    Mr. Frentz. Well, the Partnership does have a few 
aquaculture projects in the field. Our difficulty is proving 
that they can make a profit and that it is a viable operation 
for them. Karen can back a lot of folks here, their experience 
in aquaculture has not worked very well.
    Mr. Gilchrest. Is that because of disease?
    Mr. Frentz. There is a tremendous impact on aquaculture in 
Maryland because of the nutrient loads. Just the cleaning of 
these aquaculture facilities, the bags that they put out in the 
upper water columns. It is a very--it is a heck of a lot of 
time and effort that needs to be put to bear by these watermen 
or aquacultures that may want to get involved in the process. 
You throw in the diseases after they do all this good work and 
they finally get an animal, and in the higher salinities MSX 
will kill the young oysters quickly, and the Dermo takes over 
just as these animals are basically getting to market size, 
about 3 inches. So, you do all that work and it is very labor-
intensive and you can't get your oysters to market, it is a 
very difficult scenario for you.
    So, there are suggestions on some public-private 
partnerships. There are still a few folks out there that would 
like to do aquaculture, but I think they are going to need some 
help from all of us to get the ball rolling.
    Mr. Gilchrest. Thank you.
    Ms. Oertel. Just to address the No. 3 that I related to 
that you need to read is oyster leasing issues. It was in 
coordination with DNR, myself, and two legislators, in an 
interest to try to find a solution or to create some 
aquacultural initiative in Maryland. We have been unsuccessful 
thus far, but I think that it gives you some of the problems 
that we deal with, if you would read that. Certainly, the area 
where lease grounds are located, they are marginal, 
nonproductive, mud-ridden, near in small tributaries where 
runoff and silting is prevalent, and they don't--I mean, you 
can put oysters on a bottom that is muddy and they suck down to 
China. We have done that. It doesn't work.
    Mr. Frentz. Mr. Chairman, last year I did ask for some NOAA 
funds, substantial funds, and basically was turned down because 
the way the aquaculture initiatives are set up, from a Federal 
funding point of view, it only addresses very small 
aquacultural projects. We were turned down because I basically 
asked to start up a new hatchery, a watermen aquacultural co-op 
type of situation, to develop the resources to allow these 
aquacultures to have access to oyster seed, and it was turned 
down flat basically because I was not a small operation looking 
to do this on a small scale.
    Mr. Gilchrest. You were turned down by NOAA?
    Mr. Frentz. It was of the--Rich, can you help me out--
    Mr. Gilchrest. I think to some extent we are crossing the 
line between--
    Mr. Frentz. U.S. Department of Agriculture. National Sea 
Grant Aquacultural Initiative, according to Rich.
    Mr. Gilchrest. They turned you down because you were too 
big?
    Mr. Frentz. Too big. I actually asked for an overall 
operation to jump-start the entire industry here, and it was 
basically predicated on smaller areas.
    Mr. Gilchrest. So you had specific locations that were 
suitable, unlike what Ms. Oertel was talking about, where the 
areas that were, I guess, agreed upon for aquaculture for 
oysters were not suitable based on their location and some of 
the problems from sediment, things like that?
    Mr. Frentz. I won't claim that I had a suitable site picked 
out, Mr. Chairman.
    Mr. Gilchrest. We will follow up and certainly work with 
you on that issue, and work with NMFS, Seagrant, USDA, and 
anybody else that might help us pull together some pilot 
project.
    Mr. Gilchrest. I think that would be very helpful for a 
jump-start because it is just very difficult for a private 
enterprise to take such an exposure when we happen to find the 
success out there for them.
    I would like to comment also about a lot of the discussion 
that we had today about the flexibility that the Partnership 
has to basically get out of the box and do these things, and 
the outstanding rapport we have with NOAA. And if I can make a 
subtle request of your committee--
    Mr. Gilchrest. You can make a subtle, or latent, or right 
on the--it won't be very subtle if you speak into the mike.
    Mr. Frentz. I guess I have never been accused of being 
subtle, so I will just ask. When you write the language for 
these MPAs, if you give such specific guidelines and you box-in 
the Army Corps or NOAA or some of the other folks that we work 
with, and you don't allow us that flexibility or that adaptive 
management or whatever term you want to use, this will put us 
into a complete bind because the dynamics of the Bay are 
evolving. There is no question that without flexibility, 
without using the best science that is coming in to bear, if 
you map out a strategy that is so narrow, you won't allow us to 
have success bringing back the health of the Bay.
    Mr. Gilchrest. Well, that was one of the reasons I posed 
that question to the Corps of Engineers, so that they had--we 
have worked for many years with the Corps of Engineers on just 
innumerable projects with different perspectives on goals and 
policies and things like that. We just wanted to make sure that 
the Corps was clear in its mission to restore the oysters, and 
actually the staff showed me the language in which the Corps 
was given that responsibility. And looking at the language, I 
think it was pretty clear to me that the Corps had some 
flexibility to work with the Partnership to do what was best. 
We don't want to lock anybody into a very narrow frame of 
reference. And after serving in Washington for a few years, all 
the brains in the nation don't reside there. So, we want to 
come up with full partnerships.
    I just had another question, actually, about Marine 
Protected Areas, and whatever we want to call them--
sanctuaries. It seemed to me that a number of people today on 
this panel--Mr. Hirshfield talked about the endowment with the 
principal in which we can harvest the interest, but the 
principal will be fundamentally sound for generations to come, 
and that from Dr. Luckenbach mentioning apparently that the 
older they are, they have lived that long, they are going to be 
resistant, so that we would think, I would assume, areas of the 
Bay where you could have those old oysters putting out spat 
that are resistant to these diseases, and that maybe some of 
the sanctuaries, some of the Marine Protected Areas, could be, 
in the beginning at least, considered to be permanent. These 
are sanctuaries that we will draw upon gradually, but they will 
give us this solid group of old world oysters--when I say old 
world, what used to be here a couple hundred years ago. Do we 
need to permanently set aside a reasonable number of 
sanctuaries that will be permanently protected?
    Mr. Hirshfield. My understanding of the consensus is that 
is what people are expecting to come out of this. I don't think 
there is any expectation that after ten or twenty years of 
building back some of the oyster reefs of the Chesapeake Bay, 
that the intent is to go back in and knock them all down. There 
are still ongoing questions of what the appropriate fraction of 
the bottom that should be a set-aside should be, and those 
discussions will continue, but I think everybody understands 
the concept of maintaining the principal, and that is part of 
the 90-10 breakdown of the protected area. Ten percent set-
aside as not just old and disease-resistant, but old and really 
big and making lots and lots of baby oysters, not just a few 
oysters that a 3-year-old might make, plus the 90 percent of 
the managed area, that is the managed reserve that is designed 
to live off that interest. So, that is the core of the concept, 
and the only wrinkle in that is making sure you get the right 
areas so that you actually are getting that interest spread 
outside of the true sanctuary.
    Mr. Gilchrest. Thank you. Mr. Baynard?
    Mr. Baynard. I think the public perceives that that would 
be the case, that a sanctuary is just as described, it would be 
permanent. In the case of oyster restoration, I don't think the 
public would be willing to commit the resources, time and 
effort to accomplish this without that understanding. If it 
were to be opened back up for general consumption in some form, 
I just don't think that you could get this commitment that is 
needed to accomplish what we want.
    Mr. Frentz. Mr. Chairman, there is no intention of breaking 
these sanctuaries down, they are inviolate. To expand on that, 
from some of these progeny that are coming out, the watermen 
helped the Partnership clean two sanctuaries in the Patuxent 
River, one called Teague and Elbow Bar, Elbow Bar being a 
sanctuary area that the Chesapeake Bay Foundation has been 
interested in for several years. And when they cleaned those 
bars, they acquired some large, mature oysters that were 
impacted into the mud, which nobody thought was there. They 
figured it was devoid of oysters.
    We took those oysters and we placed a lot of them on a 
certain area in close proximity to each other because the 
scientific community tell us that is the best way for them to 
recruit. We took some of those oysters and we have given them 
to Dr. Don Merritt at the University of Maryland Center for 
Environmental Science, and he will take those oysters and he 
will breed those oysters and the spat-on-shell that comes from 
them will go back to that specific bar. And although we don't 
have all the answers, it makes good sense, common sense, to me, 
to take the animals that were living there and take the animals 
that are produced from those mature oysters and put them right 
back onto that bar. Something said that those animals could 
live there. It wasn't rocket science for me to put them right 
back where they were in the first place, and we have done this 
in 16 different places in the Bay this year.
    Now, we will monitor these things. We will take a look at 
it. And, again, what we are all trying to do is get out of the 
box, think a little bit differently, use the best science we 
have got, impact this from a larger logistical point of view to 
get as many oysters out of the water as we can. We could use 
some common sense out there as we are trying to bring back the 
Bay.
    Ms. Oertel. One of the things from the Oyster Roundtable 
that we realize needs to be in place, and we hope will be in 
the new plan that we are developing, has to do with the 
sanctuary and recovery areas and the fines, the control of 
those areas if someone gets on them. We know that a slap on the 
wrist, a minimal fine is not going to stop anyone. We have got 
to get serious about our law enforcement and our courts with 
what we are going to do, and I think we all realize that. 
Perhaps a loss of a license for a period of time will start to 
make an impact. I don't know what direction that is going in, 
but we realize that that has to be in place in order to protect 
these areas.
    Mr. Gilchrest. Thank you very much. Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman, and thank you for 
your testimonies this afternoon. It was very compelling 
testimony, as the Chairman has noted, Ms. Oertel.
    I guess many of the issues that have been raised pertain to 
State regulations. Some deal more appropriately, I guess, with 
what I am trying to understand here, which is the Federal end 
of it. I am trying to receive some sense of guidance from your 
testimonies. In particular, I am very interested in Mr. 
Baynard's testimony in which I believe you mentioned several 
times that there was a lack of clarity about MPAs, and that 
that lack of clarity has led perhaps to, in some ways, 
restricting the use by people for recreational purposes. I am 
trying to juxtapose that with Mr. Frentz' testimony when 
talking about regulations which seem to argue for more 
flexibility in order to be able to develop sanctuaries and 
protected areas in a more collaborative way.
    What is the basic issue that you are trying to get across, 
Mr. Baynard, and am I characterizing your testimony 
appropriately?
    Mr. Baynard. The major issue is communications and 
understanding. CCA isn't opposed to the concept of MPAs. What 
we are concerned about is losing our access and ability to 
utilize the public resource. We have laid out criteria that we 
feel needs to be addressed. In the case of the Chesapeake Bay 
and the oyster sanctuaries, again, this brings in the issue of 
defining an MPA, and the broad use and what people view it as.
    We want to be assured--and I think, in general, we have 
been--but we want to be assured up front that in supporting the 
concept of an oyster sanctuary and in other terms, of an MPA, 
that the recreational sector is not going to be denied access 
into those areas to enjoy recreational fishing.
    Many times, Government has good intentions that get 
sidetracked and adversely affect large portions of the 
citizenry perhaps unintentionally, and we just feel that these 
are issues that need to be brought forward in the beginning, 
not at the end.
    Mr. Underwood. Well, I guess that is part of the structure 
that at least the Congress has tried to develop in terms of 
making sure that stakeholders are consulted, that sometimes it 
appears a little confusing, and perhaps it may put out of focus 
one or two groups of stakeholders, and I think the process is 
inevitably filled with some sense of uncertainty in terms of 
what the final outcome is--that is, your sense of--you are 
certainly not arguing that the decisions be pushed up, are you? 
You are just arguing for more clarity in terms?
    Mr. Baynard. We are arguing for more clarity. Again, it may 
well be designed that there will be no restrictions in the case 
of Chesapeake Bay, but we want that known in the front portion 
of this process. If restrictions become necessary, all we are 
asking is that there be scientific basis for those 
restrictions, that there be quantitative measurements for the 
benefit of it, and that if recreational angling is having a 
negative impact on these resources and other traditional 
methods aren't able to be utilized to address those, that once 
those problems and issues have been answered and addressed, 
that we have recourse to gain access back to these areas.
    Mr. Underwood. Well, thank you for your testimonies again, 
and hopefully 1 day, Mr. Hirshfield, we will get back to those 
really big oysters that we can eat with a regular size fork.
    Mr. Hirshfield. Navigation hazards in the Chesapeake Bay. 
You have to watch your sailboat.
    [Laughter.]
    Mr. Underwood. We eat with a regular size fork so that Ms. 
Oertel's business will boom. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Underwood. I will just close 
with a last--I guess, a last comment or question. Each of you 
up there knows the complexity and the difficulty that lies 
ahead not only with oyster restoration, but with the best that 
we can understand from an engineering perspective, the 
mechanics of the ecosystem within this watershed. And it is not 
just about oysters. In fact, Mr. Baynard, I think you made a 
comment about menhaden, which is a part of the filtering 
system, and then we talked about phytoplankton and then 
zooplankton, then the worms at the bottom in the mud, and then 
the interactions between prey and predator species, and the 
moratorium on rockfish, and all of these things are enormously 
complex, but I would assume and hope that as we move forward, 
that each interest group, whether it is the Oyster Recovery 
Project or recreational fishermen or commercial fishermen or 
private sector business or the Chesapeake Bay Foundation or 
NOAA or whoever, or the scientists that come in and give us the 
best available data that they have at that particular time, 
that we certainly broaden as far as we can our frame of 
reference on the issue so we don't let small particulars 
interrupt or slow down the progress.
    In the area of recreational fishing, for example--there are 
a lot of other examples we could give here. There are a lot 
more recreational fishermen here today than there were 20 years 
ago, and they come from all over, not just Maryland--Delaware, 
Pennsylvania, New Jersey, New York, North Carolina, West 
Virginia, Ohio, from out West--and we see more and more 
pressure from the recreational boating community, the 
recreational fishing community. We want to make the Bay as 
accessible and as available to all these people as possible, 
and we want them to enjoy a vibrant, productive, pristine, 
clean Chesapeake Bay. To do that takes an enormous effort.
    Each county on the Bay has a dozen or dozens of little 
tidal basins, tidal ponds, that are craving for more SAVs, that 
are now beginning to spawn rockfish within the last few years, 
that didn't 20 years ago. What we see, though, is more and more 
people--I have seen it myself--going into the tidal ponds with 
hand-held nets, catching fish with children on a wonderful, 
warm Saturday afternoon, wading in waist-deep water, while some 
of the other things in that region, like eagles or osprey or 
blue heron, go wanting for the fish that are scooped up in a 
small tidal pond that might be ten acres.
    Now, you want the kids to go in there and learn about the 
ecosystem. You want them to catch fish. But the pressure on the 
Bay comes from a rather large group of citizens whose 
population continues to increase in the area which we recreate 
in, like the tidal basins or the Bay, doesn't increase.
    So, this is an issue that takes rigorous critical mental 
exercise, and it is not going to be over next year or 10 years. 
Every generation has to take the responsibility to deal as 
effectively as they can with this issue. And Mr. Underwood and 
myself and Mr. Owings certainly has to listen to each of you 
and absorb your information so that we can put in place a type 
of legislation that helps each of you expand the people that 
you represent into this critical area of the Bay.
    And I want to thank all of you for coming. Whenever we have 
hearings and each of you gives testimony from a different 
perspective, from different interest groups--and I want to tell 
you that Mr. Underwood is a good listener, an intelligent 
member of this committee, and our staffs on both sides will 
take this information and do the best we can for all of you. 
Thank you all very much.
    The hearing is adjourned.
    [Whereupon, at 1:25 p.m., the subcommittee was adjourned.]

                                   - 


</pre></body></html>
